<html>
<title> - CLEMENCY FOR FALN MEMBERS</title>
<body><pre>[Senate Hearing 106-799]
[From the U.S. Government Printing Office]




                                                        S. Hrg. 106-799

                       CLEMENCY FOR FALN MEMBERS

=======================================================================

                                HEARINGS

                               before the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                                   on

EXAMINING CERTAIN IMPLICATIONS OF THE PRESIDENT'S GRANT OF CLEMENCY FOR 
     MEMBERS OF THE ARMED FORCES ON NATIONAL LIBERATION (THE FALN)

                               __________

                   SEPTEMBER 15, AND OCTOBER 20, 1999

                               __________

                          Serial No. J-106-46

                               __________

         Printed for the use of the Committee on the Judiciary


                               __________

                    U.S. GOVERNMENT PRINTING OFFICE
68-017                     WASHINGTON : 2000


                       COMMITTEE ON THE JUDICIARY

                     ORRIN G. HATCH, Utah, Chairman

STROM THURMOND, South Carolina       PATRICK J. LEAHY, Vermont
CHARLES E. GRASSLEY, Iowa            EDWARD M. KENNEDY, Massachusetts
ARLEN SPECTER, Pennsylvania          JOSEPH R. BIDEN, Jr., Delaware
JON KYL, Arizona                     HERBERT KOHL, Wisconsin
MIKE DeWINE, Ohio                    DIANNE FEINSTEIN, California
JOHN ASHCROFT, Missouri              RUSSELL D. FEINGOLD, Wisconsin
SPENCER ABRAHAM, Michigan            ROBERT G. TORRICELLI, New Jersey
JEFF SESSIONS, Alabama               CHARLES E. SCHUMER, New York
BOB SMITH, New Hampshire

             Manus Cooney, Chief Counsel and Staff Director

                 Bruce A. Cohen, Minority Chief Counsel

                                  (ii)


                            C O N T E N T S

                              ----------                              

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Hatch, Hon. Orrin G., U.S. Senator from the State of Utah.....1, 89, 92
Feinstein, Hon. Dianne, U.S. Senator from the State of California     5
Leahy, Hon. Patrick J., U.S. Senator from the State of Vermo6, 105, 107
Thurmond, Hon. Strom, U.S. Senator from the State of South 
  Carolina.......................................................7, 117
Sessions, Hon. Jeff, U.S. Senator from the State of Alabama......    59
Torricelli, Hon. Robert G., U.S. Senator from the State of New 
  Jersey.........................................................    61
Grassley, Hon. Charles E., U.S. Senator from the State of Iowa...    62
Abraham, Hon. Spencer, U.S. Senator from the State of Michigan...    66
Kyl, Hon. Jon, U.S. Senator from the State of Arizona...........71, 132
Specter, Hon. Arlen, U.S. Senator from the State of Pennsylvania.   135

                    CHRONOLOGICAL LIST OF WITNESSES
                           september 15, 1999

Panel consisting of Rocco Pascarella, former New York City 
  policeman, FALN victim, Washingtonville, NY; William P. 
  Newhall, FALN victim, New York, NY; Donald R. Wofford, former 
  FBI special agent assigned to New York City FALN Investigation, 
  Wilmington, NC; Richard S. Hahn, former FBI special agent 
  assigned to Chicago FALN investigation, Long Beach, CA; Gilbert 
  G. Gallegos, national president of the Grand Lodge, Fraternal 
  Order of Police, Washington, DC; Reverend Dr. C. Nozomi Ikuta, 
  United Church of Christ, Cleveland, OH; and Hon. Angel M. 
  Cintron Garcia, Majority Leader of the House of Representatives 
  of Puerto Rico, and Federal Affairs Coordinator for the 
  Republican Party of Puerto Rico, San Juan, PR..................    19

                            october 20, 1999

Panel consisting of Hon. Eric Holder, Deputy Attorney General, 
  U.S. Department of Justice, Washington, DC; and Roger Adams, 
  pardon attorney, U.S. Department of Justice, Washington, DC....    96

               ALPHABETICAL LIST AND MATERIALS SUBMITTED

Abraham, Hon. Spencer: Letter and memo from Edison Misla-
  Aldarondo, Republican National Committee, San Juan, Puerto 
  Rico, dated Sept. 13, 1999.....................................    66
Adams, Roger:
    Testimony....................................................   100
    Prepared statement...........................................   102
Cintron, Hon. Angel M.:
    Testimony....................................................    49
    Prepared statement...........................................    51
Gallegos, Gilbert G.:
    Testimony....................................................    35
    Prepared statement...........................................    37
Hahn, Richard S.:
    Testimony....................................................    31
    Prepared statement...........................................    32
Holder, Hon. Eric:
    Testimony....................................................    96
    Prepared statement...........................................    98
Ikuta, Rev. Dr., Nozomi C.:
    Testimony....................................................    44
    Prepared statement...........................................    46
        Letter to President Clinton, from Paul H. Sherry, United 
          Church of Christ, dated Sept. 7, 1999..................    48
        News Communication, dated Sept. 8, 1999..................    48
Kyl, Hon. Jon:
    Prepared statement of Dr. Miriam Ramirez de Ferrer...........    73
    Press Release: Puerto Ricans In Civic Action, dated Sept. 13, 
      1999.......................................................    75
    Anonymous prepared statement.................................    75
Leahy, Hon. Patrick J.:
    Letter to Hon. Janet Reno, Attorney General, dated Sept. 21, 
      1999.......................................................   139
    Letter from Jon P. Jennings, Acting Assistant Attorney 
      General, dated Sept. 29, 1999..............................   139
Newhall, William P.:
    Testimony....................................................    22
    Prepared statement...........................................    23
Pascarella, Rocco:
    Testimony....................................................    19
    Prepared statement...........................................    21
Thurmond, Hon. Strom:
    Letter from Gilbert G. Gallegos, national president, Grand 
      Lodge, Fraternal Order of Police, dated Aug. 18, 1999......     8
    Letter from John J. Sennett, president, FBI Agents 
      Association, dated Aug. 24, 1999...........................     9
    Various Newspaper Articles...................................    11
Wofford, Donald R.:
    Testimony....................................................    24
    Prepared statement...........................................    26

                                APPENDIX
                 Additional Submissions for the Record
                            october 20, 1999

Hatch, Hon. Orrin G.: Letter and Various Documents...............   149

 
                       CLEMENCY FOR FALN MEMBERS

                              ----------                              


                     WEDNESDAY, SEPTEMBER 15, 1999

                                       U.S. Senate,
                                Committee on the Judiciary,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:40 a.m., in 
room SD-226, Dirksen Senate Office Building, Hon. Orrin G. 
Hatch (chairman of the committee) presiding.
    Also present: Senators Grassley, Specter, Kyl, Abraham, 
Sessions, Feinstein, Torricelli, and Schumer.

 OPENING STATEMENT OF HON. ORRIN G. HATCH, A U.S. SENATOR FROM 
                       THE STATE OF UTAH

    The Chairman. We are happy to begin this morning. I 
apologize for being just a little bit late. My whole morning 
has been like that. I have been here since a little after 6:00 
a.m.
    On January 24, 1975, during a busy lunch hour, an explosion 
ripped through the historic Fraunces Tavern in New York City, 
killing four people and injuring 55 others. On August 3, 1977, 
during the morning rush hour, a powerful bomb was detonated in 
a busy New York office building, killing one man and injuring 
several others. In March of 1980, armed members of the FALN 
entered the Carter-Mondale campaign headquarters, bound and 
gagged women and men inside, and held them at gunpoint as they 
ransacked the offices.
    Now, credit for these and other criminal acts was proudly 
taken by a terrorist organization calling themselves the 
``FALN,'' an acronym from a Spanish title meaning ``the Armed 
Forces for Puerto Rican National Liberation.'' In all, the FALN 
has been linked to over 150 bombings, attempted bombings, 
incendiary attacks, kidnaps, bomb threats, and others, which 
have resulted in the death of at least six people and the 
injury of at least 70 others.
    On August 11, 1999, President Clinton, who up to this point 
had only commuted three sentences since becoming President, 
offered clemency to 16 members of the FALN. This to me, and 
really almost every Member of Congress, was shocking. And, 
quite frankly, I think I am joined by a vast majority of 
Americans in my failure to understand why the President, who 
has spoken out so boldly in opposition to domestic terrorism in 
recent years, has taken this kind of an action.
    After much public criticism of the offered clemency, the 
White House spin doctors went to work. They alleged that the 16 
offered clemency were not ``directly'' involved with activities 
that hurt people because they were not convicted of the actual 
attacks that killed or maimed people. But this is a very poor 
excuse for clemency. These people were convicted of conspiring 
to commit acts of terrorism which led to bloodshed. Many of 
these 16 were involved in building bombs and in storing and 
transporting explosives, incendiary materials, and weapons. In 
one raid alone involving the terrorists President Clinton has 
released information concerning, law enforcement recovered 24 
pounds of dynamite, 24 blasting caps, weapons, and thousands of 
rounds of ammunition, as well as disguises and false 
identifications. Some were actually videotaped building bombs; 
others were arrested driving a van full of weapons.
    Now, the administration spin doctors also argued that these 
prisoners received longer sentences than they would have under 
the Sentencing Guidelines. Well, I will just point out that 
there are thousands of people in jail who were sentenced before 
the guidelines. Does each of them deserve to have their 
sentence reduced? The President will have to pick up the pace 
of clemency offers if he is to right all those so-called wrongs 
in the 15 months left in his term.
    This whole episode raises a number of questions about the 
administration's approach to law enforcement and the rule of 
law in general. Were the normal procedures followed in the 
processing of clemency opinions? What set these 16 prisoners 
apart from the more than 4,000 who have petitioned the 
President for clemency, or the other tens of thousands serving 
time across the country? What prompted the President to make 
this offer of clemency? Who recommended it? On what basis was 
it granted? This hearing is thus absolutely necessary. I think 
we need to know whether the Justice Department did its job. 
There are substantial questions as to whether the normal 
process was followed in this case.
    Reportedly, the President made his clemency offer over the 
strong objections of prosecutors, the FBI, the Bureau of 
Prisons, and the victims of these crimes. Here we have another 
example of what people suspect: The Attorney General is asleep 
at the switch, while the White House is running the Justice 
Department.
    As chairman of the Senate committee with oversight of the 
Department of Justice, I have requested copies of all relevant 
documents, including the Department's memo to the White House. 
Indeed, Senator Schumer, a distinguished member of this 
committee from New York, and no Republican last time I looked, 
publicly stated that we should have these documents. But so far 
the administration and the Department have refused to turn over 
anything.
    I am sorry to say that the White House and the Justice 
Department are hiding behind their tired old ploy of 
``studying'' whether to assert Executive privilege.
    If the President has confidence that his decision was the 
right one or was a just one, then he ought to be willing to 
hold it up to public scrutiny. Now, there may be a legitimate 
argument that Executive privilege applies to some materials, 
although I fail to see any at this particular time. There is no 
legitimate reason, however, not to allow the Justice Department 
witnesses to appear before Senator Coverdell's hearing 
yesterday about the current status and activities of the FALN. 
Nor is there any legitimate reason for the Justice Department 
to refuse to allow the Pardon Attorney to testify today about 
how the clemency process works. Are the White House and the 
Department of Justice studying or are they really just plain 
stonewalling? I think we know the answer to that.
    At the hearing today we will hear from the law enforcement 
community and the victims who have been affected by this grant 
of clemency. I have invited representatives of the FBI and the 
Justice Department Pardon Attorney's office. I hope the White 
House and the Department of Justice will allow them to testify. 
But they are not going to today, apparently.
    We have to get to the bottom of this clemency fiasco. But 
the real bottom line is that the President's ill-considered 
offer of clemency has now been accepted by 12 of the 16 FALN 
members, many of whom are now back on the street. These are 
people who have been convicted of very serious offenses, 
including sedition, firearms, explosives, and threats of 
violence. The FALN has claimed responsibility for past bombings 
that have killed and maimed American citizens, and I pray with 
all my heart that no one else is going to get hurt.
    This is yet another example of this administration sending 
the wrong message to criminals, be they foreign spies, gun 
offenders, or, in this case, terrorists. I want to certainly 
get to the bottom of these matters.
    I might mention that just last week I read in the newspaper 
that the instant check system which I have strongly supported 
from the outset has uncovered 23,000 people who have unlawfully 
requested ownership of guns or tried to purchase weapons in 
violation of the law. Guess how many prosecutions this 
administration has brought? Sixty-five. At least, that was what 
the article said.
    Now, these are the people bad-mouthing everybody who has a 
right to keep and bear arms in our society as though they are 
criminals, when, in fact, the criminals have access to guns 
almost regardless of what decent, law-abiding citizens are 
doing. I just get tired of this type of situation.
    Let me read to you the letter we got last night from the 
Department of Justice. This is from the Office of the Attorney 
General, and this letter is signed by Jon P. Jennings, Acting 
Assistant Attorney General.
    ``Dear Mr. Chairman: This is in response to a request 
communicated to us by committee staff that representatives of 
the Department of Justice, including the Federal Bureau of 
Investigation, testify at your hearing on September 15, 1999, 
on clemency for FALN members. Although the Department 
appreciates your invitation to testify on these important 
matters, we have regretfully concluded that we are not in a 
position to provide testimony at this time.''
    Isn't that amazing?
    They go on to say, ``As you know, under the Constitution 
the authority to grant clemency rests solely with the 
President.'' I agree with that. Then they cite a couple of 
cases. It says, ``To the Executive alone is entrusted the power 
of pardon,'' reaffirming that the pardon power is ``committed 
to the exclusive control of the President.''
    ``We wish, of course, to provide Congress with information 
to satisfy its oversight needs to the fullest extent possible. 
In light of the importance of constitutional and institutional 
interests implicated by your invitation for testimony and the 
fact that the hearing may, in significant part, address the 
exercise of an exclusive Presidential prerogative, we are 
carefully reviewing this matter and consulting with the White 
House regarding how most appropriately to proceed. Until this 
important issue has been resolved, we are unable to provide an 
FBI witness and the Pardon Attorney with the guidance they need 
regarding the areas, if any, with respect to which their 
testimony would be inappropriate.''
    ``We appreciate your willingness to limit the scope of Mr. 
Adams' testimony, but we remain concerned that he would, 
nonetheless, face unavoidable uncertainties in testifying at 
this time. We would prefer to accommodate the committee's 
request for information about the clemency process through an 
informal briefing for interested members, which we would be 
pleased to arrange in the near future. We understand the need 
to resolve promptly the issues relating to this invitation, and 
we are endeavoring to do so. Please do not hesitate to contact 
me if you would like additional assistance regarding this or 
any other matter. Sincerely, Jon P. Jennings,'' also a copy 
going to the ranking member on this committee.
    Now, this is pathetic. We have had trouble getting this 
Justice Department to testify about anything in most instances. 
We have had the Attorney General consistently raise Executive 
privilege, consistently raise that a matter is in litigation, 
consistently raise matters as though they are classified when, 
in fact, they are not classified. When we finally took her up 
on holding a classified hearing in the secure room in the 
Capitol, my gosh, hardly a thing she said should have been 
classified. Yet when we tried to release that to the public, 
they redacted almost every other word in the doggone testimony.
    Now, this is not what we should have in this country. We 
should have open disclosure to the American people, and 
especially on something like this where there is so much heat 
and so much irritation and so much difference of opinion.
    So we are very concerned about it, and I am very concerned 
that the Justice Department thinks they can get away with this 
kind of activity. So we will just have to see what happens, but 
they are going to find themselves without some appropriated 
monies if they keep this up.
    There is a demoralization in the Justice Department today 
that I have never seen since I have been in the Senate, and 
that is now 23 years. And I don't blame the people down there 
being demoralized. They are being run by a bunch of people who 
don't care about the law or the rule of law, in my opinion, in 
some of these instances--not all, but some of these instances. 
And it is causing a real rift. Nobody has been more fair to 
this Attorney General or this Justice Department than I have. I 
have bent over backwards to try to accommodate them in every 
instance.
    I happen to know that people in the FBI would be willing to 
testify if they weren't being muzzled by the political types 
down there in the Justice Department.
    Well, enough said. Let me just say that we have Senator 
Feinstein here this morning, and we will turn to her for her 
remarks.

  STATEMENT OF HON. DIANNE FEINSTEIN, A U.S. SENATOR FROM THE 
                      STATE OF CALIFORNIA

    Senator Feinstein. Thank you very much, Mr. Chairman. I 
would like to make just a few comments about this.
    Let me at the outset say that serious, thoughtful people 
urged the President to offer this clemency. These people 
included former President Carter, 11 Nobel Peace Prize winners, 
including Archbishop Desmond Tutu and Coretta Scott King, and 
dozens of religious leaders and organizations.
    I don't think that clemency just came out of thin air. 
However, that being said, I believe strongly that the decision 
the President made was the wrong one and may well have some 
terrible impacts down the line.
    Apparently, the reasons, as nearly as I have been able to 
determine, were twofold: one, these people didn't actually 
plant the bombs; and, second, the sentences were longer than 
they would have been had the Sentencing Guidelines been in 
place. If that, in fact, is correct, then I think we ought to 
take a look at the Sentencing Guidelines with respect to these 
particular crimes.
    I am the ranking member on the Terrorism Subcommittee of 
this body, and I have done what I could to assist law 
enforcement in combating terrorism. There is no question in my 
mind that these individuals were terrorists. And I believe very 
strongly that the conviction shouldn't just be for the person 
who planted the bomb. It is one for all and all for one.
    If you participate in a terrorist network, you actually 
participate in the commission of the planting of the bomb, 
although your hand may not have actually planted that bomb. I 
believe this very, very firmly. And I think one of the things 
that has become very awkward is the ability to take one part of 
a network and say, well, they are not as culpable as another 
part of the network.
    The fact of the matter is that what the network plans to do 
is kill and maim innocent people. And I think that came very 
clear to me in Mr. Jimenez's statements on television over the 
weekend where he was asked the question: In 130 bombings, did 
you not believe it was possible for an innocent person to be 
killed? And the answer to that question was ``no.''
    Now, I think that defies any reasonable analysis of 
terrorism. There isn't anyone that would believe that you could 
participate in a terrorist network, plant bombs in restaurants 
and office buildings and other places and not run the risk of 
killing innocent people. It simply isn't credible.
    I think granting leniency to terrorists is one of the worst 
things one can do. We have tried in recent years to send a 
clear, unequivocal message to terrorists. If you plan or commit 
acts of terrorism against the United States, we will find you, 
we will hunt you down, and we will punish you severely. And I 
think every one of us has heard these words being uttered.
    Until this point, President Clinton's administration 
carried this message forward forcefully, including, for 
example, apprehending and punishing the Oklahoma City bombers 
and taking retaliatory strikes against Osama bin Laden.
    Interestingly enough, when we struck at that camp, there 
was no effort to see that a bomb wasn't going to hit someone 
who may not have actually planted a bomb. We are making a 
strike against the whole network. So one for all and all for 
one.
    The President's decision last month I believe dramatically 
undermines this message. Some have described these prisoners as 
political prisoners. I don't believe they were. They were 
terrorists, pure and simple. They were members of the FALN, the 
Armed Forces for National Liberation, which sought to make 
Puerto Rico an independent nation, although the dominant 
majority of people in Puerto Rico had voted down this point of 
view. While some of them will not admit it, this was alleged 
and it was proven in the trials against them.
    According to the FBI, ``In the past, Puerto Rican terrorist 
groups struggling for Puerto Rico's independence from the 
United States have been responsible for the majority of 
terrorist incidents perpetrated by domestic terrorist groups 
within the United States.''
    The FBI's Terrorist Research and Analytical Center reported 
in 1996 that the ``FALN has been linked to over 130 bombings 
which have resulted in over $3.5 million in damages, 5 deaths, 
and 84 injuries.'' The prisoners who received clemency were all 
active participants in this campaign of terror. One for all and 
all for one.
    I am not going to go into the individuals, though how they 
participated was classic terrorist activity. And, therefore, if 
you separate one or two out on the basis of a technicality that 
they didn't actually do this or they didn't actually do that or 
they have served more time than * * *, I think you weaken the 
message that we will seek out, we will hunt down, and we will 
punish severely people who practice terror against the United 
States of America.
    This is a major weakening in this armor that the United 
States had decided would be its policy. I am hopeful it will be 
the only aberration. I think, Mr. Pres--Chairman--I keep 
calling you ``Mr. President,'' and I don't really mean to do 
that. [Laughter.]
    Because I really want to keep you as the chairman of our 
committee.
    Senator Sessions. That does have a nice ring.
    Senator Feinstein. Mr. Chairman, I really think we ought to 
take a good look at the guidelines, and if there is any 
credibility to the argument that they would have served less 
time had the present guidelines been in place, I would 
respectfully submit that we ought to strengthen those 
guidelines.
    The Chairman. I am with you.
    Senator Feinstein. Thank you very much.
    The Chairman. Well, thank you. Your statement I think was 
very, very good.
    We will include in the record at this point the prepared 
statements of Senators Leahy and Thurmond.
    [The prepared statements of Senators Leahy and Thurmond 
follow:]

              Prepared Statement of Senator Patrick Leahy

    I did not agree with the President's recent clemency decision, but 
I recognize that it is his decision to make. When I was State's 
Attorney for Chittenden County, I did not always, agree when the 
Governor of Vermont exercised his clemency power, but I understood that 
it was his to exercise as he saw fit. There were numerous exercises of 
this constitutional power by the Republican and Democratic presidents 
with whom I have served over the last 25 years--President Carter used 
this power more than 560 times, President Reagan more than 400 times 
and President Bush more than 75 times--and they have not always been 
matters with which I necessarily agreed.
    My heart goes out to the victims appearing here today. When I was 
privileged to serve as Chittenden County's prosecutor, I had the good 
fortune to work alongside a number of dedicated State and local 
officers. These public servants literally put their lives on the line 
each day to protect all of us. Their responsibilities require split-
second judgment, dedication, timing, and guts. That members of law 
enforcement and their families also suffered as victims of bombings 
attributed to the FALN makes these matters even more difficult.
    While all are free to comment on the President's clemency 
decisions--and to disagree, as I do--the Congress should focus on 
getting its own work done. While the Republican leadership is hard-
pressed to find the time to deal with a number of critical legislative 
issues, the Senate has devoted much time last week and this week to a 
resolution condemning the President's clemency decision. Yesterday a 
subcommittee of the Foreign Relations Committee held a hearing on the 
matter and yesterday the Senate passed a substitute version of the 
resolution.
    Earlier this week, I cautioned against the extreme rhetoric of the 
version of the Lott-Coverdell resolution that was initially introduced. 
Through the course of the last week some of the misstatements of fact 
that were contained in the original version of the resolution have been 
corrected and its most extreme and dangerous political rhetoric has 
been eliminated. Yesterday, the Senate adopted a substitute for the 
resolution that deleted much of the overreaching language of the 
initial version.
    We ought to be careful when anyone, let alone the Senate and 
Congress of the United States, starts bandying about declarations that 
accuse the United States Government of making ``deplorable concessions 
to terrorists,'' ``undermining national security'' or ``emboldening 
domestic and international terrorists.'' Playing politics with this 
matter and accusing the President of ``undermining our national 
security'' or ``emboldening terrorists'' carries significant risks and 
was not right. I am glad that language was eliminated from the text of 
the resolution the Senate passed yesterday.
    The American people can judge whether the time and energy being 
devoted by the Congress to criticizing the President's decision in 
hearings and in debates on resolutions is the best use of the our 
legislative resources. I challenge the Senate to make time for votes on 
the important legislative matters and many qualified nominees whom the 
Republican majority has stalled for the last several years. The. Senate 
has not completed work on 11 of the 13 appropriations bills that must 
be passed before October 1. The Republican Congress cannot find time to 
pass campaign finance reform or a real patients' bill of rights or a 
raise to the minimum wage or Medicare reforms or the Hatch-Leahy 
juvenile justice bill. The long-delayed nominees include Judge Richard 
Paez--whose nomination to serve on the Ninth Circuit Court of Appeals 
has been pending for more than 3 and one-half years--and the 
nominations of Justice Ronnie White to be a federal judge in Missouri, 
Marsha Berzon to be a judge on the Ninth Circuit, Bill Lann Lee to head 
the Civil Rights Division and scores of other nominees pending before 
the Senate.
    The clemency power is designated by the Constitution to the 
President. The Senate has already considered the substitute for S.J. 
Res. 33. Yesterday the Chairman chose to reschedule the hearing to 
begin earlier than originally set. I was already scheduled to be 
meeting with the Chief Justice and the other members of the Judicial 
Conference of the United States. Accordingly, other legislative 
responsibilities may keep me from attending today's hearing, but I 
thank the witnesses for sharing their views with us.
                               __________

              Prepared Statement of Senator Strom Thurmond

    Mr. Chairman: I am pleased that we are holding this hearing today 
regarding the President's decision to commute the prison terms of 16 
members of the FALN, a Puerto Rican terrorist organization.
    These 16 criminals were convicted of various crimes arising out of 
their involvement with the FALN, a militant group that killed and 
maimed innocent civilians and police officers during its reign of 
terror. These individuals may not have personally committed murder, but 
they were active members, committing crimes such as weapons and bomb 
offenses and armed robbery to support their deeds. Each of them was 
convicted of seditious conspiracy, which involves attempting to destroy 
by force the government of the United States. Crimes such as this go to 
the heart of our Nation.
    America has long had a firm policy of intolerance regarding 
terrorism. Granting clemency to members of the FALN sends the wrong 
message about America's commitment to fighting terrorism. In fact, it 
sends the wrong message about America's commitment to fighting crime at 
home.
    It is no wonder that news reports indicate that the law enforcement 
organizations that reviewed the issue, including the FBI and Federal 
Bureau of Prisons, recommended against it. Moreover, law enforcement 
organizations have expressed strong opposition. In that regard, I would 
like to place into the record a copy of a letter from the Fraternal 
Order of Police and the FBI Agents Association.
    The FAIN terrorists do not even appear to regret their actions. One 
appeared on a Sunday news program and refused to express sorrow or 
remorse. It is telling that the criminals did not immediately agree to 
the simple conditions that the President placed on his generous offer. 
It took them weeks to agree to renounce the use of violence and submit 
to standard conditions of parole. Indeed, some never did.
    There is no question that the President has the Constitutional 
power to do what he did. The President receives thousands of requests 
per year for a pardon or clemency, and the Department of Justice has a 
standard procedure under which the Pardon Attorney reviews these 
requests each year. However, all indications are that the procedures 
were not followed in these cases, and that these cases were anything 
but routine.
    News reports indicate that the Justice Department did not make a 
recommendation for or against clemency in these cases like it normally 
does. There is no excuse for the Department to stand neutral on very 
significant requests such as these. Also, the terrorists apparently did 
not personally take the proper steps to seek the relief, given that one 
of the conditions for clemency was that the prisoners had to sign 
statements requesting it.
    I am very disappointed that the Administration has chosen not to 
participate in this hearing today and discuss these matters. The 
Congress has every right to question the Justice Department regarding 
the way it handles clemency petitions and whether the procedures were 
modified for these terrorists. However, I am pleased to have our other 
witnesses, and I commend them for their participation today.
                               __________

                    Grand Lodge, Fraternal Order of Police,
                                  Albuquerque, NM, August 18, 1999.
The Hon. William Jefferson Clinton,
President of the United States,
The White House,
1600 Pennsylvania Ave., NW,
Washington, DC.
    Dear Mr. President: I am writing this letter on behalf of the more 
than 283,000 members of the Fraternal Order of Police to express our 
vehement opposition to your offer of clemency to sixteen convicted 
felons involved with a wave of terrorist bomb attacks on U.S. soil from 
1974-1983. I would also like to express my own personal confusion and 
anger at your decision.
    Your offer of clemency would immediately release eleven convicted 
felons who conspired as members of the FALN to plant and explode bombs 
at U.S. political and military targets. The remaining five would have 
their criminal fines waived and only two would serve any additional 
time. These attacks killed six people, wounded dozens and maimed three 
New York City police officers: Detective Anthony S. Senft lost an eye 
and a finger, Detective Richard Pastorella was blinded and Officer 
Rocco Pascarella lost his leg.
    Your claim that none of these people were involved in any deaths is 
patently false. As members of the terrorist organization that was 
planting these bombs, all of them are accessories to the killings as a 
result of the bomb attacks. Two of the persons to whom you have offered 
clemency were convicted of a $7.5 million armored truck robbery, which 
undoubtedly financed the FALN's 130 bomb attacks.
    These are not Puerto Rican patriots, these are convicted felons who 
are guilty of waging a war of terror against Americans on American soil 
to accomplish their political objectives. Why are you rewarding their 
efforts?
    I can only assume you are again pandering for some political 
purpose. This time, Mr. President, it must stop before it begins.
    The ``human rights advocates'' who are so concerned about the 
plight of these killers have never shed a tear for the victims. These 
``human rights advocates'' are the same people and organizations who 
maintain that the United States routinely abuses the rights of its 
citizens and who issue reports stating that our state and local police 
officers are nothing more than racist thugs who enjoy brutalizing 
minorities. These ``human rights advocates'' are the same people and 
organizations who clamor for the release for Mumia Abu-Jamal, a 
convicted cop-killer, and raise money for his defense.
    I do not know, Mr. President, how they decide which rights to 
advocate and which to ignore, but it seems that murderers and 
terrorists are more entitled to them than victims. Do not offer 
clemency to sixteen convicted felons to placate ``human rights 
advocates.''
    I would also strongly urge you to reject any inclination or polling 
data that indicates this will generate sympathy for you or for a 
Democratic presidential candidate among Hispanic-Americans. As an 
Hispanic-American myself, I can assure you that releasing violent 
convicted felons before they have served their full sentences and to 
waive tens of thousands of dollars in criminal fines, is no way to 
appeal to racial pride.
    I sincerely hope, Mr. President, that this ill-conceived notion is 
consigned to the pile reserved for horrendously bad ideas. Many of the 
best accomplishments of your presidency stemmed from your commitment to 
law enforcement and to police officers.
    This aberration would surely eclipse all we have done to date to 
keep America safe. Police officers around the country, including me, 
have stood side by side with you in fighting violent crime and 
supporting your community policing initiatives. Caving into these 
advocates is a slap in the face.
    I look forward to hearing from you about this matter.
            Sincerely,
                                       Gilbert G. Gallegos,
                                                National President.
                               __________

Federal Bureau of Investigation Agents Association,
                 A Professional Non-Government Association,
                                 New Rochelle, NY, August 24, 1999.
The Hon. William Jefferson Clinton,
President of the United States,
The White House,
1600 Pennsylvania Ave.,
Washington, DC.
    Dear President Clinton: The Department of Justice has very recently 
announced that you have offered clemency to sixteen members of Puerto 
Rican terrorist groups. Speaking for the more than 9,000 members of the 
FBI Agents Association, I strongly urge you to withdraw this offer and 
not have your Administration give it any further consideration.
    The announced offers of clemency would commute the sentences of 
thirteen who are currently serving prison sentences and cancel the 
unpaid fines of three others. Further, the clemency would be 
conditional on the receipt from them of signed, written renunciations 
of violence and other promises.
    Signing a piece of paper will not put behind the individual 
responsibility of these convicted criminals and terrorists. Their 
written promises have no worth. It has been reported that clemency is 
justified for these sixteen because none of them were specifically 
convicted of crimes directly involving the loss of life. There are many 
criminals in federal custody for crimes that did not directly result in 
the taking of human life. On that basis, are they less worthy of 
clemency then these sixteen? And there are many criminals in federal 
penitentiaries, unlike these sixteen, who are not affiliated with 
organizations that have carried out carefully planned, ruthlessly 
executed systematic violence against innocent people, property, and the 
very sovereignty of the United States for over a decade.
    We appreciate that our system of justice requires that guilt must 
be found on specific charges. These terrorists should serve their full 
sentences and pay their full fines for their own crimes, not because it 
can be shown that they are simply affiliated with groups whose members 
have committed even more serious crimes. However, in determining who 
should receive the very rare benefit of clemency, the least 
consideration should be shown to those who are acknowledged members of 
an organization with so much blood and destruction for which to 
account.
    In 1979, the FALN united with three other Puerto Rican terrorist 
groups and issued a communique in September of that year promising 
``coordinated action''. Within a month, these four groups conducted 
their first joint operation. On the evening of October 17, 1979, a 
series of eight bomb attacks were conducted against United States 
government facilities in Puerto Rico. The attacks were timed to 
coincide with a series of bombings in Chicago and New York. What 
followed was a steady stream of bombings and attempted bombings against 
both civilian and military installations, two armored car robberies, 
the ambush murder of U.S. servicemen, and a rocket attack against a 
U.S. government office building and another against a U.S. courthouse. 
Deaths, injuries, and millions of dollars lost were the cost of these 
terrorist acts.
    The sixteen people who have been offered clemency, aside from the 
crimes for which they were individually convicted, all played roles in 
supporting the unified Puerto Rican terrorist groups, enabling those 
groups to function as essentially one effective clandestine terrorist 
organization. Through their active work in this terrorist network each 
of the sixteen contributed to some degree in its deadly and destructive 
mission.
    There are many FBI agents who have spent a substantial portion of 
their careers investigating the crimes of the Puerto Rican terrorist 
groups and bringing their members to justice. One such agent suffered a 
serious and debilitating injury from gunfire from one of the terrorists 
who remains a fugitive. The agent wrote to me of his stunned reaction 
upon hearing about the clemency offer. The members of the FBI Agents 
Association add our voice in opposition to the pardon offer. We see it 
to be inconsistent with basic justice, and inconsistent with the 
intolerant stance our country seeks to maintain in the face of 
terrorism.
    Thank you very much, President Clinton, for giving consideration to 
our views and concerns on this matter.
            Very truly yours,
                                           John J. Sennett,
                                 President, FBI Agents Association.

[GRAPHIC] [TIFF OMITTED] T8017.001

[GRAPHIC] [TIFF OMITTED] T8017.002

[GRAPHIC] [TIFF OMITTED] T8017.003

[GRAPHIC] [TIFF OMITTED] T8017.004

[GRAPHIC] [TIFF OMITTED] T8017.005

[GRAPHIC] [TIFF OMITTED] T8017.006

[GRAPHIC] [TIFF OMITTED] T8017.007

    The Chairman. We are pleased this morning to have a number 
of outstanding witnesses who, as I said earlier, will help to 
shed some light on the facts of this particular exercise of the 
President's clemency authority and the Department of Justice's 
role in that process. So if the witnesses will please take 
their seats, first we will hear from Mr. Rocco Pascarella, who 
is a former New York City policeman. Mr. Pascarella was one of 
those law enforcement officers injured in the 1982 FALN bombing 
of the Police Plaza in New York City. This particular chart 
shows Mr. Pascarella way back then. As you can see, this was a 
photo of Mr. Pascarella and others that appeared in the 
newspapers at that time.
    Following Mr. Pascarella, we will hear from Mr. Bill 
Newhall. Mr. Newhall was one of those injured, with three of 
his companions left dead, in the famed FALN bombing of the 
historic Fraunces Tavern Restaurant in New York City.
    We will then turn to Mr. Donald Wofford, who is a former 
FBI special agent who spent more than a decade investigating 
FALN activities and was the case agent for the New York City 
FALN investigation at the time of the Fraunces Tavern bombing.
    Following Mr. Wofford, we will hear from Mr. Richard Hahn, 
who is a former FBI special agent, who, like Mr. Wofford, spent 
more than a decade investigating Puerto Rican terrorist 
activities and was assigned to the Chicago FALN investigation.
    Next we will be pleased to hear from Mr. Gilbert Gallegos, 
who is the national president of the Fraternal Order of Police, 
the largest organization of law enforcement professionals in 
the United States, with some 283,000 members.
    Following Mr. Gallegos, we will turn to Reverend Dr. C. 
Nozomi Ikuta, who is an ordained minister with a Ph.D. of 
Ministry from the New York Theological Seminary and a Master of 
Divinity from Harvard Divinity School. She presently serves in 
the Division of the American Missionary Association for the 
United Church of Christ and is here representing that church.
    Finally, we will hear from the Honorable Angel Cintron 
Garcia, who is the majority leader of the House of 
Representatives of Puerto Rico and the federal affairs 
coordinator for the Republican Party in Puerto Rico. Mr. 
Cintron is in his third term as a member of the House of 
Representatives in Puerto Rico and is the chairman of various 
legislative committees, including the Committee on Federal and 
Financial Affairs.
    I just want to welcome all of you before this committee. 
You are an excellent panel. We appreciate the efforts that you 
have made to be here with us today. We would hope that each of 
you could limit your oral testimony to 5 minutes or less, and 
we are just very grateful to have all of you here, and we will 
turn to you first, Mr. Pascarella.

  PANEL CONSISTING OF ROCCO PASCARELLA, FORMER NEW YORK CITY 
    POLICEMAN, FALN VICTIM, WASHINGTONVILLE, NY; WILLIAM P. 
 NEWHALL, FALN VICTIM, NEW YORK, NY; DONALD R. WOFFORD, FORMER 
FBI SPECIAL AGENT ASSIGNED TO NEW YORK CITY FALN INVESTIGATION, 
   WILMINGTON, NC; RICHARD S. HAHN, FORMER FBI SPECIAL AGENT 
ASSIGNED TO CHICAGO FALN INVESTIGATION, LONG BEACH, CA; GILBERT 
 G. GALLEGOS, NATIONAL PRESIDENT OF THE GRAND LODGE, FRATERNAL 
ORDER OF POLICE, WASHINGTON, DC; REVEREND DR. C. NOZOMI IKUTA, 
   UNITED CHURCH OF CHRIST, CLEVELAND, OH; AND HON. ANGEL M. 
CINTRON GARCIA, MAJORITY LEADER OF THE HOUSE OF REPRESENTATIVES 
    OF PUERTO RICO, AND FEDERAL AFFAIRS COORDINATOR FOR THE 
         REPUBLICAN PARTY OF PUERTO RICO, SAN JUAN, PR

                 STATEMENT OF ROCCO PASCARELLA

    Mr. Pascarella. Good morning, Senators. My name is 
Detective Rocco Pascarella.
    On December 31, 1982, I was a police officer assigned to 
security at police headquarters in New York City. I had joined 
the force at age 21, and in my 13 years on the New York City 
police force, I had worked in various precincts and 
assignments.
    The Chairman. Could you pull the microphone over, Mr. 
Pascarella, so that we can hear you better?
    Mr. Pascarella. About 2 weeks prior to December 31, 1982, I 
had been assigned to the police headquarters security detail. 
On what should have been a festive evening, FALN terrorists 
were at work in New York City. It was about 9:30 p.m. when my 
colleagues and I heard a tremendous explosion. At first we 
thought it was fireworks, but soon after, we were told that a 
bomb had exploded at 26 Federal Plaza, which is two blocks from 
the police headquarters. I was directed by my sergeant to 
search the perimeter of the headquarters building for anything 
suspicious that might be a bomb. As I approached the rear 
unused entrance to the building, I noticed a lot of debris. As 
I turned to search, the bomb went off.
    The blast that shattered my life that night was the work of 
the FALN. This notorious group of terrorists had been planting 
bombs for some time--ostensibly to secure Puerto Rican 
independence. But their criminal activity was not limited to 
indiscriminate bombing. It also included apolitical crimes such 
as weapons possession and robbery.
    That I or my colleagues was not killed that night is a 
fortunate coincidence. FALN bombs were placed at locations 
where it was likely that innocent people would be killed or 
injured. I suffered the loss of one leg below the knee, severe 
scarring on my other leg, the loss of hearing in one ear, and 
the loss of my eyesight to the extent that I am no longer able 
to drive.
    I was in the hospital for 2 months. I underwent six 
operations for my leg and ears, and I received over 40 stitches 
to my face.
    I spent a year going through rehabilitation to learn to 
walk again with my artificial leg and injured right leg. 
Because of my injuries, I have been unable to return to active 
duty in the police force. I am on an extended medical leave. 
The pain and trauma of these disabling injuries were multiplied 
by the suffering it caused my family: my parents, my daughter, 
my friends, and my colleagues in the New York City Police 
Department. When you consider all the others whose lives were 
devastated during the FALN onslaught, the grief and suffering 
grows exponentially.
    Seventeen years later, the insidious cancer that is the 
FALN again ulcerates American life. Forces have been at work to 
position these criminals for Presidential clemency. Under 
ordinary circumstances the prospect of their release would be 
laughable. What could motivate any President to grant a request 
with the blood of American citizens?
    Perhaps everyone in this room and everyone in America 
should review these cases: They read the United States versus 
the defendants, or the State of New York versus the defendants. 
Rocco Pascarella did not prosecute these cases. You did. The 
people did. And when it is done and just sentences are imposed, 
they should be made to stand, particularly in cases of 
terrorism. Because when terrorists strike, they are not just 
maiming me; they are striking at the very foundation of 
America. Our very freedom makes us particularly vulnerable to 
the demented minions of terrorists all over the world.
    In the press, their supporters describe these FALN 
terrorists as freedom fighters and political prisoners. That 
characterization is an abomination. The basis of American 
democracy is dialogue and compromise within the political 
process. Democrats and Republicans do not butcher each other in 
the streets of Washington or punctuate their rhetoric with 
bombs or bullets. The indiscriminate killing and maiming of 
innocent people to make a political statement is an attack on 
the American political system and should be dealt with 
accordingly. Nor do these misfits, as some would imply, 
represent the goals and ideas of Puerto Rican people, who have 
democratically rejected Puerto Rican independence and morally 
rejected slaughter as a means to a political end.
    In this very forum, the clamor is heard for more severe 
sentences for hate crimes. What greater hate than to kill, not 
because of some demented distaste for another race or ethnic 
group, but to kill anyone, man, woman, or child, to make a 
merely political statement?
    And, finally, what kind of message does this exercise of 
clemency send to the world's terrorists? The U.S. military is 
sent halfway around the world to destroy a terrorist's camp in 
a foreign nation, while at home a vile group of criminal 
terrorists as exists anywhere in the world is released upon the 
strength of a hard-wrought promise never to engage in violence 
again. A release, it appears, that is contrary to the 
recommendations and warnings of every Federal agency involved 
in the investigation, apprehension, trial, and incarceration of 
this group.
    You, as elected representatives and as citizens of this 
Nation, have a responsibility to the American people to expose 
the circumstances and motivation which led to this assault on 
the American political justice system and the American 
political system. You owe it to yourselves. You owe it to your 
constituents. You owe it to me. And you owe it to past and 
future victims of FALN murder and terror.
    Thank you.
    [The prepared statement of Mr. Pascarella follows:]

            Prepared Statement of Detective Rocco Pascarella

    Good Morning Senators: My name is Rocco Pascarella.
    On December 31, 1982, I was a police officer assigned to security 
at Police Headquarters in New York City. I had joined the force at age 
21, and in my 13 years on the New York City Police force I had worked 
in various precincts and assignments. About two weeks prior to December 
31, 1982 I had been assigned to the Police Headquarters security 
detail. On what should have been a festive evening, FALN terrorists 
were at work in New York City. It was 9:30 p.m. when my colleagues and 
I heard a tremendous explosion. At first we thought it was fireworks. 
But soon after, we were told a bomb had exploded at 26 Federal Plaza 
which is two blocks from police headquarters. I was directed by my 
sergeant to search the perimeter of the headquarters building for 
anything suspicious that might be a bomb. As I approached the rear 
unused entrance to the building I noticed a lot of debris. As I turned 
to search, the bomb went off.
    The blast that shattered my life that night was the work of the 
FALN. This notorious group of terrorists had been planting bombs for 
some time--ostensibly to secure Puerto Rican independence. But their 
criminal activity was not limited to indiscriminate bombing. It also 
included apolitical crimes such as weapons possession and robbery.
    That I or my colleagues was not killed that night is a fortunate 
coincidence. FALN bombs were placed at locations where it was likely 
that innocent people would be killed or injured. I suffered the loss of 
one leg below the knee, severe scarring of my other leg, the loss of 
hearing in one ear, and the loss of my eyesight to the extent that I am 
no longer able to drive. I was in the hospital for two months. I 
underwent six operations for my leg and ears and received over 40 
stitches to my face, ears and mouth. I spent a year going through 
rehabilitation to learn to walk again with my artificial leg and 
injured right leg. Because of my injuries I have been unable to return 
to active duty in the police force. I am on an extended medical leave. 
The pain and trauma of these disabling injuries were multiplied by the 
suffering it caused my family: My parents, my daughter, my friends and 
my colleagues in the New York City Police Department. When you consider 
all the others whose lives were devastated during the FALN onslaught, 
the grief and suffering grows exponentially.
    Seventeen years later, the insidious cancer that is the FALN again 
ulcerates American life. Forces have been at work to position these 
criminals for presidential clemency. Under ordinary circumstances the 
prospect of their release would be laughable. What could motivate any 
president to grant a request with the blood of American citizens?
    Perhaps everyone in this room, and everyone in America, should 
review these cases: They read the United States vs. The defendants, or 
the State of New York vs. The defendants. Roc Pascarella did not 
prosecute these cases. You did. The people did. And when it's done, and 
just sentences are imposed they should be made to stand, particularly 
in cases of terrorism. Because when terrorists strike, they are not 
just maiming me, they are striking at the very foundation of America. 
Our very freedom makes us particularly vulnerable to the demented 
minions of terrorists all over the world.
    In the press, their supporters describe these FALN terrorists as 
freedom fighters and political prisoners. That characterization is an 
abomination. The basis of American Democracy is dialogue and compromise 
within the political process. Democrats and Republicans do not butcher 
each other in the streets of Washington, or punctuate their rhetoric 
with bombs and bullets. The indiscriminate killing and maiming of 
innocent people to make a political statement is an attack on the 
American political system and should be dealt with accordingly. Nor do 
these misfits, as some would imply, represent the goals and ideas of 
Puerto Rican people, who have democratically rejected Puerto Rican 
independence, and morally rejected slaughter as a means to a political 
end.
    In this very forum the clamor is heard for more severe sentences 
for hate crimes. What greater hate than to kill, not because of some 
demented distaste for another race or ethnic group, but to kill anyone; 
man, women, or child to make a merely political statement?
    And finally, what kind of message does this exercise of clemency 
send to the world's terrorists? The United States military is sent 
halfway around the world to destroy a terrorist's camp in a foreign 
nation, while at home, a vile group of criminal terrorists as exists 
anywhere in the world is released upon the strength of a hard wrought 
promise never to engage in violence again. A release, it appears, that 
is contrary to the recommendations and warnings of every federal agency 
involved in the investigation, apprehension, trial and incarceration of 
this group.
    You, as elected representatives and as citizens of this nation, 
have a responsibility to the American people to expose the 
circumstances and the motivation which led to this assault on the 
American political system and the American justice system. You owe it 
to yourselves. You owe it to your constituents. You owe it to me. And 
you owe it to past and future victims of FALN murder and terror. Thank 
you.

    The Chairman. Well, thank you, Mr. Pascarella. We 
appreciate your testimony very much.
    Mr. Newhall, we will turn to you.

                STATEMENT OF WILLIAM P. NEWHALL

    Mr. Newhall. Thank you. Good morning. My name is Bill 
Newhall, and I have been invited to speak before this committee 
because I was injured in the FALN bombing of Fraunces Tavern in 
January 1975.
    On January 24 of that year, I was having lunch with two 
colleagues, Charlie Murray and Frank Connor, and three clients, 
Jim Gezork, Alex Berger, and Dave Urskind. We were seated at a 
table overlooking Broad Street, about to return to work, when a 
bomb placed in a doorway next to our table was detonated, 
destroying our corner with shrapnel and debris. Jim, Alex, and 
Frank died terrible deaths, barely recognizable to their 
families. Another man, Harold Sherburne, who was upstairs at 
the time of the blast, was also killed. Charlie, David, and I 
suffered multiple wounds, many of them from shrapnel. I won't 
describe those wounds to you here. But more than 50 other 
people sustained injuries as well. With the time limits of this 
hearing, it is impossible to adequately describe the effects of 
this savagery on the injured and dead as well as their 
families.
    This bombing, a terrorist act against unarmed and 
unsuspecting civilians, and its lethal results were followed by 
many more, though fortunately none was as deadly as this one. I 
don't recall ever hearing any expression of remorse, concern, 
or contrition by any member of the FALN for the pain and loss 
they caused those directly affected, or their families, for 
this or any other bombing.
    Why were these bombings carried out? Because the FALN was 
frustrated by its inability, in any voting referendum, to 
persuade a significant number of its fellow Puerto Ricans of 
the merits of its cause. The resulting strategy was to murder 
U.S. civilians.
    None of the FALN members who were recently released through 
the President's grant of clemency were ever convicted of the 
bombing of Fraunces Tavern, but they were proven in courts of 
law to be supporters of those terrorist methods. Some were 
videotaped making bombs--and those weren't for science class--
and all were clearly committed to acts of violence against 
innocent people and the U.S. Government.
    The living can speak, but so can the dead, through their 
surviving families, friends, and our memories of them. That is 
why I am here before you. We have heard recently in New York 
how much these self-styled ``freedom fighters'' sacrificed and 
lost because of their political beliefs. To the contrary, those 
who truly paid for the FALN's political beliefs were their dead 
victims. Men of character, humor, and promise, they will never 
return to their loved ones or receive a hero's welcome the way 
those released this past weekend did. And what about the price 
paid by those permanently injured or scarred?
    I understand the goal of this committee is to examine the 
way in which the clemency process was carried out. I, and, I am 
sure, many other citizens, including the many law enforcement 
personnel who worked so hard to halt the FALN bombing campaign 
and to whom we owe such deep gratitude, are curious about this 
as well. I would like to know whether the views of any victims 
or their families were sought, much less obtained and 
considered.
    It is easy to suspect that political grandstanding parading 
as compassion was at work here. If so, not only is it an 
affront to those the FALN killed and maimed, but it delivers 
perhaps the worst message of all: mere indifference to 
terrorist activities of all kinds and the human misery they 
cause.
    Thank you.
    [The prepared statement of Mr. Newhall follows:]

                Prepared Statement of William P. Newhall

    My name is Bill Newhall. I have been invited to speak before this 
committee because I was injured in the FALN bombing of Fraunces Tavern 
in January 1975.
    On January 24 of that year, I was having lunch with two colleagues, 
Charlie Murray and Frank Connor and three clients, Jim Gezork, Alex 
Berger and Dave Urskind. We were seated at a table overlooking Broad 
Street, about to return to work when a bomb, placed in a doorway next 
to our table, detonated, destroying our corner with shrapnel and 
debris. Jim, Alex, and Frank died terrible deaths, barely recognizable 
to their families. Another man, Harold Sherburne, who was upstairs at 
the time of the blast, was also killed. Charlie, David and I suffered 
multiple wounds, many of them from shrapnel. More than fifty other 
people sustained injuries as well. With the time limits of this 
hearing, it is impossible to adequately describe the effects of this 
savagery on the injured and dead as well as their families.
    This bombing, a terrorist act against unarmed and unsuspecting 
civilians and its lethal results were followed by many more, though 
fortunately none was as deadly as this one. I don't recall ever hearing 
any expression of remorse, concern or contrition by any member of the 
FALN for the pain and loss they caused those directly affected, or 
their families, for this or any other bombing.
    Why were these bombings carried out? Because the FALN was 
frustrated by its inability, in any voting referendum, to persuade a 
significant number of its fellow Puerto Ricans of the merits of its 
cause. The resulting strategy was to murder U.S. civilians.
    None of the FALN members who were recently released through the 
President's grant of clemency were ever convicted of the bombing of 
Fraunces Tavern. But they were proven in courts of law to be supporters 
of these terrorist methods, some were videotaped making bombs, and all 
were clearly committed to acts of violence against innocent people.
    The living can speak and so can the dead, through their surviving 
families, friends and our memories of them. That is why I am here 
before you. We've heard recently in New York how much these self-styled 
``freedom fighters'' sacrificed and lost because of their political 
beliefs. To the contrary, those who truly paid for the FALN's political 
beliefs were their dead victims. Men of character, humor, and promise, 
they will never return to their loved ones, or receive a hero's 
welcome. And what about the price paid by those permanently injured or 
scarred?
    I understand the goal of this committee is to examine the way in 
which the clemency process was carried out. I and I'm sure many other 
citizens, including the many law enforcement personnel who worked so 
hard to halt the FALN bombing campaign, are curious about this as well. 
I would like to know whether the views of any victims or their families 
were sought, much less obtained and considered.
    It is easy to suspect that political grandstanding parading as 
compassion was at work here. If so, not only is it an affront to those 
the FALN killed and maimed, it delivers perhaps the worst message of 
all: near indifference to terrorist activities of all kinds and the 
human misery they cause.

    The Chairman. Well, thank you, Mr. Newhall. We really 
appreciate having your testimony here.
    Mr. Wofford, we will turn to you.

                 STATEMENT OF DONALD R. WOFFORD

    Mr. Wofford. Good morning. My name is Don Wofford. I am a 
retired FBI agent after 23 years, currently living in North 
Carolina.
    From 1974 to 1980, in Manhattan, I was the case agent for 
the investigation of the FALN, the bombing of Fraunces Tavern 
that Bill has so eloquently explained, which, of course, as 
everyone knows, is the most magnificent and violent bombing 
that they ever did. However, I think it is important for me to 
in a few minutes give kind of an overview and mention some more 
very violent things that they did and try to pick up on the 
eloquent statement by Mrs. Feinstein that the people who 
support and enable these terrorist networks to continue are 
just as guilty of conspiracy and planning and doing the acts as 
other people.
    I will just talk very quickly--since he was a victim of 
Fraunces Tavern, and that was a very eloquent statement. Thank 
you very much.
    The person who walked in Fraunces Tavern came in there at 
1:22 p.m. We know that because a waiter saw him. He had a bag 
in his hand. He walked into not more than 5 feet from where his 
table was in the corner of the restaurants, and he laid it down 
and he left. Now, he knew, that person knew, that when that 
bomb went off, he was going to kill a lot of people. He didn't 
know how many, but he knew he was going to kill a lot. It was a 
bustling restaurant in the middle of Wall Street. That is why 
he came there. He didn't go there to protest Puerto Rican 
independence. He put that bomb down to kill people. That is all 
he came there to do.
    Later, in the communique, which we have, I think, as--it 
will be put up later--the FALN claims that bomb. The FALN says, 
``We,'' the FALN, not ``me,'' the bomber, not ``me,'' the 
person who provided false identity, not ``me,'' the lookout, 
not ``me,'' the other member. ``We,'' the FALN, we bombed 
Fraunces Tavern. And they did. They destroyed Fraunces Tavern. 
It was the most unbelievable bombing I have ever been to, and 
that includes Vietnam.
    Prior to that, very quickly, the FALN tried to kill an NYPD 
officer by putting a booby trap on a door and calling 911. That 
was FALN number two, and prior to that, number one, the FALN's 
first bombing in October of 1975, they put bombs all over 
downtown Manhattan in major corporations--Citicorp, Marine 
Midland, W.R. Grace, Fortune 500 companies. Now, they took no 
steps to ensure those bombs didn't kill anybody. They left 
those bombs laying there on the sidewalk. They walked away from 
them. They were timing devices. Those bombs went off. It is an 
act of mercy and an act of God that nobody--a late worker, a 
clean-up person, a police officer, whoever--didn't walk by one 
of those bombs and get blown up. It was not the FALN's fault 
that that didn't happen. It was God's grace that it did not 
happen.
    The FALN continued this series of bombings over a period of 
a couple of years, and a couple of key events happened. In 
1976, in Chicago--and by now the FALN had moved to Chicago, and 
they were doing things like setting off simultaneous bombs in 
Chicago, Washington, DC, and New York. Now, one or two people 
can't do that. That requires lots of people. You have got to 
have bomb makers and drivers and cars and people that call in 
the communiques. That is not a one- or two-man operation. And 
we were quickly beginning to see that this was a lot bigger 
operation than we first thought it was.
    A bomb factory was found in 1976 in Chicago full of 
dynamite and blasting caps and everything that they needed to 
run their organization. That investigation led to obtaining 
warrants on four people immediately. But those four people had 
ties, direct ties to two people in New York who we decided were 
our main suspects: William Morales and Luis Rosado. So we went 
to work on them.
    Elizam Escobar, Adolfo Matos, and Dylcia Pagan were 
associates of those people, and those were three, among others, 
of the people that were released in the back of that van. So 
those people were members of the FALN. They were participating 
in armed actions when they were arrested in that van in 1980, 
and there was no doubt that that operation was a two-city or 
three-city operation at the time.
    In 1978, William Morales confirmed all our suspicions. A 
bomb went off in his hands, blew both his hands off, almost 
destroyed one side of his face, and damaged him severely. In 
his bomb factory in Queens, in an office building in the middle 
of a residential section, were 66 sticks of dynamite, numerous 
blasting cap guns and ammunition, and absolute proof that 
William Morales' bomb factory was involved in Fraunces Tavern, 
was involved in the attempt to get the police officer in the 
first bombings, because the communiques made all fit a machine 
sitting in that building that they had purchased. They matched 
up. The FBI lab was able to say this machine ran off these 
communiques. So William was obviously a bomber and paid for it 
dearly by the injuries he received. He is now, by the way, 
hiding out in Cuba as a fugitive.
    Following all of these, the 1980 arrest of these 
individuals that Mr. Hahn is going to pick up on and discuss 
was a big break for us because it found New York people and 
Chicago people in a van, and the statement that they weren't 
involved in criminal violent activities--they were in the van, 
all of them had guns, and we now know that they were there to 
rob an armored car. So for them to stand up now and say that 
they weren't involved in violent activities--the intervention 
of the police officers maybe kept the event from happening, but 
they were involved in violent activities.
    The FALN was a terrorist group. It spent hours counter-
surveilling. It spent hours obtaining false identification and 
apartments and names that we couldn't trace, stealing weapons, 
obtaining dynamite and so forth. So these breaks that we got 
along the way which resulted in us getting warrants for people 
were very, very important. The FALN, I certainly admit, was a 
very efficient terrorist organization. Since 1982, they have 
not committed any more bombings since Rocco was injured. But 
who knows now where this tale will end or where this 
investigation will lead?
    I will be glad to answer any questions later. Thank you, 
sir.
    [The prepared statement of Mr. Wofford follows:]

                Prepared Statement of Donald R. Wofford

    My name is Donald R. Wofford and I am currently a retired FBI agent 
having retired in 1995 with 23 years of service with the FBI.
    During the period 1974-1980 I was assigned to the investigation of 
the FALN in New York and was the Case agent for the investigation of 
the FALN when it claimed the bombing of Fraunces Tavern Restaurant on 
January 24, 1975. During this period I was participating in an 
investigative Task Force comprised of 50 FBI agents and 50 NYCPD 
detectives. This task force investigated all FALN claimed bombings and 
other criminal acts.
    During the period 1980-1984 I was assigned to Newark, N.J. where I 
investigated FALN suspects as well as other terrorist suspects.
    From 1984-1987 I was assigned to Butte, Montana and was 
investigating the Aryan Nations and its underground group ``the 
order.'' This investigation of white supremacist criminals resulted in 
23 individuals being convicted for armed robbery, bombings, murder, and 
conspiracy.
    During the period 1987-1989 I was assigned to FBI headquarters as a 
Supervisory Special Agent in the Domestic Terrorism Unit. My major 
duties included authorizing Domestic Terrorism investigations in 
accordance with the Attorney General's guidelines.
    The FALN is a clandestine terrorist organization that has dedicated 
itself to ``liberating Puerto Rico from United States control'' through 
the use of violent actions including bombings, incendiary attacks, 
kidnappings, attempted prison escapes, and threats. These actions have 
been financed through various illegal activities including armed 
robberies. The FALN has been linked to over 130 bombing-type actions 
(actual bombings, attempted bombings, incendiary attacks and bomb 
threats) since October 26, 1974. These incidents have resulted in over 
$3\1/2\ million in damages, 5 deaths and 84 injuries including four 
police officers who were maimed. In addition, the group has perpetrated 
three armed takeovers in which innocent people were restrained, robbed 
and terrorized. The group is convinced that armed struggle is the only 
vehicle through which independence can be achieved. Unlike other 
independence groups that engage in violent actions on the Island of 
Puerto Rico itself, the FALN has elected to stage its violent actions 
within the continental United States.
    The FALN publicly emerged on October 26, 1974, when the group 
claimed credit for five bombings that occurred in downtown New York 
City. These explosive devices were believed to have been concealed in 
airline shoulder type flight bags containing from three to five propane 
tanks, a quantity of high explosives believed to be dynamite, a 
detonator, a wrist watch timer, and a battery. In total, over 
$1,000,000 damage was sustained in those bombings, but no injuries 
occurred. The FALN claimed credit for this bombing in a communique left 
in a phone booth which was listed as FALN Communique #1.
    The next known bombing claimed by the FALN occurred on Wednesday, 
12/11/74, when an anonymous Hispanic female notified the NYCPD that a 
dead body was located in a building at 336 East 110th Street, 
Manhattan. A radio car was dispatched and when the investigating 
patrolman pushed upon an outside door to an abandoned five story 
tenement located at this address, the explosion occurred, seriously 
injuring the officer, and ultimately resulting in the loss of his eye.
    An examination at this bomb site revealed that a blue colored 
airline flight bag had been secured to the inside of the door, and 
contained what is believed to have been three propane tanks, a large 
lantern type battery, and a pipe nipple approximately ten inches in 
length, containing what is believed to have been dynamite. The booby 
trap bomb in this instance was detonated by a clothes pin type firing 
device which was tied to the door with string, which detonated the bomb 
upon opening the door. Almost immediately after the bombing, an 
unidentified Spanish accented female telephoned the Associated Press 
advising that she was part of the FALN and that a communique claiming 
responsibility could be located in a telephone booth at Tenth Avenue 
and 52nd Street, New York, NY. This letter was recovered by the NYCPD 
and when examined, revealed that it was identified by the FALN as 
Communique #2 and was determined to have been typed on identical 
letterhead paper as Communique #1.
    The group's next action, occurring on January 24, 1975, was even 
more ruthless and resulted in four deaths, over 60 injuries, and 
extensive property damage. The target was the historic Fraunces Tavern 
in New York City and the device exploded during the busy lunch period 
at approximately 1:22 p.m. Four persons were killed, over 50 injured, 
and property damage exceeding $300,000 was sustained. Shortly after the 
explosion, the Associated Press in New York received a telephone call 
from a male with a Spanish accent who stated that the Armed Forces of 
Puerto Rican National Liberation (FALN) was responsible for the 
bombing, and a communique explaining the reasons could be found in a 
telephone booth located at Bridge and Water Streets in New York (which 
is approximately 3 or 4 blocks from the bombing scene itself).
    The communique referred to by the caller was recovered by the NYCPD 
and, when examined, revealed it was identified by the FALN as 
Communique #3, and was found to have been typed on letterhead paper of 
the FALN, identical to Communiques #'s 1 and 2, recovered in previous 
bombings claimed by this group.
    FBI Explosive Experts working in close coordination with the NYCPD 
Bomb Squad have closely examined all the debris collected from the 
explosion site and have recovered what appears to be a back plate from 
a watch; a severely mutilated latch believed to have come from the case 
that held the bomb; pieces of black plastic or leather from the case; 
miscellaneous small pieces of unidentifiable metal, and a piece of a 
valve stem believed to have come from a propane tank (probably a 
Bernzamatic type used for home plumbing repairs and/or camping 
equipment). No information is available as to the specific explosive 
used, although experienced estimates indicate dynamite.
    A witness has been located who observed a bag in the vestibule 
portion separating the tavern from the Anglers Club entrance. He 
identified this bag as approximately 2\1/2\ feet long, 1\1/2\ feet high 
and 1 foot wide. He described this bag as a gray synthetic cloth type 
bag with black plastic piping around the outside, having 2 black straps 
around the middle, and having a single black handle. He added that this 
bag appeared to be new and inexpensive. The witness places the bag at 
the specific location in the vestibule which explosive experts indicate 
was the seat of the explosion. Subsequent interviews of two other 
witnesses indicated that the bag was not at the site as late as 1:10 to 
1:15 p.m.
    The letterhead paper recovered in all three bombings, had a five 
pointed star design with the letters FALN imposed thereon. Above this 
star were the two words Fuerzas Armadas and below the star were the 
words de Liberacion Nacional Puertorriquena (which translates as Armed 
Forces of Puerto Rican National Liberation). All letters were found to 
have been prepared on a typewriter with Smith Corona face type 
(available on several types of machines but probably a Smith Corona 
portable). There were four copies of Communique #1 recovered, but only 
one original typing, although examination of recovered specimens 
clearly indicate two typings. The original of the typed communique was 
in red ink and mailed to a Spanish language newspaper in New York. All 
of the communiques recovered have been found to have been prepared on 
Gestetner watermarked paper.
    In their next attack, the FALN reverted back to more ``symbolic'' 
bombings when they attacked four New York City buildings in April, 
1975.
    The FALN first made its presence known in Chicago, Illinois, on 
June 15, 1975, when they claimed credit for two powerful bombs that 
detonated in the downtown Loop area. In October, 1975, the FALN 
attempted to display their strength by simultaneously exploding bombs 
in New York City, Washington, D.C., and Chicago. During the months that 
followed, the FALN detonated several more devices in New York and 
Chicago, causing property damage and injuring innocent bystanders; 
however, for some unexplained reason they did not claim credit for 
these incidents. One of these attacks involved the placement of 
incendiary rather than explosive devices in the downtown Chicago 
Marshall Field Department Store.
    In late June, 1976, the FALN resumed making claims for its 
terrorist actions which were, during the subsequent years, to include 
both explosive and incendiary device attacks. One of these attacks was 
on the Hilton Hotel in New York City in September, 1976, and resulted 
in $300,000 in damages. Another victim target was the Merchandise Mart 
in Chicago which suffered $1,335,000 in damages from a February, 1977, 
bombing. An incendiary device placed in New York City's Gimbel's 
Department Store on October 11, 1977, resulted in a fire that caused 
$125,000 in damages. Perhaps the most violent of these attacks which 
occurred between June, 1976, and July, 1978, was directed against the 
Mobil Oil Company employment office in New York City. On August 3, 
1977, a powerful bomb detonated inside this office during the busy 
morning rush period, killing one man and injuring several other 
bystanders. It was painfully clear that this bombing was designed to 
kill people and was anything but ``symbolic'' in nature. Marie Haydee 
Beltran Torres was subsequently convicted of perpetrating this act and 
was sentenced to a life term in federal prison.
    In May, 1978, the FALN again expanded its scope of activity by 
simultaneously placing devices in New York, New Jersey, and Washington, 
D.C., and threatening to bomb Chicago targets. A month later the group 
placed incendiary devices in three department stores in the Chicago 
suburb of Schaumburg, Illinois.
    On November 3, 1976, the FALN suffered a serious setback when 
Chicago Police discovered their ``bomb factory'' which was located in 
an apartment within the city's north side Hispanic community. This 
discovery led to the identification of Carlos Alberto Torres, his wife 
Marie Haydee Torres, Ida Luz ``Lucy'' Rodriguez, and Oscar Lopez-Rivera 
as being members of the FALN. All four individuals immediately 
vanished, thus ending the double lives they had been leading for 
several years. The four had masqueraded as law abiding community 
members and had assiduously avoided doing anything that would have 
drawn attention to themselves. Indeed, ``Lucy'' Rodriguez was working 
in an executive position with the Federal Government when the ``bomb 
factory'' was uncovered.
    Based on information located in the Chicago bomb factory, the New 
York FBI determined that Luis Rosado-Ayala and William Guillermo 
Morales were prime suspects in the New York bombings claimed by the 
FALN. In addition, it was determined by the New York FBI that Rosado-
Ayala and Morales were associating closely with, among others, Dylcia 
Pagan, Adolfo Matos, and Elizam Escobar.
    In July, 1978, the FALN suffered still another setback--one that 
was destined to drastically change the nature of the organization. On 
July 12, 1978, a powerful explosion occurred in a New York City 
apartment, maiming the resident. Subsequent investigation determined 
the apartment was, in fact, an FALN ``bomb factory,'' and the injured 
man who lost most of both hands was FALN member William Guillermo 
Morales, who was constructing a pipe bomb when the explosion occurred. 
Further investigation identified the four missing Chicago FALN members 
as being involved with the New York ``bomb factory.'' As the police 
were clearing the debris from the apartment, FALN incendiaries, 
apparently placed prior to the explosion, ignited in several New York 
department stores. These were followed by a communique from the FALN 
that had been mailed prior to the ``bomb factory'' explosion.
    FBI and NYCPD examination of the Morales ``bomb factory'' revealed 
that William Guillermo Morales was severely injured when a pipe bomb, 
which he was constructing, exploded literally in his hands, and his 
most severe injuries were the instant amputation of both hands. 
Inventory of items seized in this bomb factory include 66 sticks of 
dynamite and 5,000 rounds of ammunition. In addition, watches, 
batteries, wires, circuits, and all types of tools were recovered among 
other items. As a result, the NYCPD Bomb Squad stated at the time that 
the explosives and incendiaries found in this Queens bomb factory could 
have constructed at least 28 explosive devices and 2,632 incendiary 
devices of a type customarily used by the FALN.
    The FBI and NYCPD also recovered two Gestetner machines which were 
used to produce stencils and for duplication. These two machines were 
purchased by an organization ostensibly supporting Hispanic affairs 
throughout the United States. It was determined that Carlos Alberto 
Torres, Oscar Lopez Rivera, Luis Rosado-Ayala, and William Guillermo 
Morales were members of this organization which was headquartered in 
New York City. Following an exam by FBI and NYCPD experts, it was 
determined that defects in the Gestetner duplicating machine found in 
the Queens bomb factory were consistent with defects noted on the FALN 
Communique #1. Communiques in 63 separate bombings were produced from a 
stencil located in the Queens bomb factory and this stencil also 
produced several hundred blank FALN communiques bearing the FALN logo 
which were also discovered in the Queens bomb factory.
    The New York ``bomb factory'' caused the FALN to change its 
operations and make itself into an even more clandestine and devious 
organization. Rather than attempt to stage ``symbolic'' attacks in 
order to ``prove'' to supporters and police that the group continued to 
exist, or to send communiques designed to alert the world of their 
continued presence, the FALN quietly and methodically constructed an 
``underground'' network of members and supporters and gathered 
necessary supplies for their ``war of freedom.'' Only when they felt 
they had developed a strong and secure organization did the FALN resume 
overt political operations.
    In October, 1979, explosive devices detonated in New York and 
Chicago in conjunction with a series of bombings on the Island of 
Puerto Rico. Communiques issued both in the U.S. and Puerto Rico 
claimed credit for these incidents in the names of the FALN and three 
other island-based groups. Curiously, the FALN name appeared first on 
the U.S.-issued communique, while that group's name appeared last on 
the island-issued document. Clearly the intent was to illustrate that 
the FALN had perpetrated the mainland attacks while the other groups 
had done the island bombings. The joint communique also informed the 
world that at least four Puerto Rican independence groups were now 
working in cooperation with one another. In November, 1979, the FALN 
struck again in Chicago with the bombings of two military recruiting 
offices and an armory.
    In mid-March, 1980, the FALN staged a new terrorist tactic when 
members of the group seized the Carter-Mondale Presidential Campaign 
Office in Chicago and the George Bush Campaign Office in New York and 
held campaign workers hostage while ransacking the facilities and 
stealing supporter lists. On the days that followed these incidents, 
the group sent threatening letters to around 200 Carter-Mondale 
supporters including Demographic National Convention delegates living 
throughout the State of Illinois.
    On April 4, 1980, the FALN suffered its most serious setback when 
Evanston, Illinois, Police arrested 11 members who had assembled in 
that municipality for the purpose of robbing an armored truck making a 
pickup at Northwestern University. Seized with the arrestees were a 
stolen truck, several stolen vans and cars, 13 weapons, and various 
disguises and articles of false identification. Those arrested included 
Carlos and Haydee Torres, Lucy Rodriguez, her sister Alicia Rodriguez, 
Dylcia Pagan, the common-law wife of William Morales, Adolfo Matos, 
Carmen Valentin, Luis Rosa, Dick Jimenez, Elizam Escobar, and Freddie 
Mendez.
    Investigation arising from these arrests revealed that from the 
time of the discovery of the New York ``bomb factory'' in August, 1978, 
the FALN had developed an intricate ``underground'' operation. 
``Safehouses'' were discovered in Milwaukee, Wisconsin; Newark, New 
Jersey; New York City, and Chicago. Vehicles had been stolen through 
various methods in several states. Quality false identifications had 
been established. Through investigation it became apparent that the 
group had developed sources of income sufficient to easily maintain its 
existence. This became clear when it was learned that their Milwaukee 
``safehouse'' had been purchased for cash and that tens of thousands of 
dollars in currency had been hidden there.
    Good evidence was also developed to reflect that on December 24, 
1979, the FALN robbed an armored truck making a pickup at a Milwaukee 
supermarket. Additional evidence showed that the FALN had invaded the 
Oak Creek, Wisconsin, Armory, in January, 1980, in an unsuccessful 
effort to steal military arms. This invasion failed only because the 
three military employees captured by the raiders refused to open the 
weapons vault. Evidence was also developed to show that FALN members 
were responsible for the armed robbery of the Radio Shack Store in 
Highland Park, Illinois, on April 1, 1980.
    The April 4, arrests undoubtedly sent shock waves through the FALN, 
however, it did not end the organization and did not break the spirits 
of those incarcerated. Immediately all 11 arrestees claimed to be 
``prisoners of war'' and refused to cooperate with authorities. After 
Haydee Torres was separated from the group so that she could be 
returned to New York to stand trial for her role in the fatal Mobil Oil 
bombing, the remaining ten FALN members were found guilty in Illinois 
courts of a variety of state violations. All were sentenced to lengthy 
prison terms in Illinois maximum security penal institutions. Haydee 
Torres was found guilty in New York and subsequently sentenced to serve 
a life term in federal custody.
    On December 10, 1980, a Federal Grand Jury returned indictments in 
Chicago against the ten April 4 arrestees in Illinois custody and 
against the still missing Oscar Lopez, charging among other crimes 
Seditious Conspiracy against the U.S. Government. During early 
February, 1981, trial was held for the ten in Federal Court in Chicago. 
All claimed to be ``prisoners of war'' and refused to defend 
themselves. All were found guilty of Seditious Conspiracy, violation of 
the Hobbs Act, and violation of Federal Firearms statutes. Several of 
the individuals were also found guilty of interstate vehicle theft. On 
February 18, 1981, the ten were sentenced to prison terms ranging from 
55 to 90 years to commence after they, had completed their Illinois 
prison terms that ranged from 8 to 31\1/2\ years.
    On the evening the federal indictments were returned, December 10, 
1980, two presumed FALN members, Luis Rosado-Ayala of New York and 
Felix Rosa, brother of indictee Luis Rosa, were arrested following a 
high speed chase arising from the armed robbery of a van from a 
Highland Park, Illinois, Ford dealer. This brazen robbery was similar 
to previous FALN actions. Rosado subsequently became a local and 
federal fugitive when he jumped bond and Illinois authorities requested 
a Federal Unlawful Flight to Avoid Prosecution (UFAP) warrant. Rosa 
became a fugitive when he failed to come for the second day of his 
trial after having been present on the first day. He was subsequently 
arrested by Illinois State Police who returned him to court where he 
was found guilty of armed robbery and vehicular theft and sentenced to 
serve a 22 year prison term.
    In the months that followed the federal convictions, all of the 
incarcerated FALN members remained dedicated to their cause except for 
Freddie Mendez who agreed to cooperate with the government. Mendez 
subsequently provided a wealth of information concerning the operations 
of the FALN. In discussing some of the FALN's terrorist activities, he 
mentioned that the group had been responsible for William Morales' 
escape from prison in New York during the spring of 1979. At the time 
Morales was serving an 89 year term on charges arising from the New 
York ``bomb factory.'' Mendez indicated that despite being maimed 
Morales returned to a leadership position with the FALN and had been 
one of the primary planners of the ill-fated April 4 armored truck 
robbery and of the Oak Creek Armory invasion.
    On November 19, 1980, a heavily armed group of around eight 
individuals took over a Texaco Service Station located at 6140 North 
Broadway, Chicago, in an effort to rob an armored truck that was 
scheduled to make a pickup at that location. Victims of the robbery 
subsequently selected Felix Rosa and Eduardo Negron from a lineup and 
both men were arrested and charged with this crime.
    On May 29, 1981, Glenview, Illinois, Police arrested fugitive FALN 
member Oscar Lopez in company with MLN member Wilfredo (Freddie) 
Santana after the pair was stopped for a traffic violation. Various 
forms of false identification were found in conjunction with the 
arrest. Subsequent investigation led the FBI to Lopez' secret residence 
at 3151 West Ainslie Street, Chicago, apartment 1B, wherein 
approximately six pounds of dynamite and four blasting caps were 
recovered along with false identifications and FALN related materials.
    Lopez was subsequently tried for Seditious Conspiracy, violation of 
the Hobbs Act, illegal weapons possession, and interstate 
transportation of stolen motor vehicles, and was found guilty in 
Federal Court in Chicago on July 31, 1981. He was sentenced to serve 55 
years in federal custody on August 11, 1981.
    The November 19, 1980, attempted armored truck robbery and the 
December 10, 1980, armed robbery of the van proved that the FALN 
continued to exist despite the arrests of 11 members. 1980 through 
early 1982 was to be a period of rebuilding for the FALN similar to the 
16 month period that followed the explosion of the William Morales 
``bomb factory'' in New York. The group made no claims of credit for 
any terrorist actions during this span although its surface group, the 
MLN, repeatedly assured supporters that the FALN continued to be alive 
and well.
    On the late evening of Monday, February 28, 1982, four powerful 
bombs detonated in front of business institutions in New York's 
financial district. The FALN claimed credit via a five page communique 
which was found in a phone booth at 91st and Riverside Avenue after an 
anonymous call was received by someone claiming to be the FALN. In this 
communique, the FALN stated that their jailed comrades and members of 
their organization were being mistreated in jail. The FALN identified 
its jailed comrades and members as Oscar Lopez Rivera, Lucy Rodriguez, 
Carlos Alberto Torres, Haydee Torres, Luis Rosa, Alicia Rodriguez, 
Ricardo Jimenez, Dylcia Pagan Morales, Adolfo Matos Antongiorgi, Elizam 
Escobar, Carmen Valentin.
    On early Monday morning, September 20, 1982, the FALN struck again 
in New York detonating a bomb in front of the Bankers Trust on Park 
Avenue. The group claimed that this incident was to ``* * * protest the 
U.S. support of Israeli massacre of Palestinian People.''
    During the evening of December 31, 1982, four powerful bombs 
detonated in New York City outside police and federal buildings. Three 
police officers were maimed by the blasts and considerable property 
damage resulted. A fifth device was disarmed by the police and was 
found to consist of four sticks of dynamite and components similar to 
those used in previous FALN devices. The FALN telephonically claimed 
credit for the bombings. Various people familiar with fugitive Luis 
Rosado-Ayala subsequently identified the voice of the FALN caller as 
that of Rosado. Based on this a warrant was issued for Rosado in the 
Eastern District of New York charging him with Conspiracy to Engage in 
Racketeering (Title 18, U.S. Code, Section 1962(D)) in conjunction with 
the bombings.
    On May 26, 1983, William Morales, the maimed FALN member who 
escaped from custody in New York in 1979 after being convicted of 
various explosives violations in connection with the explosion of the 
New York ``bomb factory'' in 1978, was arrested by Mexican authorities 
in Puebla, Mexico. During the arrest Morales' bodyguard and one police 
officer were killed and a second police officer wounded. Morales 
subsequently led Mexican officials to a place where he had been 
staying. Another gun battle erupted at this location when police 
attempted to enter same and a female resident was killed and a police 
officer wounded. Although U.S. authorities desire Morales be extradited 
to New York, Mexican authorities have charged him with four major 
violations carrying prison sentences of five or more years, 
consequently it appears that Morales will remain in Mexican custody for 
many years.
    In summary, the following information has been developed concerning 
the operations of the FALN:
    The members are totally dedicated and have expressed a willingness 
to spend the remainder of their lives in prison if captured during 
their terrorist activities. This is not to suggest that members will 
passively submit to arrest. Indeed, if escape is believed possible, 
FALN members will use deadly force to avoid apprehension.
    Membership in the FALN is not a fact that members make public. It 
is logical to believe that few people within the Puerto Rican 
independence movement are even aware of the membership of the FALN. 
Members usually function as apparent law-abiding citizens maintaining 
residences, families, and legitimate employments while covertly 
operating in clandestine, criminal operations. It is not until 
positively identified as FALN members that such people vanish into 
full-time clandestine ``underground'' existences.
    The group believes that the liberation of Puerto Rico is the 
paramount aspect of their lives and that anything designed to foster 
this objective is proper and correct. Armed robberies whether they be 
of business establishments or of common people are justified if they 
bring into the organization the funds, vehicles, weapons, and other 
supplies necessary to bring about the revolution. In the past the FALN 
has taken advantage of naive clergymen especially people connected with 
the Episcopal Church, and there is every reason to believe that they 
will in future attempt to glean funds, supplies, and other support 
through religious institutions. The father of Carlos Torres is the Rev. 
Jose Torres of Chicago's First Congregational Church.
    Security is of the utmost importance and great care is exercised to 
maintain confidentiality of the group's operations. Although in the 
early days FALN members tended to be somewhat careless in their false 
documentation, safe housing, and other activities, such does not seem 
to be the case today, and their present false identification will 
likely stand all but very extensive scrutiny. If arrested, FALN members 
will almost certainly not cooperate regardless of promises offered to 
them. Arrested FALN members know that when their cohorts, both overt 
and covert, learn of their incarceration, assistance in terms of 
finances, attorneys, and supporters will be made readily available to 
them. While such people know that escape from custody may not be 
immediately possible, such an option will remain open throughout their 
incarceration, and they know that when the opportunity for success is 
greatest, necessary assistance will be available to them.

    The Chairman. Thank you, Mr. Wofford.
    Mr. Hahn.

                  STATEMENT OF RICHARD S. HAHN

    Mr. Hahn. Good morning, Chairman, Mrs. Feinstein, 
gentlemen. My name is Richard Hahn. I am a retired special 
agent of the FBI. From January 1975 through September of 1987, 
I was involved almost exclusively in Puerto Rican terrorist 
investigations. I served in New York for 3 years and first 
became involved in the FALN investigations with the bombing of 
Fraunces Tavern, and then went to Puerto Rico where I became 
that office's bombing coordinator, saw the emergence of several 
other groups, including the Macheteros, who ultimately claimed 
credit jointly with FALN actions. In December 1980, I was 
transferred to the Chicago office where there, until 1987, I 
worked FALN cases.
    Between June 1975 and November 1979, the FALN claimed 
credit for 19 bombings and six incendiary attacks in the 
Chicago area. These included bomb targets such as a women's 
washroom in a hotel restaurant, the bombing of the city-county 
building, and the bombing of offices at the Sears Tower. These 
bombings, credit for which was claimed by written communique or 
telephone calls, were frequently coordinated with bombings in 
New York and eventually with actions on the island of Puerto 
Rico. The communiques claiming credit for these stated such 
things as ``a free and socialist Puerto Rico, if necessary, 
will be written in blood,'' and that attempts to suppress the 
offensive of the FALN would be met with ``revolutionary 
violence.''
    While initially law enforcement was unable to identify the 
FALN, in late 1976 a bomb factory was discovered in Chicago 
which was found to be controlled by Carlos Torres and Oscar 
Lopez, two FALN leaders. Explosives tied to FALN bombings and 
FALN communiques were found in that bomb factory.
    The next event in which FALN members were identified was in 
January--I am sorry, in April 1980, when 11 FALN members were 
arrested in Evanston, Illinois. Nine of those members were in a 
van with 13 weapons. Of those 11 arrested at that time, one 
FALN member, following conviction on Federal charges--and I 
would add that the Federal charges were not only of seditious 
conspiracy but also substantive weapons and explosives charges. 
One of those members, Freddie Mendez, cooperated with the 
Government. Mr. Mendez identifies his co-conspirators as having 
gone with him to do the Carter-Mondale assault where they went 
into the offices of the Carter-Mondale campaign and took 
hostages, held people at gunpoint, stole the list of delegates 
to the convention, and sent threatening letters subsequently to 
many of those delegates.
    He also describes how he and his co-conspirators went into 
the Oak Creek Armory in Wisconsin, the National Guard Armory, 
held people at gunpoint and attempted to steal weapons from the 
armory vault.
    Mrs. Feinstein, you mentioned the remarks of Mr. Jimenez. 
One of the things that Mr. Mendez testified to at trial was the 
fact that he and Mr. Jimenez together carried a bomb on public 
transportation throughout the city of Chicago to place it at a 
particular target. Mr. Mendez did not stay with Mr. Jimenez 
when he actually placed the bomb. When they arrived at the 
target, they were not allowed access to the bathroom that they 
intended to put it in. So Mr. Jimenez dismissed Mr. Mendez and 
sent him on his way.
    The FALN's assertions that these people are not violent are 
ludicrous. They are repugnant to those of us that worked on 
these cases.
    In 1983, the FALN was penetrated at a safe house in 
Chicago; 24 pounds of dynamite, 24 detonators, several weapons, 
and thousands of rounds of ammunition were found and 
neutralized by the FBI and other law enforcement agencies. The 
individuals that controlled that safe house--Edwin Cortes, 
Alejandrina Torres, and, subsequently, Alberto Rodriguez--were 
observed building firing circuits for explosive devices, were 
observed making plans to break fellow FALN members out of 
prison, were observed and recorded making plans to do an armed 
robbery, and were observed and recorded making plans to put 
down bombs in the city of Chicago.
    The only reason that any of those acts were not committed 
was only through law enforcement intervention. I would submit 
to you that of the hundreds of thousands of hours spent by law 
enforcement in order to solve these crimes, in order to try and 
identify the individuals, that the few times that we have, in 
fact, succeeded in knowing exactly who the FALN is and knowing 
exactly what their activities are, they are, in fact, quite 
violent and that these people are, in fact, terrorists.
    Thank you.
    [The prepared statement of Mr. Hahn follows:]

                 Prepared Statement of Richard S. Hahn

    I, Richard S. Hahn, am a retired FBI Special Agent. During the 
period of January, 1975, through September, 1987, I was involved almost 
exclusively in the investigation of Puerto Rican terrorist matters. I 
served in New York, San Juan and Chicago during this period. While in 
New York I investigated bombings conducted by the FALN, beginning with 
the bombing of Fraunce's Tavern on January 24, 1975. From January 1978 
through December 1980 I served in San Juan as that office's bombing 
coordinator. My experiences there saw the emergence of the Macheteros 
as well as other groups. From January 1981 through September 1987 I 
served in Chicago as one of several case agents for FALN 
investigations.
    Between June, 1975 and November, 1979, the FALN claimed credit for 
nineteen bombing and six incendiary attacks in the Chicago area. These 
included bomb targets such as the woman's washroom in a hotel 
restaurant, (9/76), the bombing of the city-county building, (6/77), 
and Sears Tower (10/75). These bombings, credit for which was claimed 
by written communique or telephone calls, were frequently coordinated 
with bombings in New York, and eventually with actions on the island of 
Puerto Rico. The communiques stated such things as ``a free and 
socialist Puerto Rico, if necessary, will be written in red blood'' and 
``attempts to suppress it's offensive would be met with ``revolutionary 
violence.''
    While initially law enforcement was unable to identify the FALN, in 
late 1976 a ``bomb factory'' was discovered in Chicago. This led to 
identification of Carlos Torres and Oscar Lopez as persons who 
controlled an apartment in which explosives tied to FALN bombings and 
FALN communiques were found.
    In January, 1980, the FALN conducted an armed assault on the Oak 
Creek National Guard Armory in Wisconsin. Employees were threatened at 
gunpoint and one round was discharged in an unsuccessful effort to 
obtain access to the weapons vault.
    In March, 1980 the FALN conducted a takeover of the Carter-Mondale 
campaign headquarters. Workers in that office were held at gunpoint 
while the office was ransacked and spray painted. Lists of delegates to 
the convention were stolen and threatening letters subsequently were 
mailed to many of them.
    On April 4, 1980, eleven FALN members were captured in Evanston, 
Illinois as they were preparing to conduct an armed robbery of an 
armored car. Among those arrested was Carlos Alberto Torres, renter of 
the bomb factory found in 1976. Also among those arrested was Freddie 
Mendez, a relatively new recruit to the FALN. The arrests led to the 
location of numerous safehouses through out the U.S. including those in 
Milwaukee, Wisconsin and Newark, N.J. Searches of these safehouses 
yielded weapons and explosives and bomb paraphernalia tied to the 
claimed FALN bombings. Mr. Mendez, along with nine other FALN members, 
was tried and convicted of seditious conspiracy. Throughout the trial 
the FALN members refused to participate in the proceedings, claiming 
that the U.S. Government had no authority over them.
    Following his conviction, but prior to sentencing, Mr. Mendez 
reached out for U.S. Government authorities. Mr. Mendez subesquently 
cooperated with the government and provided significant insight into 
the operation of the FALN. Mr. Mendez identified each of his co-
defendants as individuals who participated in armed terrorist actions 
and/or the manufacture/delivery of FALN bombs.
    It is Mr. Mendez testimony that identifies the purpose of the 
gathering of the FALN members in Evanston on April 4, 1980, as well as 
the actions at Carter-Mondale Headquarters and the Oak Creek National 
Guard Armory.
    In addition to his experiences in armed assaults, Mr. Mendez also 
provided testimony regarding being tasked, with one other FALN member, 
Ricardo Jimenez, to place a bomb. Although Mr. Mendez did not 
ultimately participate in the placing of the device, he did travel on 
public transportation through Chicago with Jimenez and the live device 
to the intended target. As they arrived at the target late, they were 
unable to place the device there, and Jimenez dismissed Mendez, stating 
that he would take care of the matter. Mendez testified that Jimenez 
told him that he put the device in the washroom of a building.
    Mr. Mendez also provided information as to the functioning of the 
FALN. He described the FALN in court as a clandestine, revolutionary 
Puerto Rican organization whose goal was to build a peoples war in 
Puerto Rico and the U.S. through armed violence. Mr. Mendez also 
described in testimony, details of the rigors of clandestine 
operations, designed to preclude one member from knowing the activities 
of more than just a few others, in order to minimize risk from 
infiltration or government cooperation. He provided details regarding 
the training he received in counter surveillance techniques, 
maintenance of a safehouse, false identification and disguises.
    Between December 1981 and January, 1983, various agencies of 
Chicago law enforcement worked cooperatively to surveil FALN suspect 
Edwin Cortes. This led to the identification of an active FALN 
safehouse maintained by Cortes and Alejandrina Torres in an apartment 
at 736 W. Buena Street, Chicago. Shortly after the identification of 
the specific safehouse apartment, the government sought, and was 
granted Title III authority to place microphones in the apartment as 
well as to establish video surveillance within the apartment. These 
were established in January, and February, 1983, respectively. On March 
8, 1983, Cortes and Torres were observed via the video surveillance, 
cleaning and loading weapons and subsequently building firing circuits 
for explosive devices. A search of the apartment after the subjects had 
left yielded approximately 24 pounds of dynamite, 24 blasting caps, 
weapons, disguises, false identification and thousands of rounds of 
ammunition. Law enforcement sought and was granted court authorization 
to neutralize and/or seize the weapons and explosives, and maintain 
notice of the searches under seal. Subsequently, law enforcement 
intercepted conversations between Edwin Cortes and still unidentified 
co-conspirators in New York to arrange for the travel of an unknown 
individual to Chicago. On or about March 14, 1983, after several 
conversations with the unknown conspirators in New York, Cortes picked 
up a man at the airport and transported him to the safehouse. The man, 
referred to as Benjamin, remains unidentified. Thereafter, Cortes, and 
``Benjamin'' met at the safehouse. They were joined by Torres and were 
seen gathering the weapons and other materials in the safehouse, and 
subsequently loading bags with materials into two vehicles, one a 
stolen vehicle, the other a vehicle registered in a fictitious name, 
and departing the safehouse apartment in the early AM hours of March 
15th. Prior to leaving the safehouse Cortes made the comment to Torres 
that ``Yes but, she has to have it loaded and cocked further back. If 
they have to shoot, they can shoot.''
    On March 18, 1983, as a result of analysis of Title III intercepts 
in the Chicago safehouse, law enforcement established a surveillance 
outside of the ambulance entrance to Wadsworth VA hospital, where FALN 
leader Oscar Lopez was to be taken that date. Lopez had complained of a 
malady and had been notified well in advance that he would be taken to 
the hospital for tests on that date. The surveillance observed Torres, 
Cortes and ``Benjamin'' moving about the ambulance entrance for over an 
hour, all wearing disguises. During this time, Oscar Lopez was 
precluded from leaving Leavenworth Prison and the ambulance which would 
normally arrive at the hospital in the morning hours never did arrive, 
due to law enforcement intervention. Eventually, Cortes, Torres and 
``Benjamin'' left the hospital area and were surveilled to an apartment 
in Kansas City which had been rented in a false name. A fingerprint of 
Alberto Rodriguez was subsequently located on an item in this 
apartment.
    On March 19, 1983, Cortes and ``Benjamin'' returned to the Chicago 
safehouse at 736 W. Buena Street. While there they were observed on 
video studying maps of the city of Pontiac, Illinois and Livingston 
County. FALN member Luis Rosa captured at Highland Park, Illinois 
following a robbery/kidnapping, was incarcerated at Pontiac State 
Prison. ``Benjamin'' subsequently left, returning to Puerto Rico. On 
March 22, 1983, Luis Rosa was moved from Pontiac Prison to Joliet State 
Prison. The next day Torres and an unidentified female travelled to the 
Bloomington, Illinois area, not far from Pontiac, Illinois. There, they 
rented an apartment under a false name. Later that same evening a 
telephone call between Cortes and Torres was intercepted on the Buena 
safehouse phone. In the conversation Cortes and Torres were overheard 
complaining about the ``changes'' made the day before.
    In March, 1983, Chicago law enforcement located a second Chicago 
FALN safehouse located on Lunt Avenue. Edwin Cortes and FALN member 
Alberto Rodriguez were observed to meet there. This apartment was also 
penetrated with court authorized microphones and video equipment. 
Through intercepts at this location it was determined that they were 
developing plans to rob a Chicago Transit Authority (CTA), mobile safe 
operator of the daily collections. Cortes was subsequently observed 
conducting a surveillance at one of the CTA stops. In intercepted 
conversations between the two, the topic of whether or not underpaid 
guards would risk their lives was discussed. Escape routes and 
advantages of conducting the robbery at different potential sites was 
also discussed. In a May 15, 1983 conversation Alberto Rodriguez was 
overheard discussing ways of confronting the guard, stating they may 
have to ``hit him upside the head'' and that they may have to ``shoot 
the guard, which makes a noise.'' This plot was also diffused by 
Chicago law enforcement who confronted and obtained Identification from 
Rodriguez as he conducted a surveillance of a CTA station on March 16, 
1983.
    On May 27, 1983, Edwin Cortes and Alberto Rodriguez were observed 
moving materials from the Buena Street safehouse to the Lunt Avenue 
safehouse. Following the move the two were observed driving around 
military facilities at Foster and Kedzie, Devon and Kedzie and 74th and 
Pulaski in Chicago. In early June, 1983, they were observed in the Lunt 
apartment working with the bomb building paraphernalia previously 
observed at the Buena Street safehouse. During this meeting Cortes 
instructed Alberto Rodriguez in how to assemble a firing circuit for an 
improvised explosive device. In addition to working with the bomb 
building paraphernalia, they were overheard discussing in detail the 
physical layout of the Army Reserve Center and GSA facility at 74th and 
Pulaski, Chicago and talking about the military sites, Cortes wondering 
aloud how to cause the greatest incendiary damage to vehicles there. 
Following this meeting they again were observed conducting 
surveillances of a Marine base, the Army Reserve Center and two 
military motor pools.
    On June 26, 1983, Cortes met Rodriguez at the Lunt safehouse. They 
were observed working with watches, pipe and pipe caps. They also tried 
on hats and makeup during this meeting.
    On June 28, 1983, Cortes inventoried bomb components at the Lunt 
safehouse. These included blasting caps, dynamite, detonating cord and 
batteries. He and Torres met at the apartment and prepared a 
communique. He subsequently met Rodriguez at the apartment, outside of 
the presence of Torres. With Rodriguez he drew maps and diagrams and 
wrapped blasting caps and the explosives which law enforcement had 
inerted.
    On June 29, 1983, Cortes, Torres, Alberto Rodriguez, and a fourth 
defendant, Jose Luis Rodriguez, were arrested. In comments at 
sentencing Judge George Layton stated, ``One of the strange things 
about this case is that these defendants didn't accomplish any of their 
purpose. They didn't succeed in springing Oscar Lopez. They didn't 
succeed in springing anybody from Pontiac Correctional Center. And they 
didn't even succeed in planting the bombs. Why? Because in this case, 
in this court's judgement, represents one of the finest examples of 
preventive law enforcement that has ever come to this court's attention 
in the 20-some odd years it has been a judge and in the 20 years before 
that this Court was a practicing lawyer in criminal cases all over the 
country. Good, preventive law enforcement succeeded in keeping these 
defendants from doing what they were going to do. They were going to 
plant bombs in public buildings during a holiday.''
    The co-conspirator(s) in New York and Puerto Rico were never 
identified.
    Luis Rosado, a suspected FALN member from New York, remains a 
fugitive on state charges in Illinois for the actions taken with Felix 
Rosa, brother of FALN member Luis Rosa. Rosado failed to appear on 3/
13/81.
    In 1985 a plot to break FALN leader Oscar Lopez out of prison at 
Leavenworth Penitentiary was brought to the attention of the FBI by a 
cooperative witness. In that case co-conspirators were tasked to obtain 
weapons and explosives for use in the plot. The plot was to involve 
forcing a helicopter pilot to land in the yard at Leavenworth. As the 
escape took place, explosive charges were to be used to distract and to 
deter guards from taking action to prevent the escape. Co-conspirators 
in that case were audio taped via court authorized intercepts as they 
purchased what they believed to be explosives to be used in the plot 
from an FBI undercover agent. One co-conspirator successfully 
burglarized a gun store near Littleton, Colorado, to obtain weapons for 
use in the escape. Due to intervention by law enforcement, none of the 
plans came to fruition.

    The Chairman. Thank you, Mr. Hahn. We appreciate that.
    Mr. Gallegos, we are honored to have you here as well.

                STATEMENT OF GILBERT G. GALLEGOS

    Mr. Gallegos. Thank you, Mr. Chairman.
    Good morning, Mr. Chairman and distinguished members of the 
Senate Committee on the Judiciary. My name is Gilbert Gallegos. 
I am the president of the Fraternal Order of Police, which is 
the largest police organization in this country, 283,000 
members.
    The President has recently used his constitutional power to 
offer clemency for 16 terrorists. Despite the opposition from 
Federal officials, from law enforcement officers throughout 
this country, and the victims and the families that were 
affected and impacted for the rest of their life, despite our 
efforts, he turned us down. And we requested at least to 
consult with him, as did the victims. They did not even receive 
a response, as I did not receive a response.
    That was very disappointing with a President who has 
purported to be pro-law enforcement and anti-crime. Thousands 
of police officers in this country have stood shoulder to 
shoulder with our President to make a statement that crime, 
terrorism, will not be tolerated in this country. But yet when 
we seek to counsel with him on important issues that impact not 
only police officers of this country but the millions and 
millions of potential victims of bombings, indiscriminate 
violence that has been perpetuated by this organization.
    Now, we know that this organization is not a political 
organization. They are simply a terrorist and criminal 
organization. They have displayed their power to be criminals. 
And to say that because somebody wasn't really involved in 
planting a bomb is ludicrous. That is like saying that an 
organized group that goes out to rob a bank and the driver 
doesn't go into the bank to rob the bank, to say that that 
driver is any less guilty of bank robbery than the people that 
actually went in to rob the bank.
    So the assertion that they are not violent is a slap in the 
face to the victims and law enforcement and the American people 
throughout this country.
    We know what the crimes are that these people committed. It 
has been well documented. We have seen the pictures. But what 
about the crime of deaf ear to the victims and to law 
enforcement officers who really want to make a statement about 
how we feel about terrorists and criminals?
    And what about the mixed signals that Senator Feinstein 
asserted that this administration is putting out not only to 
the American people but to those thousands of potential 
terrorists out there as to really what the position of the 
American Government is? And that is exactly what we have done. 
We have put out a fact out there that we are really not serious 
about terrorism.
    A week before the clemency offer went, it was put out by 
the President. Secretary of State Madeleine Albright, speaking 
on the anniversary of the deadly U.S. Embassy bombings in 
Africa, vowed to wage an all-out war against terrorism. A week 
later that policy must have changed because we do not have an 
all-out war against terrorism.
    Now should the Secretary of State instead promise to wage 
an all-out effort to get terrorists to repent, not to be 
terrorists or not to be violent? It is ludicrous to even think 
that we can take a position like that.
    Consider the recent case of Buford Furrow. We know that he 
shot up the Jewish community center in California, murdered a 
U.S. postal employee. His violations of the law, the firearms 
laws, were very much the same as those members of FALN. Now, is 
that man going to receive clemency also?
    The administration has put out a mixed signal out there. 
Are we going to release Mr. McVeigh for the actions that he 
took? He didn't intend to kill that many people. He wanted to 
make a political statement. Where does it end, ladies and 
gentlemen?
    And it is very disappointing for law enforcement when we, 
as I said before, have stood shoulder to shoulder with this 
President and considered him our friend and tried to influence 
his decision in the right way, just like his own FBI tried to, 
his own Bureau of Prisons tried to influence his decision, and 
he turned a deaf ear to them.
    This is not about politics. The votes that were taken in 
the House and the votes that were taken in the Senate condemned 
this decision. It was a bipartisan effort, which I applaud, 
because this is a bipartisan issue. And the American people are 
made up of Democrats, Republicans, and all other parties in 
between. And we are made up right now as potential targets of 
terrorism because tacitly the Government, the President, has 
said it is OK and perhaps we will even give you a pardon 
sometime down the road.
    And I commend this Judiciary Committee and other committees 
that are seriously concerned about what action we are taking. 
We are not doubting the President's authority to make this 
decision. What we are doubting is the rationale for it and the 
rationale for not listening to people who have sound advice on 
this particular issue.
    And I think we as the American people have got to take a 
stand. And on behalf of law enforcement officers throughout 
this country, we intend on taking a stand on this issue and 
against terrorists and against criminals who are violent and 
intend to maim the American people.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Gallegos follows:]

               Prepared Statement of Gilbert G. Gallegos

    Good morning, Mr. Chairman and distinguished members of the Senate 
Committee on the Judiciary. My name is Gilbert G. Gallegos, National 
President of the Grand Lodge, Fraternal Order of Police. The F.O.P. is 
the nation's largest organization of law enforcement professionals, 
representing more than 283,000 rank-and-file law enforcement officers 
in every region of the country.
    I had hoped to appear before you today to again urge the President 
to withdraw his offer of clemency to the sixteen convicted terrorists 
and members of the Armed Forces of National Liberation, or FALN to use 
its Spanish initials. Sadly, twelve have already accepted that clemency 
and eleven are at large once again. We should make no mistake--the 
President has used his constitutional power to release convicted 
terrorists, despite the opposition of Federal law enforcement 
officials, despite the objections from the law enforcement community 
and despite the pleas of the victims and families of the dead killed in 
their wave of bomb attacks.
    Today, the F.O.P., instead of renewing its call to withdraw an 
offer of clemency for terrorist bombers, now joins this Senate 
Committee and all concerned Americans in trying to determine why this 
decision was made in the hopes that we can ensure that no more 
murderous criminals will be released so long as they make vague 
promises to abjure violence when they leave prison.
    The F.O.P. strongly supported House Concurrent Resolution 180, 
offered by Congressman Vito Fossella (R-NY), which passed the House of 
Representatives last week in an overwhelming and bipartisan vote. Only 
forty-three members of Congress voted against the resolution for 
reasons which are unclear to me and virtually every other law 
enforcement officer in our country. While this resolution, or any other 
act of Congress cannot reverse the President's offer, it is important 
that we make clear to the President the views of the law enforcement 
community and the American public. Political considerations should 
never compromise the public safety, and, as the safety of the public 
has been compromised in this instance, it behooves us to learn why.
    Make no mistake, the FALN is a militant terrorist organization with 
violent, separatist goals. Between 1974 and 1983, the FALN staged a 
series of bombing attacks on United States political and military 
targets, mostly in New York City and Chicago. These acts of terrorism 
claimed the lives of six people, Mr. Chairman. Scores were wounded and 
some, including three New York City police officers, were permanently 
maimed by the powerful explosives planted by the FALN.
    Let me describe to you a series of bomb attacks which occurred on 
the evening of 31 December 1982. At close to 9:30 pm, a powerful 
explosion rocked the building at 26 Federal Plaza. Members of the New 
York City bomb squad arrived on the scene minutes later and just as 
they began their investigation, a second explosion, the blast of which 
could be felt blocks away, occurred at the Brooklyn Federal Courthouse. 
And the night was just beginning.
    Moments later a third explosion ripped into police headquarters at 
One Police Plaza. The blast was so powerful that it blew out the heavy 
glass and frame of a revolving door. This bomb, however, did more than 
several thousands of dollars worth of structural damage to a government 
building. This blast hit Detective Rocco Pascarella, blowing away most 
of his left side. Detective Pascarella survived the blast, but he lost 
his left leg, his left ear and his left eye.
    Detectives Anthony S. Senft and Richard Pastorella of the New York 
City Police Department, who had been on the scene to investigate the 
aftermath of the earlier blasts now realized that there were more bombs 
in the area. The streets were clogged with New Year's Eve revelers, 
many of whom did not speak English and did not recognize the plain-
clothes detectives as police. Many of these innocent by-standers had to 
be bodily removed from the scene.
    With much precious time having elapsed, the two detectives prepared 
to disarm one of the bombs. It went off in their face.
    Detective Senft was blown backward eighteen feet into the air. He 
found himself blind and deaf with a fractured right hip, his face 
riddled with concrete, metal and other debris. Extensive surgery 
eventually allowed Detective Senft to recover some of the sight in his 
left eye and some of the hearing in his left ear.
    Detective Pastorella, was not so lucky. The explosion tossed him 
twenty-five feet, blew off all the fingers on his right hand and left 
him blind in both eyes. He has had thirteen major operations and twenty 
titanium screws inserted just to hold his face together.
    While most people watched the ball drop in Times Square or on their 
television sets, these three officers were fighting for their lives in 
emergency surgery.
    It is true that none of the sixteen terrorists offered clemency by 
President Clinton were convicted of placing any of the bombs that 
ripped through New York City on that tragic New Year's Eve. Yet the 
claims of this White House that none of them were involved in violence, 
nor directly involved in any deaths or injuries is not only false and 
self-serving, but a slap in the face to the families of the six dead 
and the scores of wounded and maimed victims. Law enforcement officials 
worked hard to get these terrorists behind bars--not to extract a 
promise from them to swear off their evil ways and send them on their 
way. It might be remembered that the wave of violence and murder which 
ruled Chicago ended when Al Capone was convicted of tax evasion, just 
as the wave of bombing attacks in the United States ended when these 
sixteen were imprisoned. Should Al Capone also have been granted 
clemency because he was ``not directly involved'' with any deaths?
    Let me review for the record the names and crimes of these sixteen 
terrorists and then allow you to judge for yourselves whether or not 
these individuals were ``not involved'' with the violent acts of the 
group they formed.

  <bullet> Elizam Escobar, convicted on 18 February 1981 of seditious 
        conspiracy (18 U.S.C. 2384), interference with interstate 
        commerce by threats or violence (18 U.S.C. 1951), possession of 
        an unregistered firearm (18 U.S.C. 5861(d)), carrying firearms 
        during the commission of seditious conspiracy and interference 
        with interstate commerce by violence (18 U.S.C. 924(b)), 
        interstate transportation of firearms with the intent to commit 
        seditious conspiracy and interference with interstate commerce 
        by violence (18 U.S.C. 924(c)) and interstate transportation of 
        a stolen vehicle (18 U.S.C. 2312);

Escobar was sentenced to sixty years, and has been released. The 
President commuted his total effective sentence to less than twenty-
five years.

  <bullet> Ricardo Jimenez, convicted on 18 February 1981 of seditious 
        conspiracy (18 U.S.C. 2384), interference with interstate 
        commerce by threats or violence (18 U.S.C. 1951), possession of 
        an unregistered firearm (18 U.S.C. 5861(d)), carrying firearms 
        during the commission of seditious conspiracy and interference 
        with interstate commerce by violence (18 U.S.C. 924(b)), 
        interstate transportation of firearms with the intent to commit 
        seditious conspiracy and interference with interstate commerce 
        by violence (18 U.S.C. 924(c)) and interstate transportation of 
        a stolen vehicle (18 U.S.C. 23 2);

Jimenez was sentenced to ninety years, and has been released. The 
President commuted his total effective sentence to twenty-five years.

  <bullet> Adolfo Maltos, convicted on 18 February 1981 of seditious 
        conspiracy (18 U.S.C. 2384), interference with interstate 
        commerce by threats or violence (18 U.S.C. 1951), possession of 
        an unregistered firearm (18 U.S.C. 5861(d)), carrying firearms 
        during the commission of seditious conspiracy and interference 
        with interstate commerce by violence (18 U.S C. 924(b)), 
        interstate transportation of firearms with the intent to commit 
        seditious conspiracy and interference with interstate commerce 
        by violence (18 U.S.C. 924(c)) and interstate transportation of 
        a stolen vehicle (18 U.S.C. 2312);

Maltos was sentenced to seventy years, and has been released. The 
President commuted his total effective sentence to less than twenty-
five years.

  <bullet> Dylcia Noemi Pagan, convicted on 18 February 1981 of 
        seditious conspiracy (18 U.S.C. 2384), interference with 
        interstate commerce by threats or violence (18 U.S.C. 1951), 
        possession of an unregistered firearm (18 U.S.C. 5861(d)), 
        carrying firearms during the commission of seditious conspiracy 
        and interference with interstate commerce by violence (18 
        U.S.C. 924(b)), interstate transportation of firearms with the 
        intent to commit seditious conspiracy and interference with 
        interstate commerce by violence (18 U.S.C. 924(c)) and 
        interstate transportation of a stolen vehicle (18 U.S.C. 2312);

Pagan was sentenced to fifty-five years, and has been released. The 
President commuted her total effective sentence to twenty-six years.

  <bullet> Alicia Rodriguez, convicted on 18 February 1981 of seditious 
        conspiracy (18 U.S.C. 2384), interference with interstate 
        commerce by threats or violence (18 U.S.C. 1951), possession of 
        an unregistered firearm (18 U.S.C. 5861(d)), carrying firearms 
        during the commission of seditious conspiracy and interference 
        with interstate commerce by violence (18 U.S.C. 924(b)), 
        interstate transportation of firearms with the intent to commit 
        seditious conspiracy and interference with interstate commerce 
        by violence (18 U.S.C. 924(c)) and interstate transportation of 
        a stolen vehicle (18 U.S.C. 2312);

Alicia Rodriguez was sentenced to fifty-five years, and has been 
released. The President commuted her total effective sentence to four 
years.

  <bullet> Ida Luz Rodriguez, convicted on 18 February 1981 of 
        seditious conspiracy (18 U.S.C. 2384), interference with 
        interstate commerce by threats or violence (18 U.S.C. 1951), 
        possession of an unregistered firearm (18 U.S.C. 5861(d)), 
        carrying firearms during the commission of seditious conspiracy 
        and interference with interstate commerce by violence (18 
        U.S.C. 924(b)), interstate transportation of firearms with the 
        intent to commit seditious conspiracy and interference with 
        interstate commerce by violence (18 U.S.C. 924(c)) and 
        interstate transportation of a stolen vehicle (18 U.S.C. 2312);

Ida Luz Rodriguez was sentenced to seventy-five years, and has been 
released. The President commuted her total effective sentence to 
twenty-three years.

  <bullet> Luis Rosa, convicted on 18 February 1981 of seditious 
        conspiracy (18 U.S.C. 2384), interference with interstate 
        commerce by threats or violence (18 U.S.C. 1951), possession of 
        an unregistered firearm (18 U.S.C. 5861(d)), carrying firearms 
        during the commission of seditious conspiracy and interference 
        with interstate commerce by violence (18 U.S.C. 924(b)), 
        interstate transportation of firearms with the intent to commit 
        seditious conspiracy and interference with interstate commerce 
        by violence (18 U.S.C. 924(c)), and interstate transportation 
        of a stolen vehicle (18 U.S.C. 2312);

Rosa was sentenced to seventy-five years, and has been released. The 
President commuted his total effective sentence to less than five 
years.

  <bullet> Carmen Valentin, convicted on 18 February 1981 of seditious 
        conspiracy (18 U.S.C. 2384), interference with interstate 
        commerce by threats or violence (18 U.S.C. 1951), possession of 
        an unregistered firearm (18 U.S.C. 5861(d)), carrying firearms 
        during the commission of seditious conspiracy and interference 
        with interstate commerce by violence (18 U.S.C. 924(b)), 
        interstate transportation of firearms with the intent to commit 
        seditious conspiracy and interference with interstate commerce 
        by violence (18 U.S.C. 924(c)), and interstate transportation 
        of a stolen vehicle (18 U.S.C. 2312);

Valentin was sentenced to ninety years, and has been released. The 
President commuted her total effective sentence to less than twenty-
five years.

  <bullet> Alberto Rodriguez, convicted on 4 October 1985 of seditious 
        conspiracy (18 U.S.C. 2384), conspiracy to make destructive 
        devices (18 U.S.C. 371 and 26 U.S.C. 5861(f), possession of an 
        unregistered firearm (18 U.S.C. 5861(d)), possession of a 
        firearm without a serial number (26 U.S.C. 5861(i)), and 
        conspiracy to obstruct interstate commerce by robbery (18 
        U.S.C. 1951);

Alberto Rodriguez was sentenced to thirty-five years, and has been 
released. The President commuted his total effective sentence to 
twenty-six years.

  <bullet> Alejandrina Torres, convicted on 4 October 1985 of seditious 
        conspiracy (18 U.S.C. 2384), possession of an unregistered 
        firearm (18 U.S.C. 5861(d)), conspiracy to make destructive 
        devices (18 U.S.C. 371 and 26 U.S.C. 5861(f), unlawful storage 
        of explosives (18 U.S.C. 842(j)), and interstate transportation 
        of a stolen vehicle (18 U.S.C. 2312);

Torres was sentenced to thirty-five years, and has been released. The 
President commuted her total effective sentence to twenty-six years.

  <bullet> Edwin Cortes, convicted on 4 October 1985 of seditious 
        conspiracy (18 U.S.C. 2384), possession of an unregistered 
        firearm (18 U.S.C. 5861(d)), conspiracy to make destructive 
        devices (18 U.S.C. 371 and 26 U.S.C. 5861(f), unlawful storage 
        of explosives (18 U.S.C. 842(j)), interstate transportation of 
        a stolen vehicle (18 U.S.C. 2312), possession of a firearm 
        without a serial number (26 U.S.C. 5861(i)) and conspiracy to 
        obstruct interstate commerce by robbery (18 U.S.C. 1951);

Cortes was sentenced to thirty-five years, and has been released. The 
President has commuted his total effective sentence to twenty-six 
years.

  <bullet> Juan Enrique Segarra-Palmer, was convicted on 15 June 1989 
        of robbery of bank funds (18 U.S.C. 2113(a)), transportation of 
        stolen money in interstate and foreign commerce (18 U.S.C. 
        2314), conspiracy to interfere in interstate commerce by 
        robbery (18 U.S.C. 1951), interference with interstate commerce 
        by robbery (18 U.S.C. 1951), and conspiracy to rob Federally 
        insured bank funds, commit a theft from an interstate shipment, 
        and transport stolen money in interstate and foreign commerce 
        (18 U.S.C. 371);

Segarra-Palmer was sentenced to fifty-five years and a $500,000 fine. 
He has been released and the unpaid balance of his fine waived. The 
President commuted his total effective sentence to less than thirty 
years.

  <bullet> Roberto Maldonado-Rivera, was convicted on 9 June 1989 of 
        conspiracy to rob Federally insured bank funds, commit a theft 
        from an interstate shipment, and transport stolen money in 
        interstate and foreign commerce (18 U.S.C. 371);

Maldonado-Rivera was sentenced to five years in prison and a $100,000 
fine. The President has waived the unpaid balance of this fine.

  <bullet> Norman Ramirez-Talavera, was convicted on 9 June 1989 of 
        conspiracy to rob Federally insured bank funds, commit a theft 
        from an interstate shipment, and transport stolen money in 
        interstate and foreign commerce (18 U.S.C. 371);

Maldonado-Rivera was sentenced to five years in prison and a $50,000 
fine. The President has waived the unpaid balance of this fine.

  <bullet> Oscar Lopez-Rivera, was convicted on 11 August 1981 of 
        seditious conspiracy (18 U.S.C. 2384), interference with 
        interstate commerce by threats or violence (18 U.S.C. 1951), 
        possession of an unregistered firearm (18 U.S.C. 5861(d)), 
        carrying firearms during the commission of seditious conspiracy 
        and interference with interstate commerce by violence (18 
        U.S.C. 924(b)), interstate transportation of firearms with the 
        intent to commit seditious conspiracy and interference with 
        interstate commerce by violence (18 U.S.C. 924(c)) and 
        interstate transportation of a stolen vehicle (18 U.S.C. 2312);

  <bullet> Oscar Lopez-Rivera, was convicted a second time, on 26 
        February 1988 of conspiracy to escape, to transport explosives 
        with intent to kill and injure people, and to destroy 
        government buildings and property (18 U.S.C. 371 and 
        1952(a)(3)), aiding and abetting travel in interstate commerce 
        to carry on arson (18 U.S.C. 2 and 1952(a)(3), and using a 
        telephone to carry on arson (18 U.S.C. 1952(a)(3));

Lopez was sentenced to fifty-five years and fifteen years, 
respectively. He has rejected the offer of clemency, which would 
commute his total effective sentence from seventy to forty-four years.

  <bullet> Antonio Camacho-Negron, was convicted on 9 June 1989 of 
        foreign transportation of stolen money (18 U.S.C. 2314), and 
        conspiracy to rob Federally insured bank funds, commit a theft 
        from an interstate shipment, and transport stolen money in 
        interstate and foreign commerce (18 U.S.C. 371);

Camacho-Negron was sentenced to fifteen years and a $100,000 fine. He 
was released on parole after serving some time, but returned to prison 
in February 1998 for again becoming active in the FALN. He has rejected 
the President's offer of clemency, which would have remitted the unpaid 
balance of his fine.
    As I mention here, the last two did not accept the President's 
offer. While we can all be grateful that there are two less terrorists 
on the streets than the President wanted, the very fact that they were 
given the opportunity to reject such an offer is a slap in the face to 
law enforcement officers everywhere.
    President Clinton offered these terrorists clemency on 11 August 
and attached certain conditions to their release. First, each must 
submit a signed written statement requesting the commutation of the 
sentence. They must agree to abide by all conditions of release imposed 
by law or the Parole Commission, and renounce the use or threatened use 
of violence for any purpose.
    It took them almost a month to agree to these terms. Why? Perhaps 
because they were negotiating a better deal. This in and of itself is 
astounding--that Federal inmates accused of such serious crimes were in 
a position to negotiate with the White House about the terms of their 
release. While the specifics of those negotiations remain unknown, I 
wonder what conditions they objected to. Did they not wish to renounce 
violence as the means through which to achieve their separatists goals?
    Let us examine for a moment, the crimes for which these terrorists 
were convicted, because, as the President reminds us, none of the above 
were convicted of killing or injuring anyone. The first and most 
serious crime is seditious conspiracy. At one time in United States 
history, sedition and seditious conspiracy, which is plotting against 
or carrying out acts of war or sabotage against the United States, was 
a hanging offense. In 1942, by order of President Roosevelt, eight men 
were arrested, tried and executed for seditious conspiracy and 
sabotage. Now, fifty years later, sentences of less than twenty years 
are viewed as too harsh.
    Other offenses for which these violent would-be revolutionaries 
were convicted include a variety of explosive and firearms offenses. 
This Administration cannot seem to decide what message to send--it has 
continually pushed for new gun control laws, has utterly failed to 
enforce the ones on the books and now, it seems, it is willing to grant 
clemency even to those offenders who commit those crimes. In my 
opinion, the more we examine this case the less it makes sense.
    A week prior to the offer of clemency for these terrorists, 
Secretary of State Madeline Albright, speaking on the anniversary of 
the deadly U.S. Embassy bombings in Africa, vowed to wage an all-out 
war against terrorism. Did that policy change in just a week? Should 
our Secretary of State have instead promised to wage an all-out effort 
to get terrorists to promise to renounce violence?
    What message are we sending to terrorists--domestic and foreign, 
and what message are we sending to those violating our gun laws?
    Buford O. Furrow, Jr., the man who shot and wounded five at a 
Jewish Community Center and murdered a U.S. Postal employee was in 
violation of numerous firearms laws. Yet this has not stopped the 
Administration or others from pointing to this tragedy to score 
political points in favor of additional gun control.
    Mr. Furrow is a racist who committed this heinous act as, in his 
words, ``a wake-up call to America to kill Jews.'' His repugnant crimes 
include many of the same crimes for which the FALN terrorists were 
convicted--felony possession of a firearm and car jacking to name a 
few. Will Mr. Furrow be granted clemency next? How were his crimes any 
different than that of the FALN terrorists? Like Mr. Furrow, they chose 
specific targets--government buildings and government employees. The 
1975 bombing of Fraunces tavern was aimed at businessmen, whom the FALN 
termed ``imperialistic capitalists,'' whose companies did business with 
Puerto.
    These, too, are crimes of hate--a ``wake-up call'' in a war of 
nerves between the Federal government and these violent Puerto Rican 
separatists. The Administration is pushing hate crimes legislation with 
one hand, and setting free criminals guilty of similar crimes with the 
other.
    Consider the text of S. 1406, a bill introduced by you, Mr. 
Chairman to combat hate crimes:

`Sec. 249. Interstate travel to commit hate crime
          (a) IN GENERAL--A person, whether or not acting under color 
        of law, who--
                `(1) travels across a State line or enters or leaves 
                Indian country in order, by force or threat of force, 
                to willfully injure, intimidate, or interfere with, or 
                by force or threat of force to attempt to injure, 
                intimidate, or interfere with, any person because of 
                the person's race, color, religion, or national origin; 
                and
                `(2) by force or threat of force, willfully injures, 
                intimidates, or interferes with, or by force or threat 
                of force attempts to willfully injure, intimidate, or 
                interfere with any person because of the person's race, 
                color, religion, or national origin, shall be subject 
                to a penalty under subsection (b).
          `(b) PENALTIES--A person described in subsection (a) who is 
        subject to a penalty under this subsection--
                `(1) shall be fined under this title, imprisoned not 
                more than 1 year, or both;
                `(2) if bodily injury results or if the violation 
                includes the use, attempted use, or threatened use of a 
                dangerous weapon, explosives, or fire, shall be fined 
                under this title, imprisoned not more than 10 years, or 
                both; or
                `(3) if death results or if the violation includes 
                kidnapping or an attempt to kidnap, aggravated sexual 
                abuse or an attempt to commit aggravated sexual abuse, 
                or an attempt to kill--
                        `(A) shall be fined under this title, 
                        imprisoned for any term of years or for life, 
                        or both; or
                        `(B) may be sentenced to death.'.

    These terrorist chose their targets on the basis of national 
origin. They used firearms and explosives to kill Americans, whom they 
falsely perceived to be keeping Puerto Rico in colonial bondage. Does 
the Administration want to punish hate crimes, or release the 
practioners of hate crimes? If Senator Hatch's legislation were law, 
they could have been sentenced to death.
    The Administration strongly supports S. 622, which also would have 
resulted in life sentences for these terrorists:

SEC. 4. PROHIBITION OF CERTAIN ACTS OF VIOLENCE.
          Section 245 of title 18, United States Code, is amended--
                (1) by redesignating subsections (c) and (d) as 
                subsections (d) and (e), respectively; and
                (2) by inserting after subsection (b) the following:
                                (c)(1) Whoever, whether or not acting 
                                under color of law, willfully causes 
                                bodily injury to any person or, through 
                                the use of fire, a firearm, or an 
                                explosive device, attempts to cause 
                                bodily injury to any person, because of 
                                the actual or perceived race, color, 
                                religion, or national origin of any 
                                person--
                        `(A) shall be imprisoned not more than 10 
                        years, or fined in accordance with this title, 
                        or both; and
                        `(B) shall be imprisoned for any term of years 
                        or for life, or fined in accordance with this 
                        title, or both if--
                                `(i) death results from the acts 
                                committed in violation of this 
                                paragraph; or
                                `(ii) the acts committed in violation 
                                of this paragraph include kidnapping or 
                                an attempt to kidnap, aggravated sexual 
                                abuse or an attempt to commit 
                                aggravated sexual abuse, or an attempt 
                                to kill.

    Under Senator Kennedy's legislation, these terrorists, who targeted 
Americans could have been sentenced to life. Instead, all have been 
released by the President after serving only a fraction of their 
sentences.
    The President would have us believe that the sentences for the FALN 
bombers were unusually harsh. The President also noted that human 
rights leaders like Archbishop Desmond Tutu urged that these criminals 
had served enough time for their violent crimes. I might remark at this 
time that Archbishop Tutu also advocates the release of Mumia Abu-
Jamal, a convicted cop-killer who murdered Philadelphia Police Officer 
Daniel Faulkner in 1981. He was convicted in 1982, and had Post-
Conviction Relief Act (PCRA) hearings in 1995, 1996 and 1997. On each 
of those three occasions, the Pennsylvania Supreme Court upheld the 
conviction and the death sentence. Will he be offered clemency next? 
Why is it, Mr. Chairman that these so-called ``human rights'' activists 
are so selective about who is entitled to these rights? What about 
Danny Faulkner and his widow Maureen? What about Tom and Joe Connor, 
whose father was killed by the FALN? What about Detectives Pascarella, 
Senft and Pastorella? Do they not have rights in the view of these 
advocates? I reject, Mr. Chairman, that there was any injustice in the 
sentences of these sixteen terrorists and I reject any suggestion that 
we ought to free those who aim to wage a war of terror to achieve 
political ends. If this puts me at odds with President Clinton and 
others, then so be it.
    It should also be remembered that President Carter pardoned three 
Puerto Rican nationalists who were convicted in a 1954 shooting attack 
on the U.S. House of Representatives that wounded five law makers. Two 
Congressional pages who were on the floor at the time of the attack 
were later elected to Congress--the late Bill Emerson (R-MO) and 
Representative Paul E. Kanjorski (D-PA). A fourth nationalist, 
convicted of the murder of a Federal law enforcement officer, attempted 
assassination of President Harry S. Truman and assault with the attempt 
to kill in 1950, was also pardoned by President Carter in 1979. We 
disagreed with President Carter's decision then, as we disagree with 
President Clinton's now--nationalists whose love of country can only be 
expressed by shooting sprees, assassination plots and bombing attacks 
are nothing more than terrorists.
    At the time of the President's offer of clemency, Congress was out 
of session. I, along with nearly four thousand members of the Fraternal 
Order of Police representing law enforcement officers from every region 
of the country, were at our 54th Biennial Conference. This 
Administration seems to have a penchant for making bad decisions when 
they know media coverage will be scarce.
    In any case, in part because of the efforts of the Fraternal Order 
of Police, the story, once confined to single paragraph Associated 
Press news bulletins, grew. By the next week, the offer was front page 
headlines, with news and political commentators speculating that the 
offer was a calculated attempt to appeal to the 1.3 million voters of 
Puerto Rican descent in the State of New York, where the First Lady may 
run for a Senate seat. In my own letter to the President on 18 August, 
I urged him not to play politics with terrorists and admonished him 
that releasing violent criminals was no way to gain votes or appeal to 
racial pride. I have yet to receive an answer or even an 
acknowledgement of the letter I sent.
    By 25 August, the offer of clemency was a national story, prompting 
the White House to issue a statement: ``There is absolutely no 
connection between the President's decision here and [the First Lady's] 
possible campaign.'' Ten days later, the First Lady publicly urged the 
President to rescind his offer. Of course, the terrorist accepted the 
offer three days later on 8 September.
    Whether or not the offer of clemency was indeed made with the aim 
of helping the First Lady's potential campaign for the Senate, I cannot 
say. I can say that I do not understand what possible motive the 
President could have--releasing terrorist to gain votes for his wife 
makes no more sense to me than does the claim that it was an attempt to 
appease ``human rights'' advocates.
    The First Lady now acknowledges that she mishandled the issue and 
should have met with the supporters of the terrorists to explain her 
opposition before announcing it. This, too, is something I don't 
understand. Supporters of these terrorists had a sit down meeting with 
the Attorney General of the United States. The terrorists themselves 
were permitted a conference call to discuss the President's offer. And 
yet, like me, the maimed law enforcement officers cannot even get the 
President or the Department of Justice to acknowledge their letter. 
This, Mr. Chairman, is a disgrace.
    Thus, we are still left with the question--why?
    We also must factor into our consideration the clemency process, 
described by Presidential spokesperson Joe Lockhart as ``painstaking.'' 
Be that as it may, according to published reports, the clemency offer 
was opposed by the Federal Bureau of investigation and the former 
prosecutors, U.S. Attorneys, who brought the cases against these 
terrorists. The most noteworthy news reports, however, revolve around 
the position of the Bureau of Prisons, an agency which only very rarely 
participates in pardon or clemency debates. In this case, they did take 
a position and recommended strongly against the offer. The reports of 
the tape recordings on which these bombers discussed a return to their 
terrorist activities may or may not exist. It is BOP policy to tape 
record all phone conversations which are not protected by attorney-
client privilege, but while the tapes are reviewed, they are not 
necessarily retained. The truth is, we may never get to hear the tapes.
    White House sources have stated that former White House Counsel 
Charles F.C. Ruff recommended that the clemency be granted. Other news 
reports reveal that clemency for these terrorist was the top priority 
of Jeffery Farrow, co-chairman of the President's Interagency Group on 
Puerto Rico. Mr. Farrow has recently been included in a Congressional 
probe of potential illegal activities at the Interior Department.
    My question is what was so painstaking about the process? That it 
took Mr. Farrow from November 1997 to obtain the terrorists' release or 
the political and public safety ramifications of ignoring the 
recommendations of Federal law enforcement agencies?
    The President has the power to grant clemency and to grant pardons, 
both are clearly spelled out in the Constitution. There is no 
Constitutional requirement that the motive be pure or the decision be 
sound. Former President and Chief Justice William Howard Taft, writing 
for the Supreme Court in Ex parte Grossman, 267, U.S. 87 (1925), noted, 
``Our Constitution confers this discretion on the highest officer in 
the nation in confidence that he will not abuse it.'' I submit to you, 
Mr. Chairman, that my confidence has been sorely shaken. One can only 
hope that Timothy McVeigh and Terry Nichols are not also on the 
President's list of people to pardon before his term ends. Perhaps 
McVeigh and Nichols were a bit more ``successful'' by a terrorist's 
standards, but there is very little difference in the nature of the 
crimes committed.
    And what about William Morales? He is the husband of one of the 
terrorists released last week by the President and is the self-
professed leader of the FALN, described as the ``bombing mastermind'' 
behind the group's wave of attacks. In 1979, he was caught and 
sentenced to 89 years in prison. He served only three months before 
escaping to Cuba where he now lives in relative luxury along with 
numerous other violent criminals who have fled this country. 
Ironically, he is actively applying for amnesty and has asked President 
Clinton to grant him the freedom to return to the country he once 
terrorized. This is a man who once expressed that the people left dead 
as a result of their bombing attacks were ``casualties of war.'' Should 
he, too, be granted amnesty for his crimes as long as he promises to 
never, ever bomb anyone again?
    Who else, then, is on the President's list for pardons and 
clemency? The President has exercised this power on only three previous 
occasions. Once to pardon a perjurer, another time to pardon a person 
convicted of a marijuana drug offense. The offer of clemency to 
unrepentant terrorists, though, certainly seems out of place.
    I say unrepentant, but perhaps I should say proud. They are proud 
of their actions. When given the chance to apologize to their victims, 
when given the chance to disavow the actions that landed them in 
prison, they refused. Upon their return to Puerto Rico, they were 
granted, in the words of those who were present a ``hero's welcome.'' 
Is this the message we want to send? That these terrorists triumphed 
over their American enemies and returned home victorious? Regrettably, 
that is precisely what their freedom symbolizes--a victory for terror 
and a defeat for justice.
    Just for the sake of comparison, the President has granted clemency 
to sixteen terrorist bombers, but not to Officer Robert Couch. Officer 
Robert Couch, formerly of the Covington, Kentucky Police Department, 
was engaged in a high-speed pursuit in August of 1989. The driver, who 
admitted to being suicidal, stopped his vehicle and assaulted the 
officers who had pursued him. After a fight, the driver was charged 
with, among other things, assault on a police officer, and found guilty 
of attempted assault.
    A year and a half later, after three grand juries, Officer Couch 
was indicted for violating the civil rights of the driver and 
obstruction of justice. They made an example out of him. They wanted to 
send a message.
    Mr. Chairman, no person--and that includes the driver--made 
complaints of any kind. Despite the indictment, Officer Couch was 
granted a bond of recognizance and continued to function as a police 
officer in Covington.
    Officer Couch was convicted, but permitted to remain free 
throughout the appeals process. The ``obstruction of justice'' 
conviction was overturned by the Sixth Circuit, but denied the officer 
a new trial. Following the exhaustion of all legal means, Officer 
Robert Couch was sentenced to 63 months in prison.
    Mr. Chairman, I do not underestimate the situation at all when I 
say that this is the very definition of manifest injustice. If there is 
anyone who ought to be extended an offer of Presidential clemency it is 
Officer Robert Couch. He is an honorable man and a good law enforcement 
officer. I cannot understand why the President is pardoning terrorists 
when the Fraternal Order of Police and thousand of others have written 
in to support clemency for Officer Couch. The power of the President to 
grant clemency and issue pardons is supposed to correct injustices, not 
commit them.
    I do not know why the President offered clemency to sixteen Puerto 
Rican terrorists. I believe that even if I did know why, it would not 
make any sense to me. Perhaps it was a political maneuver which 
backfired, or perhaps it was a genuine effort to appease ``human 
rights'' activists. I do know, however, that the decision was reached 
and for whatever reason it was decided, it was wrong. Terribly, 
terribly wrong.
    Mr. Chairman, I want to thank you and the other members of this 
distinguished Committee for inviting me here this morning to offer the 
views of the Fraternal Order of Police on this matter. I would be 
pleased to answer any questions you may have for me.

    The Chairman. Well, thank you, Mr. Gallegos. We appreciate 
your testimony.
    Dr. Ikuta.

             STATEMENT OF REV. DR. C. NOZOMI IKUTA

    Rev. Ikuta. Thank you very much. My name is Nozomi Ikuta. I 
am an ordained minister in the United Church of Christ.
    I would like to just take a moment to acknowledge the 
stories we have heard, very painful ones. I am really deeply 
grateful for the opportunity to have been able to hear 
personally from Mr. Pascarella and Mr. Newhall.
    I would actually like to take a moment of silence just to 
extend our hearts and minds to them and their friends and their 
families and what they have suffered. I would pray that God's 
spirit would enfold them, and all of us, and guide us in a 
search for truth and justice and life.
    I would like to explain why I personally and the United 
Church of Christ has been a leading member of the effort to 
release these men and women from prison. We are certainly aware 
of the seriousness of their charges: seditious conspiracy, 
which has been pointed out was the same charge that Nelson 
Mandela spent so many years in prison for, but also other, more 
material charges: the possession of firearms, in many cases 
also explosives, transportation of stolen vehicles across State 
lines. We know that these are serious charges.
    We also know the even more serious things that happened 
because of FALN activity. We have heard some of these stories. 
It concerns me greatly, though, to hear members of this body 
really advocating for a policy of guilt by association.
    Now, this isn't a real fancy copy, but it is a copy from 
the Internet of the U.S. Constitution and Bill of Rights. It is 
a document that I understood that all of you here had sworn to 
uphold and protect.
    The Fifth Amendment--and you guys are the experts in this--
does have this presumption of innocence: ``No person shall be 
held to answer for a capital, or otherwise infamous crime, 
unless on a presentment or indictment of a Grand Jury, * * * 
nor be deprived of life, liberty, or property, without due 
process of law.''
    Senator Hatch, you yourself in your opening arguments 
talked about the importance of law and the rule of law. And I 
would ask whether all of us here are ready to abandon that 
precept just because somebody starts--or a lot of people start 
using the word ``terrorism'' and generating a lot of fear and 
hysteria.
    What does it mean to say that none of these people were 
ever charged or convicted with any of these acts of violence, 
and yet they should all be given the same charges they were. I 
would beg of us all to resist the urge to convict these people 
in a court of public opinion who were never so convicted in any 
court of law in this United States for the kinds of acts that 
were described today.
    We know terrible things are done by frail and sinful human 
beings. Terrible things have been done by members of the 
police, perhaps by members of the Federal Bureau of 
Investigation in Waco and so forth. But I don't think that 
anybody would say that every member of any organization should 
be held liable for every act committed by any member of that 
organization. I beg of you, I beg of us to protect the 
constitutional rights that we have held dear for centuries in 
this country.
    Now, really, I am a minister. Mrs. Torres is a member of 
our church. Carlos Alberto Torres is a member of our church. We 
hold these people dear. We hold them in our hearts. We believe 
that the 20 years that they have already served, most of them, 
more than pay the price for the things that they were indeed 
found guilty of. And so these are not just any prisoners. We 
have documentation, ads showing support from all over the 
religious community, all these Nobel laureates, as Senator 
Feinstein had named.
    And, in closing, I would just like to say that on August 29 
I was among the tens of thousands, perhaps a hundred thousand 
people who marched in Puerto Rico in support of these 
prisoners. The next morning I went to a bakery near where we 
were staying, and these were the front-page headlines on every 
newspaper carried by this little bakery in Puerto Rico. Every 
single one carried a full-color photo. These folks are clearly 
not regarded as dangerous. They are not regarded as violent. 
They are not regarded as terrorists. They have committed 
themselves to non-violence. They have committed that, many of 
them to me personally, and certainly all of them have done so 
publicly, in writing, before the House of Congress and in many 
other statements.
    People do not get this kind of welcome. These are not just 
Timothy McVeigh. These are people who have been adopted and 
embraced by all of Puerto Rico, and not just some relatively 
small percentage that indeed has voted for independence at the 
polls.
    I realize that my time is up. I would just like to say that 
we do face, I believe, in these days, in the closing days of 
this century and millennium, a challenge and an opportunity. We 
can face the future in a spirit of vengeance, or we can face it 
with hope and reconciliation and love. We can bring the same 
spirit to Puerto Rico that we brought in the cases of Ireland 
and Palestine where other prisoners, many of them with many 
more violent records, were released. It is my prayer that 
indeed the spirit of love and truth will prevail and guide us 
all in the coming days.
    Thank you.
    [The prepared statement of Rev. Ikuta follows:]

             Prepared Statement of Rev. Dr. C. Nozomi Ikuta

    After hearing and reading of the tragedies which have befallen the 
victims of FALN bomb blasts, I can only weep with you, and them, for 
their sufferings. Before I begin my remarks, I would like to ask for a 
moment of silence, to join our hearts with these victims, to embrace 
them, and comfort them, after which I would like to offer a prayer.
    Let us pray. Holy, holy, holy God; God of power and majesty; God of 
love and mercy; we come before you to ask you to send your spirit to us 
and surround us and enfold us. We ask you to be with all those who 
suffer from every form of tragedy, especially those who were injured in 
the FALN bombings, and their families. We ask you to be with them in 
their pain, even as we ask you to heal them in body and spirit. Be with 
all of us, we pray; give us a spirit of right understanding, a spirit 
of truth, a spirit of justice. In the bold name of the One whom we name 
as Truth and Life. Amen.
    To Senator Hatch, Senator Leahy, and the other members of this 
important body--thank you for allowing me to explain to you why so many 
of us in the United Church of Christ have come to press so insistently 
for the release of these Puerto Rican men and women from prison.
    As I indicated above, certainly we are aware of some of the 
terrible sufferings caused by FALN bombings, of people injured, maimed, 
killed. Health and life are precious gifts of God which, once taken, 
can never be returned. How could I come before you--as a minister, as a 
Christian, or simply as a feeling, thinking, human being--and say 
otherwise?
    We are equally aware of the seriousness of the charges for which 
the men and women who were granted clemency by President Clinton were 
initially convicted. Seditious conspiracy; possession of firearms, and 
in some cases, explosives; and interstate transportation of a stolen 
vehicle--these are the sorts of charges for which I could not pretend 
that the majority of our members would regard as minor.
    Nonetheless, I would ask you--all of us--to resist the hysteria 
surrounding the news of the release of these men and women from prison. 
Let us remember President Clinton's explanation--that he found the 
sentences meted out to these men and women to be excessively and 
disproportionately long. In making his clemency decision, the President 
was by no means ignoring the seriousness of the charges for which these 
men and women were convicted. He was simply recognizing that for 
charges such as these, the nearly two decades that these women and men 
have already served in prison are far longer than the sentences usually 
given out for such offenses.
    I have in my hands a copy of the Constitution of the United States 
of America--a document all of you have sworn to uphold and protect. As 
you know, Amendment 5 provides--and I quote exactly--that ``No person 
shall be held to answer for a capital, or otherwise infamous crime, 
unless on a presentment or indictment of a Grand Jury, * * * nor be 
deprived of life, liberty, or property, without due process of law.''
    You are probably aware that because of their political beliefs, 
these men and women refused to participate in their own trials, and 
that this refusal enabled the prosecution to obtain convictions for all 
the charges it brought. I am not asking you to agree with the course of 
action that the prisoners took regarding their trials, but only to 
recognize that if the prosecution had the least bit of evidence 
connecting the men and women granted clemency by President Clinton to 
the Fraunces Tavern or other bombing, they could have easily brought 
charges and obtained convictions in light of the prisoners' refusal to 
mount a legal self-defense. Instead, the prosecution chose not to 
charge them with any such activity.
    Can I, or anyone, prove unequivocally that the men and women 
released from prison by President Clinton are completely innocent of 
the Fraunces Tavern or other bombings? Of course not--any more than I 
can prove, unequivocally, that anyone of you, present with me here 
today, are completely innocent of such events.
    If we are not to allow this document, the Constitution and Bill of 
Rights of the United States of America, to become a worthless piece of 
paper, I beg of you to not to let yourselves be engulfed by the 
hysteria swirling around us. However sad, however tragic, however 
horrible the deaths and injuries caused by the Fraunces Tavern bomb--
and no one is denying that it was all of those things--let us not be 
seduced into discarding the truth. The truth is that, unless we are 
willing to abandon the 5th Amendment and require these men and women to 
``answer for a capital, or otherwise infamous crime * * * without due 
process of law,'' in short, to answer for acts for which they were 
neither convicted nor charged, we dare not let our emotions about the 
sufferings of the Fraunces Tavern victims, however valid they may be, 
to press us, in a thirst for revenge, into holding the men and women 
released by President Clinton responsible for such acts. As the 
President noted, these men and women have more than fulfilled any 
reasonable sentence for the firearms and other charges for which they 
were actually convicted. I beg of you not to be a party to convicting 
these men and women in the court of public opinion for crimes for which 
they were never convicted in a court of law.
    Please pardon, if you will, this digression into Constitutional 
rights. Fundamentally, I am a minister of the church of Jesus Christ, 
not a student of political science, history, or law. My ministry led me 
to a job in the United Church of Christ that included responsibility 
for these prisoners, because two of them--Alejandrina Torres, who was 
released on September 11, and Carlos Alberto Torres, who remains in 
prison, having been excluded from the President's offer, have long 
relationships with our church, and because our General Synod had 
adopted a resolution in 1991 calling for the release of all of these 
men and women from prison. Mrs. Torres is the wife of one of our 
pastors, now retired, and Carlos Alberto is the son of that same 
pastor. When I decided that I could not carry out this ministry without 
knowing these prisoners, I began to visit them.
    In the course of the last six or seven years, I have visited 10 of 
the prisoners released by President Clinton's granting of executive 
clemency, as well as three others who remain behind bars. I must say 
that meeting them turned out to be one of the extraordinary events of 
my life. Although they certainly vary in their personalities, they are 
all very impressive, gifted, people, remarkable in their combination of 
strength and gentleness. Dozens of church leaders have visited them, 
and have been uniformly impressed by their character. All of us have 
come away from these visits convinced that these men and women did not 
belong behind bars. And we certainly believe their commitments to non-
violence, made both to me personally and publically in a statement to 
the House Resources Committee in 1997, and re-affirmed in the last 
month.
    And now, the moment has come. On August 29, after the President's 
announcement and before the prisoners' acceptance of his offer, I was 
among perhaps 100,000 or more people from several different nations and 
every part of the Puerto Rican religious and political spectrum, 
calling for the immediate release of these men and women from prison. 
The next morning, when I went to the bakery near where we stayed, these 
were the front-page photos carried by all four newspapers sold by that 
little Puerto Rican bakery. Every single paper told the story--of 
thousands and thousands and thousands of Puerto Ricans who had braved 
driving rains to show their support for these men and women.
    Last Friday, the Rev. Dr. Paul Sherry, our church's president, and 
I took part in the reception in Chicago for these prisoners. The mood 
was of joy and thanksgiving that these women and men would now be 
reunited with their families. For us, the release of these prisoners is 
an act blessed by the God of love and reconciliation, for which we give 
God thanks and praise. So, too, the Puerto Rican people have welcomed 
and embraced these men and women upon their return home. Such a 
reception would certainly never be extended to people considered 
violent or dangerous to their communities.
    Esteemed Senators, brothers and sisters--today we face a tremendous 
challenge and opportunity. As we approach a new century and millennium, 
we can do so in a spirit of hatred and revenge, seeking to blame 
certain people for acts in which they were never even implicated, or we 
can do so in a spirit of reconciliation. It is my prayer that the 
spirit of love and truth will prevail, and guide us all in the days 
ahead.
                                 ______
                                 

                                   United Church of Christ,
                                                 700 Prospect Ave.,
                                  Cleveland, OH, September 7, 1999.
President William Jefferson Clinton,
The White House,
1600 Pennsylvania Ave.,
Washington, DC.
    Dear President Clinton: As President of the United Church of 
Christ, I write to extend our deep appreciation to you for granting 
executive clemency to Puerto Rican men and women imprisoned because of 
their acts and beliefs in favor of independence for Puerto Rico.
    As you know, along with many other members of our church, I have 
had the privilege of knowing some of these prisoners personally, and 
have found them to be of impressive character. They are rich human 
resources who will greatly benefit their communities upon their 
release.
    We are pleased that you agreed with so many of us--and with 
international human rights leaders such as Archbishop Desmond Tutu and 
Coretta Scott King--that the sentences received by these prisoners were 
excessive and disproportionate, given that they were not convicted, or 
even accused, of any bombing, injury, or death. With you, we affirm the 
Constitutional presumption of innocence and insist that these prisoners 
should not be held guilty by association for violent acts for which 
they were neither accused nor convicted.
    Both in private conversations with members of our church and in 
public statements issued in 1997 and re-affirmed last week, these 
prisoners have clearly already renounced violence and stated their 
commitment to non-violent methods in pursuit of their political goals. 
We urge you to help make people more aware of this fact as you 
interpret your clemency decision to the general public.
    We stand with the many tens of thousands of our Puerto Rican 
sisters and brothers, including religious and civic leaders from our 
church and from every denomination and political party, who marched 
last week in support of the release of these prisoners. Clearly this 
remarkable event demonstrates the desire of the Puerto Rican people to 
welcome the prisoners home.
    We, too, eagerly await the return of these men and women. We must 
note, however, our continuing sadness that Carlos Alberto Torres, Oscar 
Lopez Rivera, and Juan, Segarra Palmer still face so many more years in 
prison. Carlos Alberto Torres, who was not granted executive clemency, 
is the son of one of our ministers, the Rev. Jose A. Torres; our joy 
will not be complete until he and the other prisoners have also 
returned home.
    Again, please know of our gratitude for granting the release of 
these men and women from prison. We are anxiously awaiting their return 
to our communities.
            Sincerely,
                                            Paul H. Sherry.
                                 ______
                                 

   United Church of Christ, The Rev. C. Nozomi Ikuta, Press Contact 
                           News Communication

               (For immediate release, September 8, 1999)

             RELIGIOUS LEADERS SUPPORT RELEASE OF PRISONERS

    CLEVELAND--In response to yesterday's acceptance of President 
Clinton's offer of executive clemency by 12 men and women being 
punished for acts and beliefs in favor of independence for Puerto Rico, 
religious leaders today (Sept. 8) reiterated their support for the 
prisoners' release.
    In a letter to President Clinton, the Rev. Paul H. Sherry, 
president of the United Church of Christ, said, ``We are pleased that 
you agreed with so many of us--and with international human rights 
leaders such as Archbishop Desmond Tutu and Coretta Scott King--that 
the sentences received by these prisoners were excessive and 
disproportionate, given that they were not convicted, or even accused, 
of any bombing, injury or death. With you, we affirm, the 
Constitutional presumption of innocence and insist that these prisoners 
should not be held guilty by association for violent acts for which 
they were neither accused nor convicted.''
    The Archbishop of Puerto Rico, Roberto Gonzalez Nieves, agreed. 
When the clemency offer was announced, his only criticism was that it 
didn't go far enough. ``Although as Christians, we should be grateful 
that the wish of the Puerto Rican people was heard that our brothers 
and sisters return home, we lament that President Clinton did not grant 
unconditional freedom to all the political prisoners,'' he said 
(translated from the original Spanish; El Nuevo Di, August 11, 
available at <www.endi.com>).
    Others said that the prisoners' delay in accepting the President's 
offer had nothing to do with renouncing violence. In 1997, in a public 
statement to the House of Representatives, they committed themselves to 
peaceful means, and they re-affirmed this a few days ago because so 
many people seemed unaware that this was already their position,'' said 
Bishop Thomas Gumbleton of Detroit, former head of Pax Christi, a 
Catholic peace organization.
    The Rev. Eliezer Valentin-Castanon of the United Methodist General 
Board for Church and Society referred to last week's march in Puerto 
Rico in favor of these prisoners, which drew tens of thousands of 
people, including leaders from every religious denomination and 
political party. ``This is obviously about peace and reconciliation. 
You don't get such a broad-based consensus for releasing people who are 
interested in violence,'' he said.
    Sherry noted that one of the released prisoners, Alejandrina 
Torres, is the wife of a United Church of Christ pastor, and that one 
of the prisoners who would remain in prison is the son of the same 
pastor. ``For us, this is not only a justice issue; it is also a 
pastoral one,'' he said.
    Since 1991, when its General Synod adopted a resolution in favor of 
release of the prisoners, the United Church of Christ has been involved 
intensively in this effort ``This issue has been a priority for several 
years, of our Council for Hispanic Ministries, our staff and many 
members,'' said Sherry. ``We have visited and written to the prisoners, 
called and written to the White House, published educational resources 
and participated in numerous protests.''
    Sherry also said that he had personally met several of the 
prisoners. ``More than two dozen leaders of our church have visited 
them and they really are remarkable people. We are certainly looking 
forward to welcoming them home,'' he said.
    The United Church of Christ, with national offices in Cleveland, 
has more than 1.4 million members in the United States and Puerto Rico 
and some 6,000 local churches. It was formed by the 1957 union of the 
Congregational Christian Churches and the Evangelical and Reformed 
Church.

    The Chairman. Thank you, Dr. Ikuta.
    The Honorable Cintron Garcia.

               STATEMENT OF HON. ANGEL M. CINTRON

    Mr. Cintron. Thank you, sir.
    Good morning, Mr. Chairman, Mr. Leahy, members of the 
Committee on the Judiciary of the U.S. Senate, ladies and 
gentlemen. I am Angel Cintron, Puerto Rico House Republican 
Majority Leader. First of all, I want to express my gratitude 
for allowing me to testify before this committee on such short 
notice.
    Today I come before you on behalf of the nearly 4 million 
U.S. citizens who reside in Puerto Rico in order to share with 
you our concerns and our viewpoints regarding the debate that 
has developed since President Clinton granted a conditional 
Presidential pardon to a group of prisoners who share one thing 
in common: membership in terrorist organizations that advocated 
independence for Puerto Rico.
    We are concerned that the debate that has developed on a 
national level these past few weeks has veered somewhat off 
track and shed some negative light upon Puerto Rican society as 
a whole. Therefore, we believe that it is absolutely necessary 
that we provide Congress and our fellow citizens in the 
mainland with an opportunity to better appreciate our 
commitment as a society to the democratic ideals and values 
embodied in our U.S. Constitution.
    Just as the illegal actions of individuals like Timothy 
McVeigh or by members of anti-government organizations or 
militia groups do not reflect the democratic viewpoints or 
approval of our fellow citizens in Oklahoma, Texas, Michigan, 
or any other State of the Union for that sake, neither do the 
tactics or the views of any terrorist organization mirror the 
democratic principles and practices of the people of Puerto 
Rico.
    To assume otherwise is to do great injustice to the law-
abiding U.S. citizens of our island. Puerto Rico is a society 
composed of some 4 million U.S. citizens who value their civil 
and democratic institutions and resolve their political 
problems through their vote. Historically, Puerto Ricans have 
shown a total and absolute repudiation of the use of violence 
to further political causes.
    On the contrary, Puerto Ricans profoundly respect our 
Government institutions and the rule of law. That is why one 
can see a steadfast participation of Puerto Ricans in the 
social, economic, and political development of our Nation.
    Many are the thousands of Puerto Ricans who have shed their 
blood on battlefields in every conflict since World War I, four 
of whom have been awarded the Congressional Medal of Honor for 
their heroic actions and for making the ultimate sacrifice in 
defense of democracy.
    Many are the Puerto Ricans who have held or currently hold 
prominent positions in the political and judicial arena, thus 
contributing to the development of our Nation, such as Judges 
Juan Torruella, Jose Cabranes, and Sonia Sotomayor, and former 
Surgeon General of the United States Antonia Coello de Novello, 
and former Governors Luis Munoz Marin and Luis Ferre, among 
many others.
    Therefore, it should come as no surprise that Puerto Rico 
has the highest index of voter participation in all the Nation, 
with an average of 85 percent in the general elections held 
every 4 years locally. In this regard, it surpasses and shines 
as an example of respect towards the electoral process for the 
rest of the Nation.
    It is also noteworthy to point out that for the past 40 
years, 97 percent of all voters in Puerto Rico favor the two 
parties that support permanent union and permanent citizenship 
with the United States, be it either through statehood or 
enhanced commonwealth as their preferred political status 
option. Nonetheless, the remaining 3 percent who support 
independence advocate their preferred political option through 
the ballot box and not in any way or fashion through violent 
means. Therefore, the political process in Puerto Rico plays 
out well within the spirit and boundaries of the First 
Amendment of the Constitution of the United States.
    It is also important to point out that our Constitution 
states that a fundamental value of our public life is our 
devotion to our democratic values, to our U.S. citizenship, and 
to peace.
    Two nights ago, the House of Representatives of Puerto Rico 
unanimously approved House Concurrent Resolution 80, which 
expresses a repudiation on behalf of all the nearly 4 million 
U.S. citizens who reside in Puerto Rico of any violent or 
terrorist act committed to further political or social causes.
    As I am here today, let me take this opportunity to express 
our deepest regret for the injuries suffered by Agents 
Pascarella and Newhall in the line of duty, as well as our 
thoughts and our prayers to those who lost their lives in the 
1975 blast at the Fraunces Tavern and their respective 
families.
    We abhor these kind of violent acts, just as we repudiate 
the killing of innocent individuals in the Oklahoma City 
bombing or the killing of ATF agents and many innocent victims 
in the Waco incident in 1993 or the hate crimes and church 
fires performed by Skinheads and members of organizations such 
as the Ku Klux Klan and others.
    Let me conclude by urging you to avoid misunderstanding 
support in our island for the conditional Presidential pardon 
with any kind of support--I repeat, any kind of support for 
violent acts or terrorist activities.
    I also want to stress that even though a majority of 
people, numerous religious and civic leaders, and former 
recipients of the Nobel Prize, support the granting of a 
conditional Presidential pardon, basically no one in our 
island--no one in our island--consider them as heroes but, 
rather, as people that may be deserving of an opportunity to 
rehabilitate themselves.
    Let me reiterate to you there is no place for violent or 
terrorist-sponsored acts in our society. That is why we should 
always do our share to prevent such acts from occurring ever 
again.
    On behalf of the Speaker of the House of Representatives in 
Puerto Rico and also the National Committeeman for the 
Republican Party, the Honorable Edison Misla, as well as on 
behalf of all my fellow members of the House, I want to thank 
you again for the opportunity you have given me this morning. 
Thank you very much.
    [The prepared statement of Mr. Cintron follows:]

              Prepared Statement of Hon. Angel M. Cintron

    Good morning Mr. Chairman: Mr. Leahy, Members of the Committee on 
the Judiciary of the United States Senate, ladies and gentlemen. First 
of all, I want to express my gratitude for allowing me to testify 
before this Committee on such short notice.
    Today, I come before you on behalf of the nearly 4 million U.S. 
citizens who reside in Puerto Rico in order to share with you our 
concerns and our viewpoints regarding the debate that has developed 
since President Clinton granted a conditional presidential pardon to a 
group of prisoners who share one thing in common: membership in 
terrorist organizations that advocated independence for Puerto Rico.
    We are concerned, that the debate that has developed on a national 
level these past few weeks, has veered somewhat off-track and shed some 
negative light upon Puerto Rican society as a whole. Therefore, we 
believe that it is absolutely necessary that we provide Congress and 
our fellow citizens in the mainland with an opportunity to better 
appreciate our commitment as a society to the democratic ideals and 
values embodied in our U.S. Constitution.
    Just as the illegal actions of individuals like Timothy McVeigh or 
by members of anti-government organizations or militia groups, do not 
reflect the democratic views or approval of our fellow citizens in 
Oklahoma, Texas, Michigan, or any other state of the Union for that 
sake, neither do the tactics or the views of any terrorist organization 
mirror the democratic principles and practices of the people of Puerto 
Rico.
    To assume otherwise, is to do great injustice to the law abiding 
U.S. citizens of our Island. Puerto Rico is a society composed of some 
four million U.S. citizens who value their civil and democratic 
institutions and resolve their political problems through their vote. 
Historically, Puerto Ricans have shown a total and absolute repudiation 
of the use of violence to further political causes.
    On the contrary, Puerto Ricans profoundly respect our government 
institutions and the rule of law. That is why one can see a steadfast 
participation of Puerto Ricans in the social, economic, and political 
development of our Nation.
    Many are the thousands of Puerto Ricans who have shed their blood 
on battlefields in every conflict since World War I, four of whom have 
been awarded the Congressional Medal of Honor for their heroic actions 
and for making the ultimate sacrifice in defense of democracy.
    Many are the Puerto Ricans who have held or currently hold 
prominent positions in the political and judicial arena, thus 
contributing to the development of our Nation, such as Judges Juan 
Torruella, Jose Cabranes and Sonia Sotomayor, former Surgeon General 
Antonia Coello de Novello, and former governors Luis Munoz Marin and 
Luis Ferre, among many others.
    Therefore, it should come as no surprise that Puerto Rico has the 
highest index of voter participation in all the Nation, with an average 
of 85 percent in the general elections held every four years. In this 
regard, it surpasses and shines as an example of respect towards the 
electoral process for the rest of the United States.
    It is also noteworthy to point out that for the past forty years, 
97 percent of all voters in Puerto Rico favor the two parties that 
support permanent union and permanent citizenship with the United 
States, be it either through statehood or enhanced commonwealth as 
their preferred political status option. Nonetheless, the remaining 3 
percent who support independence advocate their preferred political 
option through the ballot box and not in any way or fashion through 
violent means. Therefore, the political process in Puerto Rico plays 
out well within the spirit and boundaries of the First Amendment of the 
Constitution of the United States.
    It is also important to point out that our Constitution states that 
a fundamental value of our public life is our devotion to our 
democratic values, to our U.S. citizenship, and to peace.
    Two nights ago, the House of Representatives of Puerto Rico 
unanimously approved House Concurrent Resolution 80, which expresses a 
repudiation on behalf of all the nearly four million U.S. citizens who 
reside in Puerto Rico of any violent or terrorist act committed to 
further political or social causes.
    As I am here today, let me take this opportunity to express our 
deepest regret for the injuries suffered by agents Pascarella and 
Newhall in the line of duty, as well as our thoughts and our prayers to 
those who lost their lives in the 1975 blast at the Fraunces Tavern and 
their respective families.
    We abhor these kind of violent acts, just as we repudiate the 
killing of innocent individuals in the Oklahoma City bombing or the 
killing of ATF agents and many innocent victims in the Waco incident in 
1993 or the hate crimes and church fires performed by Skinheads and 
members of organizations such as the Ku Klux Klan.
    Let me conclude by urging you to avoid misunderstanding support in 
our Island for the conditional presidential pardon with any kind of 
support for violent acts or terrorist activities.
    I also want to stress that even though a majority of the people of 
Puerto Rico, numerous religious and civic leaders, and former 
recipients of the Nobel Prize, support the granting of a conditional 
presidential pardon, basically no one in our Island consider them as 
heroes but, rather as people that may be deserving of an opportunity to 
rehabilitate themselves.
    Let me reiterate to you there is no place for violent or terrorist 
sponsored acts in our society. That is why we should always do our 
share to prevent such acts from occurring ever again.
    On behalf of the Speaker of the House of Representatives and 
National Committeeman for the Republican Party of Puerto Rico, the 
Honorable Edison Misla, as well as on behalf of all my fellow 
representatives, I want to thank you again for the opportunity you have 
given me this morning. Thank you very much.

    The Chairman. Thank you, Mr. Cintron.
    We will put Senator Leahy's statement in the record 
immediately following my statement, and we will keep the record 
open for other statements until 5 o'clock today.
    Now, Mr. Pascarella and Mr. Newhall, you and other victims 
of the FALN will carry scars and pains with you the rest of 
your lives. Witnesses who came forward to help convict these 
terrorists now live in fear for their safety and their lives, 
especially now that these people have been set free. And by 
comparison, the people who supported and perpetrated the 
violence have their lives back and are free.
    Can you and the rest of the panelists, if you wish, comment 
on whether justice has been served in this case. We'll start 
with you, Mr. Pascarella.
    Mr. Pascarella. Well, I believe, Senator, that I was given 
a life sentence because of my injuries. If I live to be 150, 
which I am sure I will not, I will still be an amputee, 
difficulty seeing and hearing, just even now that I am a 
grandfather, playing with my grandchildren, it is very 
difficult.
    And it is tough to explain to a little child 2 years old, 
you know, when they see me, they look at my artificial leg, and 
they ask, you know, what happened to grandpa? It is a life that 
I will just have to live with, and it will be very difficult.
    The Chairman. Mr. Newhall.
    Mr. Newhall. My concern, and I have permanent injuries as 
well, and, again, I do not really want to go into how they 
affect me, even though they do every day. But my concern in all 
of this has been really more for those who were killed and the 
effects that this has had on their families, which the effects 
were considerably worse than I think on my family, for lots of 
different reasons.
    But at the time, I did not have children. The three people 
who were killed with me all had children. Actually, one of 
them, one of them's wife was pregnant with their first child. 
The way in which they have been haunted by this is far more 
lingering and devastating than what I have had to live with.
    And there were obviously many others who were injured in 
this and other bombings who have residual effects that affect 
them in other ways. But I am concerned more about the dead and 
what has happened with them and their families personally, and 
really the larger question of how these terrorist activities 
have been dealt with and how severely they were considered and 
are not just dismissed after a certain number of years have 
passed for lots of complicated reasons. And I know there are a 
lot of complicated reasons in this.
    So whether or not justice has been done, I think justice 
was probably done in their trials and convictions based on what 
I have read of court proceedings. The clemency proceeding or 
the clemency review remains a mystery to me, and I think to 
most people, which is why you are having this hearing today. I 
do not know that--I am certainly not opposed to the President 
making clemency grants when he thinks they are just. It is 
absolutely his right and power. And I am sure there are wise 
decisions that have been in the past and more that will be made 
in the future.
    But in certain cases, I think the deliberations are--they 
are important for people to know about, know exactly what was 
behind them so that people do understand that justice and good 
causes are being served and not politically expedient goals 
being sought.
    The Chairman. Thank you.
    Mr. Gallegos. Mr. Chairman.
    The Chairman. Yes, Mr. Gallegos.
    Mr. Gallegos. I really think that more an injustice has 
been done. Because the law, as I understand it, regarding 
victims is that victims of crime are--it is required of the 
Government to notify the victims of crime whenever such actions 
are going to be taken by our Government to release criminals 
back into the street.
    And it is my understanding, and I will ask Mr. Newhall, if, 
in fact, that was done in this case. My understanding from the 
other detectives was that they were never consulted, the 
Government never let them know that this action was going to 
take place, other than what was reported in the newspaper. And 
so I would assert that there was an injustice because our own 
Government did not follow the law in notification to victims. 
And I think that needs to be explored.
    The Chairman. Thank you.
    Anybody else? Dr. Ikuta.
    Rev. Ikuta. I hate to be redundant, but it does seem to me 
that there is a serious question, at least I have tried to 
raise it, as to whether these terrible things that have been 
described are actually people who were victims of any activity 
that was ever formally connected to anything that was done by 
the people released from prison. I cannot prove that they never 
did anything. I cannot prove that any of you or that I did any 
of these things. It is very difficult to prove innocence. In 
this country, we are supposed to prove guilt, and that has not 
been established in the case of these people that have been 
released from prison.
    The Chairman. Well, would you care to respond to that, Mr. 
Hahn?
    Mr. Hahn. Yes, if I can. I would reiterate also that 
several of the people captured at Evanston with Freddy Mendez, 
that Mr. Mendez identified them as participating in several of 
the violent acts, the takeover of Carter-Mondale headquarters, 
the assault on the national guard armory in Wisconsin, on 
planting of bombs on at least one occasion, and that the 
penetration of the FALN safe house in 1983 in Chicago 
demonstrated, again, that some of these people that are 
released from prison were building bomb components, were 
storing bomb components and live explosives, were planning 
armed escapes from prisons and were planning armed robberies.
    There is no question as to the identity of these people 
involved in those particular acts. It is videotaped, it is 
audiotaped, and it has been subject to testimony at trial.
    The Chairman. Care to add anything, Mr. Wofford? And then I 
would like to ask just one more question.
    Mr. Wofford. He spoke for me. That is fine.
    The Chairman. I think Mr. Newhall----
    Mr. Newhall. Yes. I just wanted to respond to the Reverend 
that I do not think anyone here is asserting that these people 
were directly responsible for the Fraunces Tavern bombing. Mr. 
Pascarella and I are here merely to recount some of the things 
that some of the people who are involved in these bombings went 
through.
    But it is very clear from their convictions and the remarks 
presented by Rick Hahn and Donald exactly what they were 
convicted of. And that is very straightforward and simple, and 
I think the statutes are pretty clear on that.
    I think it--I also have difficulty making, drawing a 
comparison between people like Guillermo Morales and Nelson 
Mandela, given what they were both charged with. I think that 
is not really a good parallel.
    The Chairman. Let me just ask each of you, and then I will 
turn to Senator Feinstein, were your views directly sought by 
the Government or did any of you have the opportunity to meet 
with DOJ officials or the President prior to this decision on 
August 11, I believe it was.
    Mr. Pascarella.
    Mr. Pascarella. Senator Hatch, I did not find out about it 
until I heard on--my brother-in-law called me up on the phone 
and said he heard it on the radio about this. And at first, it 
was the day it came out, I believe was August the 11, and at 
first I did not believe him. I did not think it would be 
possible. But before then, I was never contacted by anyone.
    The Chairman. Mr. Newhall.
    Mr. Newhall. No, I was contacted by no one. And I 
understand efforts made by Joe Connor, who is the son of Frank 
Connor, who was killed with me, was killed alongside me, made 
several attempts to speak with representatives of the White 
House and was not well received.
    The Chairman. Mr. Wofford.
    Mr. Wofford. No, I was never contacted. And if I could add 
real quick, all of the people that have been released, all had 
a trial, had a jury trial, a judge passed sentence. And to 
overturn all of that whole process, which is the bedrock of our 
justice system, just seems to be incredible.
    The Chairman. Mr. Hahn.
    Mr. Hahn. Yes, I was contacted by the U.S. Attorney's 
Office in Chicago.
    The Chairman. And what was the result of that conversation?
    Mr. Hahn. I am not at liberty to----
    The Chairman. Did they ask you for your opinion on this?
    Mr. Hahn. Yes, they solicited my comments on this, and it 
was 1994.
    The Chairman. That was back in 1994.
    Mr. Hahn. That is correct.
    The Chairman. But I am talking about immediately prior to 
this----
    Mr. Hahn. No. Since that time, I have not been contacted at 
all, sir.
    The Chairman. I see.
    Mr. Gallegos.
    Mr. Gallegos. Mr. Chairman, I wrote to the President 
directly on this, and my letter was hand-carried to the White 
House, and I have yet to receive a response to anything that I 
raise in my letter. And it was strange because all of the other 
letters, since I have been president almost 5 years now of the 
FOP, have always been responded to by the President. And I was, 
I have got to say I was very disappointed that no response, no 
phone call, no consultation, in fact, was even tried by the 
White House.
    The Chairman. I see.
    Dr. Ikuta, did you have any contact with anybody in the 
administration, the White House, the Justice Department or 
anybody else?
    Rev. Ikuta. The president of our church convened a couple 
of ecumenical meetings to share our views. I would like to add, 
parenthetically, that recently the African National Congress 
did submit a support statement for the release of these 
prisoners. I am not saying that they would necessarily draw an 
exact parallel between Nelson Mandela. I do not know if there 
are very many people in the world like him and Guillermo 
Morales, but the ANC did see fit to support this, as well as 
the U.N. Special Committee on Decolonization.
    Furthermore, just to clarify, it is my understanding that 
none of these prisoners were ever even charged with planting 
any explosives. Now, I could be mistaken about that. I was not 
that close to the legal aspects of this case, but I think that 
should be made clear.
    The Chairman. See, legally, I believe they were charged 
with conspiracy in the----
    Rev. Ikuta. Judicious conspiracy, that is correct.
    The Chairman. And that is just as important as having done 
the act.
    Mr. Cintron.
    Mr. Cintron. Well, it is my understanding, sir, that we 
never received any contact from Federal agencies in this 
matter. But I think it is important to point out that these 
people or these individuals were not residents of Puerto Rico. 
They were residents of Chicago, New Jersey and Connecticut. 
They were born and raised in mainland. They never lived in 
Puerto Rico for the last 30, 40, 50, 60 years, except for one--
I never remember his name--but except for one, the other ones 
never, as a fact, most of them never speak Spanish.
    The Chairman. Dr. Ikuta, did you personally ever get 
contacted by the Justice Department or the White House or 
anybody in the administration? You mentioned that the head of 
your church did convene an ecumenical council. But I am asking 
if you, personally, were contacted.
    Rev. Ikuta. Obviously, I have done a lot of the staff work 
in this situation. It is, generally speaking, the head of the 
communion that the officials prefer to converse with. So I did 
assist with the preparation of those, and I went along at some 
of the meetings. I was present.
    The Chairman. Was this at the White House?
    Rev. Ikuta. Yes.
    The Chairman. At Justice, too?
    Rev. Ikuta. There was another meeting with the deputy 
attorney general.
    The Chairman. When was that, do you know?
    Rev. Ikuta. If memory serves, we met with Mr. Quinn and----
    Senator Feinstein. I am sorry. Who did you meet with?
    Rev. Ikuta. If memory serves, we met once with Mr. Quinn, 
Jack Quinn, when he was the White House counsel. We also met 
with Mr. Ruff. We also met with,--and another--these were all 
different configurations. I am blurring a lot of things where--
with the deputy attorney general. It is my understanding that 
the Puerto Rican Congressmen were never allowed to actually 
meet with President on this issue. So there are different 
questions of access.
    The Chairman. Did you ever meet with the President himself?
    Rev. Ikuta. No. Of course, not.
    The Chairman. But you did meet with the Justice Department. 
How late did you meet with him?
    Rev. Ikuta. That was with Mr. Holder and Mr. Adams was also 
present.
    The Chairman. When did that occur, approximately?
    Rev. Ikuta. It would have been--please do not hold me to 
this--I would think about 1997. We have been at this for a very 
long time. People began working for the release of these folks 
from the day that they were arrested. The pardon petition was 
filed in 1993. I might add, parenthetically, that the idea, 
given the way these votes have gone, that the President would 
have done this out of some sort of political expediency I find 
not very credible.
    The Chairman. I see. Now, Roger Adams, who you mentioned, 
is the pardon attorney; is that correct?
    Rev. Ikuta. Right.
    The Chairman. OK. I think my time has long been gone.
    Senator Feinstein.
    Senator Feinstein. One of the things that disturbs me in 
all of this is the honing of the truth, I must say this, by 
those who have supported clemency, and honing it to the point, 
well, these people really are not guilty of much. I want to do 
a couple of things. I want to read from the indictments of 
Alejandrina Torres, Edwin Cortes, and Alberto Rodriguez.
    ``[O]ppose by force the authority of the Government of the 
United States by means of force, terror and violence, including 
the construction and planting of explosive and incendiary 
devices at banks, stores, office buildings and government 
buildings. * * * It was a further part of the said conspiracy 
that the conspirators would claim credit in the name of the 
FALN for certain * * * bombings through either telephone calls 
or typed communiques.''
    Now, let me translate this into what I understand these 
three did. They stockpiled dynamite, weapons, blasting caps and 
bulletproof vests. Together with Rodriguez, they planned to 
bomb U.S. military facilities in the Chicago area. They cased 
the facilities. They reviewed a communique to be published in 
conjunction with the planned bombings. They built bombs 
containing 21 pounds of dynamite. They also planned to use 
explosives to free FALN leader Oscar Lopez, who was also 
offered clemency, from prison, to rob a Chicago Transit 
Authority facility to fund FALN operations and to harbor 
another FALN leader who had escaped from prison.
    Now, this is the terrorist network, and this is what has to 
be understood. And when people, you know, cheer them on, they 
are saying, essentially, this is OK. This is not OK. And I have 
a very hard time because I think it is this kind of attitude, 
``Well, Nelson Mandela did this.'' Different time, different 
place, do not know all of the circumstances. Or the fighters 
for an Israeli state did this. Different time, different place, 
different circumstances. We are talking about a group that, in 
order to achieve something in another area, is willing to band 
together to plan how to destroy people in a totally different 
area, and all of a sudden they are some kind of hero for this. 
I have a very hard time understanding that.
    This is the indictment, and this is what it translates 
into. Now, how do you say that is not violence?
    Rev. Ikuta. For one thing, I do not mean to be technical 
here, but my understanding here is that indictment is different 
from a conviction.
    But in any case, different times----
    Senator Feinstein. They were convicted of these things.
    Rev. Ikuta. Different times--excuse me, then. Different 
times and different places I think is a very important thing. 
Twenty years have now elapsed. These folks have matured. They 
understand that the times have very much changed. We are not in 
the kind of social period of Timor. The turbulence that we were 
in those days, they, in 1997, long before it looked like 
clemency was even a real possibility, although many of us were 
laboring at it, signed a statement indicating their intention 
to integrate themselves into civic life and so forth.
    They have reiterated their commitment to nonviolence in the 
last few weeks, when it became clear that people had not been 
aware that they had made that commitment. And, again, I would 
say we, in the United Church of Christ, and many people in the 
campaign do not have a consensus that this was just fine. But 
we are saying that they have spent nearly 20 years in prison 
for possessing weapons, in some cases possessing explosives. 
But 20 years is a very long time to spend in prison, especially 
for people who were not found guilty of concrete acts of 
destruction.
    Senator Feinstein. Would anyone like to comment on that? 
Mr. Hahn.
    Mr. Hahn. Yes, I would.
    I would point out that these people were released without 
any sort of cooperation on their part to the Government or any 
contrition to the victims. The significance of that, of course, 
is the fact that, as the reverend here points out, these people 
have not been convicted or connected by the government, 
specifically with the bombings that injured these two victims 
here, the Fraunces Tavern bombing or the bombings of New Year's 
Eve, 1982.
    The question is has anyone asked them to cooperate? If not, 
why not? Could they have solved these bombs and specifically 
told us who put down those bombs? I am at a loss to understand 
why this Government, this President, did not seek that sort of 
cooperation from these people to benefit the people of the 
United States, to benefit these victims.
    Senator Feinstein. I think that is a very good point. Are 
there any other comments on this end?
    Mr. Pascarella.
    Mr. Pascarella. Well, I would just like to say that--did 
I--I am a little hard of hearing, did I understand correctly 
that some people from the group trying to gain clemency for 
these individuals, met with somebody from Justice or the White 
House?
    Senator Feinstein. Apparently so.
    Mr. Pascarella. Oh. Well, if that is the case, then I 
really think that that has to be the most outrageous thing I 
have ever heard in my life. Because as a victim, I was never 
contacted by anyone.
    Senator Feinstein. Thank you very much.
    The Chairman. I understand only two of them applied for 
parole, none of them applied for clemency.
    Rev. Ikuta. Actually, three applied for parole, sir.
    The Chairman. What?
    Rev. Ikuta. Three applied for parole.
    The Chairman. Three? My understanding was two.
    We will go to Senator Sessions now.

STATEMENT OF HON. JEFF SESSIONS, A U.S. SENATOR FROM THE STATE 
                           OF ALABAMA

    Senator Sessions. Thank you, Mr. Chairman.
    Justice in America is a very cornerstone of what we are 
about, and it troubles me to see so much muddled thinking, 
really, when we think about it. We have a Constitution, and 
these individuals, these officers, the police and FBI who risk 
their lives to penetrate this organization, I bet they file a 
brief this thick to justify their undercover operations to the 
Court before they could enter that building.
    We protect individual rights, whether you are a citizen or 
noncitizen, no matter what your belief is, no matter what 
language you speak. We all have certain constitutional rights 
here. But it is clear to me, Mr. Chairman, on this question of 
involvement, that we need to think carefully about it. When a 
person joins the U.S. Army, the U.S. Senate, the FBI, they are 
not responsible if there is some rogue Senator who commits a 
crime. They are not joining an organization committed to 
murder, crime and theft. This organization was committed to 
that. They took public credit for the bombing in New York City.
    The law is clear on this and real strong, as a matter of 
fact, with regard to a conspiracy. The Second Circuit, that is 
a circuit in New York, 1992, ``A defendant who joins a 
conspiracy incurs liability for the unlawful acts of the 
conspiracy committed before,'' even before, ``and after they 
became a member. If they knowingly joined the conspiracy and 
knew what it was about, they affirm that and join it morally 
and legally.''
    ``A conspiracy * * *'' another case ``* * * is like a 
train. When a party knowingly steps aboard, he is part of the 
crew and accepts the responsibility for the existing freight it 
is already carrying.''
    And there are other cases that say that. So, to me, this is 
just talk about nothing. There was a trial, a jury conviction, 
affirments on appeal and affirmed sentence by a judge at a time 
when I would suspect, and I will ask Mr. Hahn and the other 
agent, was there intense security about those trials when those 
cases were tried?
    Mr. Hahn. Absolutely.
    Senator Sessions. Were the prosecutors considered to be at 
risk for their life?
    Mr. Hahn. I am going to refrain from answering that because 
I want to stay within the public record.
    Senator Sessions. Were the judges provided special 
protections and security?
    Mr. Hahn. Yes, they were.
    Senator Sessions. What about the jury?
    Mr. Hahn. Yes, they were.
    Senator Sessions. This was a very intense life-and-death 
case, was it not?
    Mr. Hahn. It was very intense, yes.
    Senator Sessions. I have tried some intense cases, but I 
can imagine this one would be far beyond anything I have been 
involved in. And the jury did its duty, the judge imposed a 
sentence.
    And now we have 3,000 petitions for clemency in this 
country, and the President of the United States grants three 
until he comes along and grants these. It is beyond my 
comprehension, and it does raise questions about the integrity 
of the Justice Department. The Attorney General, in my view, 
should have told the President of the United States, ``I will 
not stay in this office if you grant this clemency.'' And how 
the pardon attorney, who recommends denial of 2,000-plus, 3,000 
petitions, I am sure every one of them more justifiable than 
these, could stand in that office and allow it to continue, 
when this one has been granted. It just undermines the whole 
basis of law, and it is a deplorable thing of which all but two 
members of this Senate agreed yesterday in a resolution. So, it 
is not a close question.
    Now, with regard to the church's concern, I think we ought 
to respect that. But the church has to respect the legal system 
of the country. And we have an obligation, and these FBI agents 
and police officers put their--as Mr. Gallegos mentioned--they 
put their lives on the line on a daily basis, and to have the 
President, in effect, I suggest, agree, at least in some 
respect, that this is a political act. They are not granting 
murders and bombers of other kinds clemency. It is only these 
who claim they are doing something political. So I say the 
President has undermined our effort against terrorism and hurt 
our country's efforts.
    Mr. Chairman, I have gone too far. You have done a good job 
in assuming this panel. And I would just like to add one more 
thing. The procedure by which the pardon attorney does his work 
is set forth in Executive Order of the President of the United 
States in 1893.
    They prepared a formal document, recommendations. Michael 
Kelly of The Washington Post has been writing about what is in 
it. Apparently, he knows what is in it. But this Senate is not 
able to get it. We are being stonewalled by this President. 
there is an Executive Order that sets forth an official 
procedure for the granting of the clemency.
    As U.S. attorney, I was often asked did I agree or not, as 
these FBI agents should have been in this case. And I think we 
need to insist that we obtain the public documents that are 
pertinent to this procedure. And if there is some reason some 
of it should be kept secret, that is one thing, but I cannot 
imagine that there is.
    The Chairman. I cannot either.
    Senator Sessions. And I appreciate your willingness to 
demand that, and I would support you totally in it.
    Thank you, Mr. Chairman.
    The Chairman. Thank you. I might say we do have a blow-up 
of the Fraunces Tavern communique--can you put that back up 
there--where the FALN took full credit for the bombings. Now, 
people ought to read that. This is not some little itty-bitty 
thing. They were convicted, and they were justly convicted.
    Let us turn to Senator Torricelli.

STATEMENT OF HON. ROBERT G. TORRICELLI, A U.S. SENATOR FROM THE 
                      STATE OF NEW JERSEY

    Senator Torricelli. Thank you, Mr. Chairman. First, I want 
to thank you for holding this hearing today.
    Mr. Chairman, two of the seven people who were murdered by 
the FALN lived in the State of New Jersey. As a member of the 
U.S. Congress, I feel some responsibility to the families of 
the victims, to those in law enforcement who risked their lives 
attempting to protect us from these terrorists, to offer an 
apology. This is a better Government and those of who serve in 
this Congress are better people than this outrageous action 
would indicate.
    There are no words sufficient to apologize to those who 
will live their lives with these wounds to explain this release 
from prison, other than simply to tell you that reaction 
against this clemency is deep, it is broad, it is bipartisan, 
it crosses all ideological divisions in this Congress. It 
should not have happened, and for the fact that it did happen, 
each of you have at least my apologies, which I intend to 
express to the people in New Jersey whose families were lost 
directly.
    I do not know of any political cause that has less merits 
than those of the FALN. This is not the African National 
Congress. It is not any legitimate effort at national 
liberation. The people of Puerto Rico are in voluntary 
political association with the United States. They have voted 
repeatedly and overwhelmingly to be in voluntary political 
association with the United States. The day, the hour, the 
moment the people of Puerto Rico decide they do not want 
political association with the United States, they will have 
their independence.
    From abject poverty, the people of Puerto Rico now enjoy 
the highest standard of living of anyone living in Latin 
America. They freely elect their own leaders. The economy of 
Puerto Rico is subsidized by hundreds of millions of dollars of 
transfers from the U.S. Government each year.
    I am very proud that the people of Puerto Rico are in 
association and enjoy the citizenship of the United States. I 
believe it is a rich culture, and they are wonderful people, 
and I am proud of the association. But for anyone to believe 
that there is any legitimacy in taking armed action against the 
United States because of this political association is 
outrageous.
    And frankly, Reverend, I do not say this lightly because I 
respect your position and your being a person of God, but it is 
not right, and it is not fair to invoke the name of Nelson 
Mandela in the same breath as the FALN. His fight against 
apartheid and the outrageous political relationship of the 
people of South Africa with their Government, has no bearing 
and no relationship with the free association of the people of 
Puerto Rico and the United States.
    I regret greatly the actions of President Clinton in this 
matter. I hope the committee will learn more about its 
motivation and the process so that it is never repeated. I 
also, Mr. Chairman, am greatly concerned, as someone who has 
been very involved because of the numbers of victims from my 
State who were lost in the Pan Am 103 bombing, about the 
credibility of the U.S. Government in fighting terrorism, in 
compelling other governments to bring to justice those who were 
involved in terrorism and the impact this may have on our 
foreign policy going forward.
    I am also very concerned, as one who admires the people of 
Puerto Rico, about the misimpressions that other Americans are 
going to have about Puerto Ricans. The people of Puerto Rico 
have been good and loyal Americans. They have not only fought 
in every war and defended this country, they have done so in 
disproportionate numbers compared with other Americans. They 
have a rich culture that respects the law and democracy and the 
processes of this Government.
    The people of the FALN are not heroes, they are cowards. 
They hid in the night, they planned bombings against innocent 
people for a cause that has no merits. Now, I hope every 
American recognizes that this is not typical of the people of 
Puerto Rico, it is not a part of their culture. This has no 
political basis among the people of Puerto Rico. And I just 
wish, in every way, the people of the United States could come 
to understand that about the lovely and extraordinary people 
who live on that island.
    Mr. Chairman, I have no questions to offer. But I did want 
to make that statement simply because I wanted the people here 
to understand how deeply all of us feel about this action and 
about the pain they have had to endure through the years.
    Mr. Chairman, thank you very much.
    The Chairman. Thank you.
    Senator Grassley.

STATEMENT OF HON. CHARLES E. GRASSLEY, A U.S. SENATOR FROM THE 
                         STATE OF IOWA

    Senator Grassley. I think we need to reflect on some of the 
outrageous points of view that have been expressed in support 
of the prisoners who have been released now.
    We have been asked to approach this issue with a spirit of 
reconciliation and forgiveness. I think it would have been very 
helpful to reconciliation and forgiveness if the Executive 
Branch had at least asked the victims what their view was on 
the issue. What we have kind of in the final analysis is a take 
it or leave it deal. And it does not seem to me that that sort 
of an approach by the President of the United States is going 
to lead us down the road of reconciliation on this issue.
    Some have said that the terrorists should be released 
because they have served a long time already in prison, longer 
than others in similar circumstances. But we have been told 
that the defenders, the prisoners' defenders, have been working 
for the release since the time of their arrest, before they 
served any time, in fact. So it seems to me the effort to get 
the terrorists out of jail is not based upon the length of time 
that they served, the length of time served seems like an 
excuse, rather than a reason.
    I would hope that those of you who have not been asked, as 
victims, by the President--you said you were not asked--I would 
hope that you would want to have been asked. Is that fair to 
say that you would have wanted to have been asked?
    Mr. Pascarella. It is very fair to say that, Senator.
    Senator Grassley. Do you think that it would be wise for 
Congress to enact a law requiring consultation with crime 
victims before granting clemency?
    Mr. Pascarella. Yes, sir.
    Mr. Newhall. Yes, I do.
    Senator Grassley. Mr. Chairman, in closing, I know you have 
worked hard as chairman to get the proper people here to 
testify. I know you have been turned down by Government 
agencies for requests for information and people to come here 
and testify. And I just think in your leadership position, 
because this is such an important issue, that you ought to 
consider holding up nominees for certain Department of Justice 
posts.
    I think that we need public testimony and not informal 
private briefings on this. I think, Mr. Chairman, that you 
cannot stand to be snubbed with private briefings, when you 
have asked for this information to be made public.
    The Chairman. You have got that right. I think I am going 
to ask the committee to issue subpoenas for this information. 
We have very reluctantly never done that. But this Justice 
Department just has not been doing the job, and they have not 
been cooperative with this committee. And I am hoping that it 
will be bipartisan, my colleagues on both sides will support 
this, because I am just sick of it. I am sick of being stiffed 
by the Justice Department. I am sick of them ignoring 
reasonable requests to understand these matters. And if they 
have not abided by the law, by gosh, they ought to admit it.
    And I am tired of getting the information from the media--
information they claim that they cannot give to us, yet 
suddenly shows up in the media. And so I am going to--I think 
we will have on the agenda tomorrow a request for an 
authorization for subpoenas so that we can start telling the 
Justice Department that this committee is a bipartisan 
committee that is not going to be stiffed any more. And 
frankly, we are just sick and tired of it. I am tired of it. I 
am tired of the way it is run down there. I am tired of the way 
that it is politicized.
    All I want to do is get the facts out so the American 
people can see them, and they can make their own judgments 
about this. And I will tell you, this testimony here today has 
been forceful, as far as I am concerned.
    We will go to Senator Abraham.
    Senator Abraham. Thank you, Mr. Chairman.
    Let me begin, Mr. Gallegos, we have learned today that 
Reverend Ikuta and others were part of the discussions. We have 
also learned that, I guess, that you attempted to have some 
impact on this and did not even receive a response.
    We have heard what the victims' response is to learning 
this information. Could you tell us what your response is to 
learning that not only were your views not sought, but that 
even your correspondence was not even responded to now that you 
have learned that others had these opportunities.
    Mr. Gallegos. Mr. Chairman, yesterday, there was testimony 
in another committee where the victims of this act, of the 
various acts, tried to correspond with the Department of 
Justice and the President for several years. This is not a new 
thing. In our attempt to address it, we tried the same thing, 
too, to try and address it with the President.
    My reaction is that, as I testified to, that it is a slap 
in the face to law enforcement and especially to the American 
people that we do not know all of the facts as to why this was 
done. But I would also like to say something else. Me, as a law 
enforcement officer, I am especially angered that we would 
follow through, we as a Government, would follow through on 
these clemency or these kinds of criminals. And as an Hispanic, 
I am embarrassed that these fellow Hispanics, Puerto Ricans--I 
am not Puerto Rican. Maybe I do not understand that--were given 
a hero's welcome in Puerto Rico. And the reverend speaks to 
that as if it is something glorious.
    And Mr. Cintron indicated that these people were not even 
born or never lived in Puerto Rico. Well, why were they 
repatriated to Puerto Rico? They should have been sent back to 
New York or Chicago if that is really where they were from. So 
that is what causes the anger from law enforcement. And we have 
worked hard in the last few years to try and address all of the 
problems of law enforcement, and we have worked with this 
President to do that. And that is why we take it as--it is like 
getting a punch to the stomach, and that is the way I feel, Mr. 
Abraham.
    Senator Abraham. Reverend Ikuta, you indicated that you 
were involved in a number of these meetings with White House 
and Justice Department officials that went into this decision. 
What did they tell you?
    Rev. Ikuta. Thank you very much for commenting. We hear 
your concerns.
    I think Washington officials get very good at really not 
saying very much about what they have in mind, you know. I 
mean, I think it is part of----
    Senator Abraham. If I can associate with that, please--
[Laughter.]
    Rev. Ikuta. It is part of the assignment. I would just, I 
know I am speaking----
    Senator Abraham. I am really trying to get, we are having a 
hard time trying to figure out exactly why the administration 
acted as it did, what their rationale was. You seem to be the 
only person here who had a conversation with them and meetings 
with them. And so I am hoping maybe you can shed some light on 
this because no one else seems to be able to. And those who 
were members of the administration are apparently not being 
allowed to. So I am wondering if you could.
    Rev. Ikuta. Well, I will do my best.
    Senator Abraham. Sure. Please.
    Rev. Ikuta. It is a little lonely up here, but I will do my 
best.
    I would like to just reiterate some of these things. Mr. 
Torricelli, in his comments when he was here, talked about how 
the reaction has been deep and broad and has crossed 
ideological lines.
    Senator Abraham. I am not asking you to critique the 
fairness of the Senators. I am asking you what the 
administration may have told you that helped shed light on 
their rationale.
    Rev. Ikuta. They really gave us very, very--all I can tell 
you is what we told them. We never told them, for example, 
whether or not they should--who--others' opinions that they 
should seek out. We only offered ours.
    Senator Abraham. Well, I know they did not sit there like 
potted plants, to use the old joke, so they must have been 
indicating some areas where they thought your case had merit. 
Which were those, can you tell us?
    Rev. Ikuta. I am really not trying to be evasive.
    Senator Abraham. I am not accusing you of that.
    Rev. Ikuta. All I can tell you is what we told them. 
Because they did not--they really were not--we tried to press 
them, actually, ``Well, what do you think?'' and the reaction 
was pretty much what I think I have to admit a responsible 
Government reaction would be of taking in information until--in 
the process of formulating decision.
    Again, I cannot speak to their own consultative process. I 
can only speak to what we went through to put forward our 
concerns. But we did talk about the deep, broad support for 
this, particularly in Puerto Rico, across ideological lines. I 
mean, the very same kind of language--and that is the only 
reason I was referencing that----
    Senator Abraham. Were they interested in that in terms of 
the political support?
    Rev. Ikuta. What we are trying to do is show that this is 
not something that is limited to a few people. Certainly, the 
people who began working for their release in 1980, and I was 
not among them, came from a very narrow ideological sector. As 
the time went on, as it became clear how excessively long or 
disproportionately long these sentences were, people who were 
not convicted of any--of these violent things, but were serving 
sentences 4 to 6 times longer than served by people who were 
convicted of murder. Let us say they were guilty for Fraunces 
Tavern or the other, and I might say I keep--the numbers keep 
going up. At first, I heard about five deaths caused by the 
FALN, and then six and then seven.
    Senator Abraham. Well, listen, you have answered my 
question, which was that you cannot answer----
    Rev. Ikuta. I cannot tell you how they responded because 
they really did not give a lot----
    Senator Abraham. All right. Thank you.
    Let me just--I am over. I just want to say, in summary, I 
had hoped maybe you could help us because we are trying to get 
this information. Clearly, you cannot provide it either and, 
therefore, Mr. Chairman, I certainly will be supportive of any 
efforts that you want to undertake to get more information.
    I would just say that I guess I just have to share the 
views of Senator Torricelli, and Senator Sessions and others 
here that I have a very, very--I get very frustrated hearing 
these apologies and explanations. I believe that every member 
of Congress should stand up on this issue and absolutely and 
strongly take a firm position against what I think is a misuse 
of the President's clemency powers, and I think we ought to 
find out exactly what the process was that reached this. 
Because you do not get 98 to 2 votes in the U.S. Senate that 
often.
    And when there is that overwhelming a sense of agreement in 
the U.S. Senate and almost a similar percentage in the House of 
Representatives, then I think it clearly reflects a consensus 
of the American people, and we have a responsibility, Mr. 
Chairman, to support your efforts to try to get to the bottom 
of this.
    Thank you very much.
    [The prepared statement of Senator Abraham follows:]

             Prepared Statement of Senator Spencer Abraham

    Mr. Chairman, let me first thank you for holding this hearing. The 
victims of terrorism and their families, the law enforcement community, 
and the people of the United States deserve an explanation of this 
indefensible action.
    By granting clemency to terrorists, President Clinton has, I 
believe, shown disrespect for those who put their lives on the line in 
the fight against terrorism, and for the people of Puerto Rico, who 
have overwhelmingly rejected both the evil methods and the goals of the 
FALN or, in English, the Armed Forces of National Liberation.
    Mr. Chairman, I think every member of Congress should stand up and 
take a firm position against this because it undermines our continuing 
war against terrorism and puts our freedom and our families at risk.
    Over the years, this administration has shown a great willingness 
to spend American funds and risk American lives in the fight against 
terrorism worldwide.
    By freeing these unrepentant terrorists, President Clinton has 
undermined any progress he might have made on this front. His action 
could re-legitimize the evil practice of targeting innocent civilians 
for political violence. It sends the signal to would-be terrorists 
that, even if they are caught, convicted and sentenced, they can escape 
full and just punishment for their crimes.
    It tells our citizens that they cannot depend on their government 
to fulfill its central, indispensable function of protecting them from 
acts of violence.
    Of all the thousands of people serving sentences in prisons around 
this country, these 12 would seem among the least deserving of 
clemency. Yet President Clinton has chosen to reduce their sentences, 
freeing most of them immediately.
    I must admit that I am somewhat at a loss to explain the 
President's decision in this matter. Indeed, Mr. Chairman, I wish that 
the administration had sent a representative to this hearing. I wish I 
had an opportunity to ask that representative a number of questions 
concerning the clemency decision.
    For example: Why did the President ignore the recommendations of 
his own Federal Bureau of Investigation, his Bureau of Prisons and his 
U.S. Attorney's Office, all of which opposed this clemency?
    Moreover, why didn't the President consult with the victims of 
these terrorists? Didn't he care what effects his decision would have 
on the families of the 6 people murdered by the FALN?
    Did the President not care about the suffering of the dozens of 
people maimed for life in the name of ``liberation?''
    These are tough questions, Mr. Chairman. But I can't help but 
believe that they should be asked.
    We cannot undo the President's deeply unfortunate act. But it is my 
hope that we may, through this hearing, throw light on this great 
travesty of justice, that we may prevent its like from happening again.
    We owe no less to the brave men and women in the front lines of the 
war against terrorism, and to the people of America, who have a right 
to be free from the kind of mindless violence perpetrated by groups 
like the FALN. Thank you.
                                 ______
                                 

                             Republican National Committee,
                                  San Juan, PR, September 13, 1999.

Open letter to the Republican Leadership in Congress.

    As Speaker of the House of Representatives and National 
Committeeman of the Republican Party of Puerto Rico, I want to express 
my outrage today at the politically self-serving fashion in which 
President Clinton handled the release of the Puerto Rican prisoners.
    The case of the prisoners has been under discussion for several 
years. President Clinton had been asked to resolve this issue, going 
back to 1993, yet he failed to make a timely decision and waited to do 
so when he thought it would help his wife in her race for the U.S. 
Senate seat of New York.
    Deserving of even more outrage and censure is the flip/flop 
position assumed by Hillary Clinton in taking advantage of the 
Executive Pardon to further her political aspirations. When the debate 
exploded, she quickly withdrew her support of the pardon, then tried to 
reverse herself a few days later. All of this was done in a callous 
effort to influence the Hispanic vote in New York.
    The actions of the first couple have again tarnished the Presidency 
and challenged our democratic system, weakened the cause of the 
prisoners and insulted the Hispanic voters in New York. This issue 
should have been carefully discussed with the Bureau of Prisons and 
other law enforcement agencies, rather than creating political leverage 
in order to help the cause of Hillary Clinton's Senate aspirations.
    The people of Puerto Rico are proud of their United States 
citizenship and of the ties that bind us as Americans. We abhor 
violence and ask not to be judged by the actions of a few. At the same 
time, we are offended and dismayed with this issue which has been taken 
out of context due to the incredible political gaffe committed at the 
presidential level. We ask the President to apologize to the Hispanic 
voters in New York and call on Congress for a full investigation into 
the decision making process by the President in this case. I stand 
ready to assist Congress and give testimony as may be required on this 
or any other important issue concerning Puerto Rico.
                                    Edison Misla-Aldarondo,
                             National Committeeman for Puerto Rico.
                                 ______
                                 

          Puerto Rico: America's Bulwark of Democracy 9/14/99

    The controversy surrounding the Presidential clemency to members of 
the terrorist organization FALN provides Congress and the American 
public an opportunity to better appreciate the 101 year commitment to 
democratic ideals embodied in the U.S. Constitution on the part of 
Puerto Rico's four million American citizens.
    Just as the illegal actions of individuals like Timothy McViegh and 
other anti-government organizations do not reflect the democratic views 
or approval of the American people, the tactics employed by the 
independence minded FALN do not mirror the democratic principles and 
practices of the people of Puerto Rico. To assume otherwise, is to do a 
great injustice to the 99.5 percent of the law abiding U.S. citizens of 
Puerto Rico. It also besmirches the honor of the thousands of brave 
Puerto Rican men and woman who have fought to defend this nation in 
every conflict since World War I.
    Puerto Rico has truly been the living ideal of democracy since its 
inclusion as a U.S. Territory in 1898. There is no other American 
jurisdiction as committed to democratic principles as Puerto Rico. 
Traditionally, 85 percent of registered Puerto Rican voters cast 
ballots in every election. This is two and one half times higher than 
stateside counterparts. Puerto Rico's Constitution closely follows the 
national model and is similar to most, every other State, granting 
universal suffrage and allowing for representation in its governing 
bodies even by parties that would otherwise not garner enough votes on 
their own. One at-large member represents the Independence Party in 
both of Puerto Rico's legislative chambers even though it regularly 
receives less than 3 percent of the votes cast island wide.
    Puerto Rico's democratic system allows for all views on the 
island's current and future status options; independence, statehood, 
and commonwealth, to be aired in democratic and legislative forums. 
Individuals and organizations acting outside these institutions on 
behalf of any of these options are not encouraged or legally 
countenanced.
    Equally telling is Puerto Rico's defense of American democracy. 
With one of the highest military enlistment rates, over 197,000 Puerto 
Rican men and women have defended American principles in every conflict 
abroad from World War I to Kosovo. Some 6,220 have been wounded and 
1,228 have been killed in the service of the United States. Four Puerto 
Rican soldiers have been awarded the Congressional Medal of Honor.
    Puerto Ricans are proud of their U.S. citizenship, and stand with 
all Americans in defense of our liberty and with respect for law and 
order. We condemn the actions of the FALN or anyone else who would 
resort to violence in a tenuous defense of their cause.
[GRAPHIC] [TIFF OMITTED] T8017.008

[GRAPHIC] [TIFF OMITTED] T8017.009

[GRAPHIC] [TIFF OMITTED] T8017.010

    The Chairman. Well, thank you, Senator.
    Yes, I have no desire to embarrass anybody. I just want to 
know what is going on down there in our jurisdiction. We have 
overview of that group. And by gosh it is time to get some 
cooperation.
    Senator Sessions. Mr. Chairman, may I make one point?
    The Chairman. Sure.
    Senator Sessions. On the sentencing guidelines, as the 
Senator asked, these cases were tried before the sentencing 
guidelines took effect. So it did not have the mandatory 
sentences at all, number one. But that means they are eligible 
for parole through an official legal parole proceeding if they 
ask for it, and apparently they have.
    The Chairman. No, they have not. According to the Parole 
Commission, two asked for parole. Now, Reverend Ikuta said----
    Rev. Ikuta. I could tell you their names.
    The Chairman [continuing]. She believes three. But we asked 
the Parole Commission, and they said two. Be that as it may, 
even if it is three, it is relatively few of them have asked 
for parole or clemency. None of them have asked for clemency, 
as far as I know.
    Senator Sessions. Well, I guess my point is, under the 
sentencing guidelines, there is no parole. So if you get 20 
years, you serve 20 years. If you got 20 years under the 
previous parole system, as these people were sentenced, they 
would normally serve one-third, unless it was a particularly 
heinous crime, as this one might be, and they may serve more 
than one-third. But they are eligible to be released in one-
third.
    So comparing the numbers, you have got to be careful. That 
is all I am saying. Which is a greater sentence? A 60-year 
sentence under the new law is--or under the old law is no more 
than a 20-year sentence under the no parole law, in most cases.
    The Chairman. Senator Kyl.

  STATEMENT OF HON. JON KYL, A U.S. SENATOR FROM THE STATE OF 
                            ARIZONA

    Senator Kyl. Thank you, Mr. Chairman, and thank you for 
holding this hearing. I associate myself with the comments that 
have been made by other members of the committee on both sides 
of the aisle.
    I think there are three questions posed by the President's 
action here. The first is what it says about our country's 
position with respect to terrorism. Now, both the President and 
we have had much to say about that. It is of a concern to me. I 
have been advised by people who are in Puerto Rico that it has 
had a tendency to reignite what was a movement in hibernation. 
The independence movement, of course, has always been active, 
but never been supported by more than a very small percentage 
of the people of Puerto Rico.
    Now, Senator Torricelli pointed out, at the very moment 
that the people of Puerto Rico should choose independence, that 
is precisely what they would have. But this is different. This 
is the FALN. This is the group that says the only way to 
achieve our goal is through terrorism against innocent people 
in the United States, and that makes absolutely no sense. And 
for this action to have reignited that movement seems to me to 
be the worst of the consequences of what was done here.
    Mr. Chairman, as you know, I chair the Subcommittee on 
Terrorism of this committee, and I will stand ready to conduct 
hearings, to conduct investigations or in any other way to 
cooperate with you and with the full committee as we continue 
to monitor the situation. Because, clearly, if that is what the 
effect of this has been, we are going to have to know about it 
and, clearly, our law enforcement people are going to have to 
be able to deal with it as well.
    In that regard, let me also second what I have heard from 
many people now in that this does not represent the views of 
the law enforcement of Puerto Rico at large. In that respect, 
Mr. Chairman, I would like to submit for the record three 
statements. One is anonymous, but the other two come from Dr. 
Miriam Ramirez, a candidate for office, a respected citizen of 
Puerto Rico and the United States, and I would like to submit 
those for the record at this time.
    The Chairman. Without objection, we will put them in the 
record.
    Senator Kyl. So that is the first question, what does this 
say about our response to our terrorism?
    The second is why were the unanimous recommendations of law 
enforcement ignored? And this pertains directly to our 
oversight of the Department of Justice, precisely what you, Mr. 
Chairman, and others have pointed out here. We will have to 
continue to deal with that. Because as Reverend Ikuta could 
have pointed out, her group, just one of many, has met with 
Messrs. Holder, Quinn, Ruff and others, where the victims have 
not had that opportunity. And obviously we will have to 
continue to pursue that.
    Finally, the third question is, why were the victims not 
notified? The 1990 Federal Victims' Rights statute pertains to 
this. It is unclear, in some respects, and it is inadequate 
because it does not provide fundamental rights, a point that 
Senator Feinstein and I have tried to make many times. There 
are some things that you just cannot do by statute. It requires 
a constitutional amendment.
    And I think this is a perfect example of where the Federal 
statute failed. Because the Department of Justice ignored it, 
it may have violated the letter, but it clearly violated the 
spirit of the law. And that is what happens far too often in 
our society. We have statutes that say you should notify 
victims. But even well-meaning people forget to do it, do not 
think about it, find it to be an inconvenience, find reasons 
not to do it, find the law does not clearly require them to do 
something, therefore, they are not going to take the effort to 
do it.
    All of those are reasons why statutes do not work. And this 
Federal statute failed in this case, notwithstanding a 
Department of Justice which professes, and I think there are 
good intentions involved here, to care about the rights of 
victims. Even there they failed. It did not happen.
    And it seems to me that that is a very good argument for 
why we need a Federal constitutional amendment to protect the 
rights of victims of crime. We are talking about violent crime. 
We are talking about family members of those deceased, like Mr. 
O'Connor, who I heard yesterday when I attended the Foreign 
Relations Committee hearing, other victims of the crime, the 
police officers, as well as the officers who are testifying 
here today.
    So it seems to me that these are the three questions. It 
clearly suggests the need for continuing jurisdiction by this 
committee, and it clearly suggests, also, the need for a 
Federal constitutional amendment to protect the rights of 
victims which include being informed of a potential release for 
clemency or pardon and having the opportunity to speak to the 
issue.
    I appreciate the testimony of all of you here at this time 
of the day. Thank you.
    [The prepared statements of Ms. Ramirez and an anonymous 
statement follow:]

         Prepared Statement of Dr. Miriam Ramirez de Ferrer \1\
---------------------------------------------------------------------------

    \1\ Miriam Ramirez is the President and founder of Puerto Ricans in 
Civic Action, a non-partisan civic organization promoting equal 
citizenship rights and full participation in the national economic and 
fiscal system for the 3.8 million U.S. citizens residing in Puerto 
Rico. Ramirez also has served as President of the Republican Women of 
Puerto Rico, a chapter of the National Federation of Republican Women. 
She was an elected Delegate to the Republican National Convention in 
1984, 1988 and 1992, and was selected by President Bush in 1990 to 
serve as a member of the U.S. delegation to observe presidential 
elections in El Salvador.
    Dr. Ramirez is a practicing physician in Puerto Rico. She received 
her medical degree from the University of Madrid in 1968, and her 
undergraduate degree from the University of Maryland.
---------------------------------------------------------------------------
    They declared war on United States and struck without mercy in 
Puerto Rico, New York, Connecticut, Illinois and anywhere else they 
could target innocent victims.
    Now President Clinton has decided that--instead of doing anything 
serious or significant to resolve the political status of Puerto Rico--
his legacy to 3.8 million law-abiding United States citizens of Puerto 
Rico is to set terrorists free to once again be a menace and a threat 
among us.
    On August 11, 1999, President Clinton gave the keys to the 
jailhouse door to 16 felons convicted of crimes linked to domestic 
terrorism committed in the name of independence for Puerto Rico. Now 
they are parading around from New York to Puerto Rico comparing 
themselves to Nelson Mandela. Is anyone in the press going to remind 
them that Mandela was fighting a regime of apartheid that outlawed 
majority rule, while the FALN committed murders in defiance of majority 
rule after a majority of Puerto Ricans repeatedly rejected 
independence?
    The presidential commutation offer followed years of lobbying by 
supporters of the prisoners and celebrities persuaded that the 
ideological motives of these criminals justify special political 
treatment not available to other convicts. Clinton's offer took the 
choice on whether these convicts constitute a threat out of the hands 
of federal pardon and parole authorities and gave the choice on their 
release to the convicts.
    Regrettably, Clinton's offer politicizes these criminal cases by 
offering special treatment, but the conditions for release do not 
promote a sense of justice and reconciliation for the victims or the 
3.9 million, law-abiding, loyal and patriotic United States citizens of 
Puerto Rico. Perhaps the ``third path'' of political compromise that 
Clinton likes to talk about works in some cases, but in this case 
Clinton's action is the moral equivalent to Solomon going ahead and 
cutting the baby in half. Mr. Clinton would have done better to simply 
allow the issue to be determined by the normal criminal justice process 
through which convicts are released when they are eligible and no 
longer a threat to society.
    Those who support an unconditional pardon for these convicts argue 
they have been incarcerated longer than others who committed comparable 
crimes. This ignores the fact that other inmates who were paroled or 
pardoned accepted responsibility and expressed remorse for their crimes 
years before the federal prison authorities released them. The inmates 
from Puerto Rico refused for decades to express remorse for their 
crimes, or even to renounce violence, and that is why they stayed in 
jail longer than they otherwise might have.
    The survivors of the dead and the disabled victims of their 
terrorist attacks--including four innocent people murdered in the 
bombing of Fraunces Tavern in New York City--are appalled at the use of 
pardon powers based on politics instead of rehabilitation and remorse. 
President Clinton's offer to commute the sentences of these terrorists 
on condition that they renounce violence ignores the real reason these 
terrorists have remained in jail so long, which is that they seek 
political vindication rather than forgiveness and reconciliation. The 
lack of remorse for victims alone should have precluded special 
treatment for these terrorists, and the conditions prescribed in the 
commutation offer do not even address that moral issue.
    History teaches that irresponsible leniency does not promote 
healing. Terrorists who ambushed members on the House floor in 1956, 
later pardoned by President Carter, to this day proudly stand by their 
conduct and refuse to repudiate their treachery on the grounds that the 
U.S. ``occupies'' Puerto Rico against the will of the people. Release 
of more unrepentant terrorists is likely only to further delay 
political reconciliation for Puerto Rico. Indeed, to politicize their 
status or give them special treatment could set a precedent that may 
encourage terror in Puerto Rico and elsewhere by other zealots with 
ideological motives.
    All federal prisoners should be treated fairly, and released when 
their debt to society has been paid. Accordingly, President Clinton 
should have responded to the clemency appeal for these prisoners by 
explaining the standards and conditions for release of federal 
prisoners when their sentences are complete or they are good candidates 
for a pardon. To offer to commute their sentences if they go through 
the motions of acting like good candidates for parole or pardon lends 
unfounded credence to the ridiculous claim that these people are 
``political prisoners''.
    President Clinton has recognized the reality that these people 
acted illegally, but he has not made a strong enough statement that 
armed action and violence is not morally justified or politically 
legitimate in this the nation that has done more than any nation in the 
history of the world to promote liberty, justice and self-
determination. The failure of the U.S. and Puerto Rico to resolve the 
question of that territory's political status in this century falls far 
short of the anti-colonial values for which this nation stands, but 
that does not justify terrorism by the small minority in Puerto Rico 
who do not want U.S. sovereignty, nationality and citizenship to 
continue.
    Indeed, beginning in 1953, when the current form of local self-
government was established under U.S. federal law, President Eisenhower 
and every president since has made it clear that independence for 
Puerto Rico is there for the asking. However, more than 95 percent of 
the voters consistently have expressed a desire for permanent political 
union and U.S. citizenship. This means that ending the current 
disenfranchisement of 3.8 million U.S. citizens in Puerto Rico and 
delivering on the promise of the American dream, rather than reacting 
to radicals espousing independence, is the first order of business if 
U.S. policy is to be consistent with the principles of self-
determination.
    At the same time, the U.S. is not under any obligation to coddle 
the U.S. citizens of Puerto Rico as the process of self-determination 
unfolds. It is absurd to argue that the U.S. should act as if we as a 
nation have no self-interest, and devote U.S. resources into supporting 
Puerto Rico's development without expecting Puerto Rico's U.S. citizens 
to embrace equal rights and duties of citizenship. Rather, U.S. policy 
has been based on the fair assumption that our fellow citizens in the 
commonwealth territory want to be part of this nation, will demand 
equality eventually when they get tired of being a territory and 
petition for statehood, and find ways to preserve their own cultural 
identity and language without being hostile to the diverse cultures and 
languages of the nation.
    The alternative to statehood is independence. The tough choices 
required to implement one of those options seem too harsh to some, so 
the notion of a permanent territory with special rights to make up for 
the lack of equality was introduced under the ``commonwealth'' label. 
That has delayed the day of reckoning, but will never solve the 
underlying problem that federal supremacy comes with U.S. nationality 
and citizenship. U.S. federalism simply can not operate on the basis of 
permanent disenfranchisement and second class citizenship for U.S. 
nationals, and the less than equal status of Puerto Rico will end only 
when the territory becomes a state of the union or a separate nation.
    So now every issue that arises in Puerto Rico ultimately relates to 
the status question. No important public policy issue--taxation, voting 
rights, federal and local sovereignty, trade policy, the territory's 
role in our national defense, citizenship rights--can be finally 
resolved until status is resolved. There is one set of solutions if 
Puerto Rico is a state, and there is another set of solutions if Puerto 
Rico is to be an independent nation. It is the difference between the 
Philippines and Alaska.
    Congress and the status quo faction in Puerto Rico may want to 
delay the choice a little longer, but ultimately it will have to be one 
way or the other. U.S. sovereignty in Puerto Rico is legal, but not 
legitimate until there is real self-determination on the question of 
statehood or independence.
    When the day of reckoning comes, it will be clear that the problem 
these 15 radicals in jail face is with their own people, not the United 
States. President Clinton should have just said as much, and referred 
all correspondence about these prisoners to the federal pardon.
                                 ______
                                 

              Press Release: Puerto Ricans In Civic Action
                  (September 13, 1999, Washington, DC)

    Dr. Miriam Ramirez de Ferrer today released the following statement 
on President Clinton's release of terrorists who seek by violence to 
impose their ideology as to Puerto Rico's political status on the 
people of the United States, including the 3.8 million U.S. citizens of 
Puerto Rico:

  <bullet> This controversy is about the President's policy on 
        terrorism. The President decided to listen to Jimmy Carter and 
        other celebrities who do not know the facts in these cases. Mr. 
        Clinton should have listened to law enforcement authorities and 
        the victims instead. Jimmy Carter was wrong in releasing some 
        of these terrorists in 1979, and he was wrong in supporting the 
        release of these prisoners in 1999. The President's duty in 
        using the clemency power is to do justice, and in this case he 
        has done an injustice to past and future victims of domestic 
        terrorism.
  <bullet> Until Congress establishes a mechanism to resolve the 
        political status of Puerto Rico and end the disenfranchisement 
        of 3.8 million U.S. citizens, there will be a small percentage 
        of individuals and radical groups in Puerto Rico and the U.S. 
        mainland who will support the warped view of history espoused 
        by these terrorists. No other large and populous territory in 
        U.S. history has ever been granted U.S. citizenship and then 
        denied the right of self-determination for a full century. 
        Until Congress defines the terms for a permanent status through 
        statehood or independence, a small percentage of Puerto Ricans 
        in the mainland and in Puerto Rico will seek to make Puerto 
        Rico a nation-within-a-nation, demanding the benefits of both 
        statehood and independence, through a pseudo nationalist 
        ideology that rejects the full duties and responsibilities of 
        either statehood or independence.
  <bullet> These terrorists were based in New York and Illinois, not in 
        Puerto Rico. They no more represent the people of Puerto Rico 
        than Timothy McVeigh or Charles Manson represent their home 
        states. These terrorists are as much a threat to the law-
        abiding U.S. citizens of Puerto Rico as to communities in the 
        mainland, and to be sure they are a continuing threat to 
        innocent people everywhere in the United States. Their release 
        will have a chilling effect on free and open political debate 
        in Puerto Rico, where it is well understood they renounced 
        violence to get out of jail. Their release will encourage more 
        violence to alienate Puerto Rico from the rest of the nation--
        against the clear will of the people in every status vote since 
        1952. President Clinton has taken sides with a radical elite in 
        Puerto Rico who mislead our young people.
  <bullet> The character, loyalty and patriotism of the U.S. citizens 
        of Puerto Rico can be judged by our valor in every war of this 
        century, by the ranks of those among us who have been awarded 
        the Congressional Medal of Honor, the Silver Star, and the 
        Purple Heart. The pilot shot down in President Reagan's raid on 
        Libya, the first Marine killed in Somalia, the brave soldier 
        who risked his life to save his comrades from the barracks 
        bombing in Saudi Arabia--these are the Puerto Ricans who, along 
        with average hard working citizens, represent our community in 
        the U.S. national family.
                               __________

         Anonymous Prepared Statement Submitted By Senator Kyl

federal prisoners from puerto rico should have been treated the same as 
             convicts from other states or territories \2\
---------------------------------------------------------------------------
    \2\ A version of this paper was issued before the commutation. 
Authors remain anonymous due to fear of reprisal.
---------------------------------------------------------------------------
    There are 3.8 million U.S. citizens in Puerto Rico--America's last 
large and populous unincorporated territory. U.S. nationality for 
Puerto Rico was established after the Spanish American War in 1898. In 
1917 the Congress offered U.S. citizenship to residents of Puerto Rico, 
and less than 400 chose to remain nationals but not citizens. The U.S. 
citizens of Puerto Rico are now an integral part of this nation, and 
Puerto Rico is on a path of political convergence with the United 
States as a whole.
    As Congress in recent years debated legislation to resolve the 
political status of Puerto Rico, an effort began to divert attention 
away from self-determination to the self-created predicament of a few 
domestic terrorists from Puerto Rico who are not at all representative 
of our fellow Americans in the territory. This culminated in a well-
orchestrated publicity and propaganda campaign promoting ``amnesty'' 
for a small group of convicted criminals in federal prisons who want 
Puerto Rico to be independent.
    Thus, on December 17, 1996, an advertisement appeared in the 
Washington Post sponsored by several members of the clergy in this 
country seeking ``amnesty'' for the 15 jailed convicts who claim to be 
soldiers in an undeclared war to forcibly separate Puerto Rico from the 
United States. As recently as December 14, 1998 a new letter-writing 
campaign began with appeals by clearly misinformed advocates of 
``clemency for political prisoners'' from Puerto Rico.
    Several celebrities and respected leaders have been solicited to 
support the appeal to simply release these duly convicted extremists as 
a political gesture. Scores of average citizens have been recruited for 
letter-writing duties to demand a pardon. Instead of leaving it to 
formal pardon procedures in the Department of Justice available for 
these convicts to seek relief from their sentences based on standards 
applied to all prisoners, President Clinton now has responded to the 
political campaign for release of these prisoners by commuting the 
sentences in these cases.
    Unfortunately, both the misguided amnesty appeal itself and the 
President's response send a signal that politically motivated crimes 
can and should be politicized. This paper evaluates the substance of 
appeals for special treatment in these cases, and evaluates the moral 
and legal premise of the on-going attempt to make terrorists out as 
martyrs. Even though President Clinton attempted to confirm that the 
prisoners were the perpetrators of crimes not justified by arguments 
about ``U.S. imperialism'', the terms of the commutation still 
constitute special treatment that should not have been extended in 
these cases.
    President Clinton should have taken the time to examine more 
closely the premises of the 1996 and 1998 political advertising for 
this so-called amnesty appeal. For it is based on an unpersuasive 
attempt to put the spin of ``idealism'' on actions in the past which 
crossed the line between legitimate protest and criminality. This so-
called ``amnesty'' appeal was first presented in 1996 for 16 former 
agents of the ``Armed Forces for National Liberation'' (FALN) and 
``Macheteros'' factions in Puerto Rico. The newspaper ads on behalf of 
the convicts attempted to sanitize their violent crimes as ``actions on 
behalf of the cause of independence.'' The appeal also details good 
deeds of these convicts in the jailhouse.
    Conspicuously omitted from this public appeal addressed to 
President Clinton are details reported in the San Juan Star coverage of 
the issue, such as FALN's 1975 bombing of Fraunces Tavern in New York 
City killing 4 people and injuring 44. Nor was there any mention of the 
``Macheteros'' role in the $7.1 million Wells Fargo robbery in 
Connecticut back in 1983, the apparent diversion of that stolen money 
to radicals based in Cuba, or the convictions of the 15 FALN and 
Macheteros members for sedition and terrorist conspiracy.
    What is particularly troubling is that the 1996 message to the 
President states that the sponsors of this campaign for release of 
federal prisoners ``* * * are not united * * * about the means employed 
by these fifteen women and men in their quest for an independent Puerto 
Rico * * *'' The first premise for any ethically credible pardon 
request in these cases would have to be that the inmates and their 
supporters are united in recognizing as unconscionable the actions for 
which they were duly convicted. In the absence of genuine contrition, 
this appeal has profoundly disturbing moral implications.
    Not only is there no convincing remorse among this group of 
conspirators, on January 21, 1997, an Associated Press wire story on 
the appeal reports that the prisoners refuse to cooperate with federal 
authorities in solving the Fraunces Tavern case and other crimes 
connected to over 130 FALN bombings. Those attacks killed six people 
(including a 6 year child who died when an FALN bomb went off in a 
restaurant in Puerto Rico), and wounded or maimed many others 
(including an NYPD officer who lost an eye and was disabled for life 
after FALN tipped off police on location of a bomb, which was detonated 
only after officers were on the scene).
    According to the 1997 AP story, the FAIN prisoners refused even 
that recently to renounce further violence against the United States. 
One of the imprisoned FALN leaders is quoted as saying, ``We cannot 
renounce the right to defend ourselves.'' That, along with lack of 
remorse for victims or cooperation with authorities in solving crimes 
they committed, should have precluded an invitation by the President 
for release based on an obviously insincere renunciation of violence.
    Indeed, reports that the prisoners were prepared to renounce 
violence and statements made by some of the prisoners which included 
equivocal and ambiguous repudiations of violence now appear to have 
been the bait offered to Clinton to intervene politically, and the U.S. 
President took the bait. Does anyone really believe that people who 
will only renounce violence when it is made a condition for release are 
sincere? The repudiation of violence should have come long before an 
offer of commutation, and it should have been convincing enough that 
parole and pardon authorities would have been able to support the 
commutation offer, which was not the case.
    The 1998 propaganda campaign that was apparently orchestrated with 
some on the White House staff repeats the same ethical mistakes of the 
1996 campaign by arguing that the convicts should be treated as 
political prisoners because they did not ``recognize the authority of 
the United States'' in Puerto Rico. The notion that it would promote 
``reconciliation'' to treat these prisoners and their victims by a 
different standard than that applied in the cases of other violent 
offenders because they had ideological motivation for their crimes is 
both naive and dangerous. Are these same organizations seeking the 
release of the Oklahoma City bombers and abortion-clinic terrorists as 
political prisoners?
    The following observations must be considered carefully in 
evaluating this ill-conceived amnesty appeal:

  <bullet> There is a legitimate independence party in Puerto Rico, 
        though independence historically has garnered only around 3-4 
        percent of the vote in plebiscites and polls. Supporters of 
        independence are free to pursue their aspirations with ballots, 
        but not with bullets. Those who commit violence in the name of 
        Puerto Rican independence are not only enemies of the U.S., but 
        also enemies of democratic self-determination for the people of 
        Puerto Rico, who are U.S. citizens.
  <bullet> In 1952 the voters of Puerto Rico approved the current 
        federal and local constitutional arrangements under the present 
        territorial relationship, but because the territorial 
        commonwealth status is not full self-government the U.S. 
        recognizes Puerto Rico's right to self-determination in favor 
        of a new self-governing status--including statehood or 
        independence if that is what the voters decide in a free and 
        informed vote. Thus, by comparing the political status process 
        in Puerto Rico to Northern Ireland or the Middle East, this 
        amnesty appeal distorted history and trivializes the real 
        struggle for liberty and peace in the modern era.
  <bullet> To call these convicts ``political prisoners'' makes a 
        mockery of the suffering of those all around the world who 
        truly are being punished for their political ideas in non-
        democratic societies. These 16 inmates are not in jail for 
        ``crimes of conscience,'' but for crimes that shock the 
        conscience.
  <bullet> In several elections and referenda the people of Puerto Rico 
        consistently have expressed the desire for continued union with 
        the United States. Indeed, in an inconclusive but important 
        political status vote in 1993, the combined majority of those 
        voting for status options based on continued union and U.S. 
        citizenship exceeded 95 percent of the voters. In another non-
        binding local plebiscite in 1998 the vote for options other 
        than independence exceeded 97 percent.
  <bullet> In addition, even Puerto Rico's separatists acknowledge that 
        U.S. leaders have offered to take the path to independence, but 
        that at critical moments in the history of Puerto Rico's 
        political status process the elected leadership in Puerto Rico 
        chose to seek an accommodation based on continued U.S. 
        sovereignty, nationality and citizenship. Thus, democracy is 
        working in Puerto Rico, underscoring the already self-evident 
        reality that the ideological and political explanations for 
        these crimes fall far short of legal, intellectual or 
        historical validity, much less moral justification.
  <bullet> Celebrities, religious figures, and persons associated with 
        great leaders martyred in the cause of liberty often are 
        recruited for propaganda campaigns they may not fully 
        understand. For prominent people who support the legitimate 
        struggle for freedom around the world to lend their good names 
        to this amnesty appeal is best compared to the case of a 
        television or sports star unknowingly endorsing products made 
        by exploited foreign workers. It teaches us that political 
        leaders, and even our cultural heroes, can be misled in a way 
        that places them unwittingly in opposition to the rational and 
        orderly administration of justice.
  <bullet> For example, the AP story on January 21 quotes one of the 
        earlier generation of Puerto Rican terrorists, who opened fire 
        on the assembled Members of Congress from the gallery of the 
        House chamber in 1954, as stating that he has ``nothing to 
        regret.'' President Carter pardoned that prisoner in the name 
        of compassion and reconciliation, even though the compassion 
        and reconciliation in these cases obviously does not involve 
        any moral reciprocity. Thus, President Carter's compassion in 
        that case appears to have been misdirected, but instead of 
        learning from Carter's mistake Clinton apparently has been 
        sandbagged by closet left-wingers on his staff into another 
        inappropriate political abuse of the power to pardon. It is a 
        sad day when White House staffers accept the premise of Jesse 
        Jackson and Jimmy Carter that these criminals who were free to 
        try to convince voters to support independence, but chose 
        bullets when ballots were available, needed to be rescued from 
        the United States the same way captives of Saddam Hussein or 
        Slobodon Milosovic have been freed through celebrity 
        humanitarian appeals. This commutation offer was concocted by 
        people in the Clinton White House who were clearly sympathetic 
        with the ludicrous notion that these people were being held in 
        violation of civilized standards of justice.
  <bullet> While the media campaign for this political propaganda 
        effort in 1996 and 1998 was timed to coincide with holidays 
        when we are in a spirit of reconciliation, as Pope John Paul 
        explained after meeting in prison with the man who shot him, 
        forgiveness does not diminish the need for justice. Instead of 
        equating forgiveness with amnesty, the Pope recognized the 
        redemptive power of justice in the form of punishment humanely 
        administered in the name of the people acting collectively 
        through the courts and criminal system to protect society and 
        recognize the rights and needs of the victims.
  <bullet> To describe violent crimes committed with malice and 
        reckless disregard for the lives of other human beings as 
        ``means employed'' in a ``quest for independence'' is as 
        callous toward the real victims as it is misleading. To argue 
        that equity requires sentences for violent life-threatening 
        crimes that could have but did not result in murder to be less 
        than the time done by some persons convicted of murder ignores 
        the stark reality that these were cold-blooded crimes committed 
        by people with intent to inflict random death and injury on 
        still more innocent people through a campaign of terrorism. In 
        addition, it should not be surprising that a person who 
        committed murder may be released before a person who conspired 
        to kill if the convicted murderer expresses remorse and vows 
        never to kill again but the conspirator refuses to renounce 
        terror in the future.
  <bullet> When it is proved that people have sedition on their minds 
        and murder in their hearts, society does not have to wait until 
        they strike and kill again before locking them up. That is what 
        conspiracy convictions are all about. If the conspirator is 
        unrepentant, then society has a right to protect itself by 
        keeping that person behind bars.
  <bullet> The appeal for compassion argued that 15 years served on 
        sentences of 35 to 90 years is too long and represents abuse of 
        federal power. Ironically, on December 18, 1996, the day the 
        San Juan Star published the first article about the ``amnesty'' 
        appeal, another article appeared about the 99 year prison 
        sentence imposed by a local court in Puerto Rico on an 18 year 
        old accomplice in a local murder case. Apparently the Puerto 
        Rico justice system also recognizes that conspiracy and 
        complicity in murder can warrant severe punishment even though 
        the accomplice was not caught or convicted for pulling the 
        trigger.
  <bullet> As with any violent criminal group, regardless of a 
        political agenda, if the U.S. or the people of Puerto Rico had 
        allowed criminal elements to seize power through violence, it 
        could have ushered in an era of intolerance and 
        totalitarianism. Instead of finally realizing the goal of full 
        democratic self-government and a successful end to territorial 
        status, in the political order these terrorists would have 
        created those who dissented or elected allegiance to the U.S. 
        might have joined the ranks of victims of ``revolutionary 
        justice.'' It might have come in the form of a death sentence 
        summarily executed in the dark of night, or by a terrorist bomb 
        attack. Thus, in the apprehension and prosecution of these 
        conspirators we truly saw God's mercy and grace sparing the 
        lives of the innocent people who surely would have become the 
        next victims of their ruthless plots.
  <bullet> It is common for those in prison to do good works, and the 
        good that prisoners do is worthy of recognition. No one is 
        against rehabilitation of criminals. If the corrections system 
        had determined that the 16 criminals in these cases should be 
        released on the same basis that any other criminals might be 
        released, no one will begrudge them their freedom after paying 
        their debt to society. However, it could be an invitation for 
        other criminals to target their neighbors or our nation for 
        crime, and then claim a political motive when caught, if we 
        accept the flawed premise of this so-called ``amnesty'' appeal 
        and the President's mistaken offer to commute.
  <bullet> Indeed, the cause of liberty, justice, peace and self-
        determination is demeaned by an appeal based on the offensive 
        notion that releasing these convicts somehow will advance that 
        cause. For liberty, justice, peace and self-determination were 
        the very values and beliefs in our civilization that these 
        criminals cast aside in order to impose their will on others. 
        They were willing to take freedom and life itself away from 
        their victims forever, and that must not be forgotten.
  <bullet> Overt and deadly terrorism and the crimes of conspiracy and 
        sedition for which these prisoners were convicted simply did 
        not need to take place in this most democratic of all nations 
        in the history of the world. Instead of working at the grass-
        roots level to promote popular support for their cause, these 
        criminals chose to emulate the right wing thugs and left-wing 
        gangsters who brought totalitarianism to so many countries in 
        this century.
  <bullet> In the name of justice we also must never forget the real 
        victims of FALN and ``Macheteros'' crimes which have not been 
        solved. There is no appeal from the death sentence already 
        executed by the FALN against the Fraunces Tavern bombing 
        victims. Indeed, there is no power on earth that can grant 
        amnesty to those innocent murder victims so they can return 
        home to their families. Not this year, not ever. The six-year-
        old child the FALN murdered in Mayaguez in 1975 (blaming their 
        ``mistake'' on the CIA) has missed every school event, family 
        gathering and birthday party for the last 25 years. The 
        sentence being served by that child's family is for life, with 
        no possibility of parole.
  <bullet> Against this backdrop, the attempt of some commentators to 
        suggest that the time had come to release the remaining 16 
        jailed convicts to give legitimacy to the self-determination 
        process is offensive. The illegitimacy of the terrorist 
        ideology, not need for a self-determination process, is what is 
        at issue here. There should have been no politically motivated 
        release, but pardon should have been considered only if in the 
        routine process of the Federal corrections system it was 
        determined by the same standards applied to all other prisoners 
        that these prisoners had paid their debt to society and are no 
        longer a threat.

    Now President Clinton tells us he was not really paying close 
attention when he signed the commutation offer. How can he be so good 
at the details and complicated moral and political equations when he is 
trying to define his way out of a scandal, but when he is releasing 
terrorists into our communities he portrays himself as detached and not 
really a hands-on sort of guy?
    Clearly, there is much more that must be contemplated as we search 
for the wisdom to show ethically purposeful compassion in these sorry 
affairs. A morally complete reckoning in this matter is more 
complicated than the apologists for these terrorists, or the foolish 
policy that led to their release, have been able to address.
[GRAPHIC] [TIFF OMITTED] T8017.011

[GRAPHIC] [TIFF OMITTED] T8017.012

[GRAPHIC] [TIFF OMITTED] T8017.013

[GRAPHIC] [TIFF OMITTED] T8017.014

[GRAPHIC] [TIFF OMITTED] T8017.015

[GRAPHIC] [TIFF OMITTED] T8017.016

    The Chairman. Well, thank you, Senator.
    Let me, just in closing, this deal with a terrorist episode 
would serve to undermine future law enforcement investigations 
and encourage future acts of domestic terrorism. To quote New 
York City Police Commissioner Howard Safir, ``President Clinton 
has committed an ill-advised and egregious error. He has broken 
the fundamental rule in addressing terrorism. Never negotiate 
deals with terrorists.''
    Now, 2 weeks have passed since I requested that the 
Department of Justice provide this committee with relevant 
documents. The call for review of some of these items has been 
bipartisan. Yet, the Department tells us that the White House 
is still studying this matter. In fairness, there may be a 
legitimate argument that executive privilege applies to some 
materials. But executive privilege has not been asserted, nor 
does the privilege apply, were it to be asserted, to every 
document or testimony associated with the FALN, nor is there 
any legitimate reason to refuse to allow the pardon attorney to 
testify today about how the clemency process works. That is all 
we ask.
    Let me assure the administration that this committee will 
perform its oversight responsibilities. Now, this clemency deal 
is yet another example of this administration sending the wrong 
message to criminals, be they foreign spies, gun offenders or, 
as in this case, terrorists. At the very least, I hope that 
through our efforts these last several days Congress can do its 
part to help to restore the principle and send the message that 
the United States does not make deals with terrorists.
    I want to thank our witnesses here today. The President's 
decision to offer clemency to terrorists has grave negative 
consequences. And I appreciate the witnesses' testimony here 
today and their efforts to help us to understand those 
principles.
    I think the testimony here today has refuted the 
administration's claim that these people were not involved in 
violent acts of terrorism. And to the extent any may still 
believe that these people were not the actual killers and that 
that is relevant to the question of clemency, it is only 
because of the vigilance by law enforcement community that we 
know what we know today.
    And I think the judge in the Illinois trial had it right 
when he said that the particular bombings at issue in that 
trial did not happen because of ``one of the finest examples of 
preventive law enforcement that has ever come to this Court's 
attention in the 20-some odd years he has been a judge. Good 
preventive law enforcement succeeded in keeping these 
defendants from doing what they were going to do. They were 
going to plant bombs in public buildings during a holiday.''
    Now, I, for one, am personally glad that law enforcement 
was successful in preventing more tragedies than that case, and 
I hope that the President's clemency offer does not undermine 
law enforcement's good work and the safety of our citizens.
    I think there are people that are really worried about 
what's happened here, especially those who testified, those who 
were jurors and others who I believe are very worried because 
of this type of an action.
    Now, I want to thank each of you witnesses for appearing 
here today. It is not easy for any of you to have appeared, I 
understand that. And it is awfully difficult to talk about 
these things, as we could see. But you have done our community, 
our country, a service, in my opinion, each and every one of 
you. And we are very much in your debt and in your gratitude.
    And you folks at the FBI, the FBI comes under a lot of 
criticism from time to time, but for those of us who work 
regularly with the FBI, we realize we would really be in 
trouble in this country if it was not for the efforts of the 
FBI against terrorists. It is one of the things I have to say 
the administration is holding its own on. But it has been 
primarily because the FBI and the police people in our society, 
the police forces in this society, that work in conjunction to 
try and prevent acts of terrorism in our country.
    But this is something that we are going to have to face in 
much more escalated terms over the coming years, and I do not 
want to see more victims like those who have died, like Mr. 
Pascarella, Mr. Newhall, their friends who were killed and 
injured in these matters, and I do not want to see that happen. 
So I want to thank you FBI folks for the good work that you 
have done in the past. You deserve your retirement. You have 
earned it. And our current FBI is doing an excellent job, in 
spite of some of the criticisms that come their way. And law 
enforcement, in general, is doing a very good job.
    And, Mr. Gallegos, I am very proud to work with you, as we 
always have and will continue to do so on this committee.
    Mr. Gallegos. Thank you, Mr. Chairman.
    The Chairman. With that, we will recess until further 
notice, thanking all of you for being here.
    [Whereupon, at 11:42 a.m., the committee was adjourned.]

 
                     THE JUSTICE DEPARTMENT'S ROLE 
                              AND THE FALN

                              ----------                              


                      WEDNESDAY, OCTOBER 20, 1999

                                       U.S. Senate,
                                Committee on the Judiciary,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:15 a.m., in 
room SD-226, Dirksen Senate Office Building, Hon. Orrin G. 
Hatch (chairman of the committee) presiding.
    Also present: Senators Thurmond, Grassley, Specter, Kyl, 
Ashcroft, Abraham, Sessions, and Leahy.

STATEMENT OF HON. ORRIN G. HATCH, A U.S. SENATOR FROM THE STATE 
                            OF UTAH

    The Chairman. Well, I apologize for not being here exactly 
on time, but I am in the middle of a number of conferences, and 
it takes a great deal of my time every morning just to keep up 
with everything.
    Over the past several weeks, this committee has examined 
hundreds of documents and other materials provided by the 
Department of Justice, the White House, and other law 
enforcement officials. We also have spoken with law enforcement 
persons knowledgeable about the FALN and Los Macheteros 
organizations and the cases involved in this controversy. Our 
investigation has led us to three troubling conclusions:
    First, the President's proffered reasons in support of the 
clemency do not survive scrutiny;
    Second, the Justice Department appears to have ignored its 
own rules for handling clemency matters and modified its 
original recommendation against clemency; and
    Third, the Justice Department itself has concluded that the 
release of these individuals may well increase the risk of 
domestic terrorism.
    The President's stated rationales for the clemency have 
been, first, that the prisoners were not directly charged with 
crimes that resulted in bodily injury; second, that they had 
received unduly harsh sentences that were more severe than 
those set forth by today's Sentencing Guidelines; and, third, 
that they have renounced violence. The evidence, in my view, 
tells a different story.
    Our review has uncovered documents which clearly 
demonstrate the violent nature of the charges against the 
individuals who received clemency. As the first chart here 
shows, paragraph 3 of the December 1980 Federal indictment out 
of Chicago, IL, reads as follows:
    ``It was further part of the said conspiracy that the 
conspirators would seek to achieve their goals and thereby 
oppose by force the authority of the United States by means of 
force, terror and violence, including the construction and 
planting of explosive and incendiary devices at banks, stores, 
office buildings and government buildings, including the 
following locations and dates * * *''
    Now, the list of bombings then goes on for more than two 
pages. The defendants were charged with completing these 
specific bombings as overt acts in their seditious conspiracy--
just like the World Trade Center bombers and those who 
conspired with them. There can be no dispute; these were 
violent crimes committed by violent people.
    The second unconvincing justification given for the 
clemency decision--cited by both the President and the 
Department of Justice--is the assertion that the prison 
sentences served by the FALN terrorists exceeded the sentences 
that the same people would receive if convicted of the same 
crimes today. Again, this is false. Under today's Sentencing 
Guidelines, the FALN prisoners would receive sentences equal 
to, if not greater than, the sentences they received for their 
crimes. The U.S. Sentencing Commission has provided us with an 
analysis of the relevant Guideline provisions. The Commission 
concludes that the defendants convicted of seditious conspiracy 
``would be in a guideline range of at least 360 months to 
life,'' a 30-year minimum sentence. This is the equivalent of a 
much longer pre-Guidelines sentence because parole has been 
eliminated under the Guidelines. Under the Guidelines, a 30-
year sentence means 30 years. None of the terrorists here 
served 30 years.
    Finally, the President also stated that a key factor was 
the fact that these individuals had renounced violence. Their 
own statements and notes produced from meetings with their 
representatives suggest otherwise. As the next chart shows, in 
a transcribed prison telephone conversation on September 7, 
1999--3 weeks after the offer of clemency--Adolfo Matos stated 
that ``I have nothing to be ashamed of, or feel that I have to 
ask for forgiveness. I don't have to ask for forgiveness 
because my conscience is at peace with itself.'' He also stated 
that his ``desire has gotten stronger, to the point where I 
want to continue. Continue to fight and get involved with my 
people.'' This is not remorse, yet he was set free.
    Given the Department's recognition of the threat these 
individuals pose to our national security, the committee set 
out to examine the process undertaken by the Department of 
Justice to consider the merits of these particular clemency 
petitions and examine whether the Department followed its own 
rules or bowed to pressure and softened its recommendation 
regarding clemency.
    Our investigation has uncovered evidence that longstanding 
policies and rules for the consideration of clemency were 
apparently ignored. The U.S. Attorney's Manual states that, 
``Commutation * * * is an extraordinary remedy that is rarely 
granted,'' and that ``Appropriate grounds for considering 
commutation have traditionally included disparity or undue 
severity of sentence, critical illness or old age, and 
meritorious service rendered to the government,'' such as 
``cooperation with investigative or prosecutive efforts * * *''
    There was no medical reason for any of the clemency offers. 
The sentences received by these defendants are consistent with 
the sentences they would have received under the Sentencing 
Guidelines. Finally, nothing produced by the Department to date 
gives any suggestion that any of the 16 offered clemency ever 
cooperated with law enforcement regarding open cases or the 
apprehension of fugitives.
    Moreover, despite the Department's rules requiring a formal 
petition for clemency, no personal petitions for clemency were 
filed in this matter prior to the clemency offer made by the 
President. This was not a mere oversight. The FALN prisoners 
refused to file such a petition because they do not recognize 
the authority of the United States. The Department may assert 
that this was not unusual or unprecedented, but as they stated 
in talking points they prepared and sent to the White House, it 
was ``very unusual.''
    Another unusual departure from the standard case is the 
Justice Department's submission of two reports to the 
President.
    The evidence shows that the Justice Department initially 
fulfilled its obligation--and complied with its internal 
regulations--when some 3 years ago the Department submitted to 
the White House a report recommending against clemency for the 
prisoners. As part of its production to the committee, the 
Department produced a letter that Pardon Attorney Margaret Love 
sent to White House Counsel Charles Ruff referencing a report 
sent December 16, 1996, ``recommending denial of clemency for 
17 Puerto Rican prisoners.'' The Department also produced 
documents indicating that the two U.S. attorneys offices 
involved in prosecuting the prisoners strongly supported the 
recommendation against clemency.
    The privilege log and other documents the Department 
produced to the committee indicate that the Department 
submitted another report in the summer of 1999. Public news 
reports indicate that this report, rather than offering the 
required recommendation in favor of or against clemency, ``made 
no specific recommendation.'' Instead, ``the report contained 
what law enforcement officials said was a more carefully worded 
analysis.''
    What happened between the first report in December 1996 and 
the second one in the summer of 1999 that justified a re-
examination and apparent change in the Department's 
recommendation?
    A vigorous lobbying and public relations campaign by 
various political and religious groups seems to have persuaded 
someone to have changed their mind. While victims were shut out 
of the process, those groups supporting clemency were granted 
access to some of the highest-level officials in both the White 
House and the Department on at least nine different occasions. 
Notes of some of those meetings suggest the Department provided 
advice to the supporters on how to create a record to justify 
clemency.
    More troubling than the one-sided public relations campaign 
by the friends of the FALN is the clear evidence that the 
Department knew better. The Justice Department knew that the 
U.S. attorneys who were consulted all recommended against 
clemency. The Department knew that there were open 
investigations involving the FALN and Los Macheteros and that 
none of the people being considered for clemency had provided 
any cooperation toward solving those cases. The Department knew 
that there were dangerous fugitives still at large who were 
associated with the clemency petitioners.
    For example, as this next poster shows, Victor Manuel 
Gerena was a co-defendant with Juan Segara Palmer and the 
others who received clemency in the Wells Fargo robbery in 
Connecticut. Gerena is still listed as one of the FBI's 10 Most 
Wanted. Yet, inexplicably, clemency--or a change in the 
Department's recommendation--was apparently never conditioned 
on Segara Palmer or the others providing truthful information 
about Gerena's whereabouts. Now, I find that personally very 
disturbing.
    While the friends of the FALN were lobbying for clemency 
with the Justice Department and the White House, the victims of 
the FALN were kept in the dark. Even worse, in 1998, Joseph 
Conner, whose father the FALN killed in the Fraunces Tavern 
bombing, was told by the Justice Department that, ``The Federal 
Bureau of Investigation remains committed in its investigative 
efforts to apprehend William Morales. It is our hope that by 
aggressively pursuing and prosecuting terrorists, we will deter 
others who might contemplate committing such crimes.'' Now, 
that is the FBI, and that is in 1998.
    Now, how can we tolerate the Justice Department's decision 
to deliver this message to FALN victims when at the same time 
members and leaders of the FALN and Los Macheteros are being 
actively considered for clemency without being required to 
provide any cooperation with respect to open investigations and 
fugitives like Morales?
    Finally, as recently as September 1999, the Attorney 
General herself identified the FALN and Los Macheteros as 
terrorist organizations posing an ongoing threat to our Nation. 
As you can see on the next chart, in the Attorney General's 
Five-Year Interagency Counterterrorism and Technology Crime 
Plan, the Justice Department concludes that, ``Factors which 
increase the present threat from these groups''--that is, the 
FALN and Los Macheteros--``include * * * the impending release 
from prison of members of these groups jailed for prior 
violence.'' The Clinton administration agrees--the President's 
offer of clemency increased the current terrorist threat to the 
American people by their own words.
    In closing, the New York Times noted in an editorial last 
month, ``President Clinton has not adequately explained how he 
concluded that the release posed no danger to the public.'' My 
hope is that our witnesses today can provide us with an answer 
to this and other important questions.
    In the end, my goal is to ensure that the Department of 
Justice is not party to a travesty of this sort in the future, 
and I hope today's witnesses will pledge their cooperation in 
developing reforms to accomplish this objective. And I have 
great hopes that that is going to be the case.
    [The prepared statement of Senator Hatch follows:]

              Prepared Statement of Senator Orrin G. Hatch

    In granting clemency to 16 convicted terrorists and members of the 
FALN and Los Macheteros, President Clinton set free individuals who had 
engaged in sedition and openly advocated war against the United States 
and its citizens. The FALN and Los Macheteros--including the clemency 
recipients--have actively waged such a war by, among other acts, 
planting over 130 bombs in public places including shopping malls and 
restaurants.
    Over the past several weeks, this Committee has examined hundreds 
of documents and other materials provided by the Department of Justice, 
the White House, and other law enforcement officials. We also have 
spoken with law enforcement persons knowledgeable about the FALN and 
Los Macheteros organizations and the cases involved in this 
controversy. Our investigation has led us to three troubling 
conclusions:

  <bullet> First, the President's proffered reasons in support of the 
        clemency do not survive scrutiny;
  <bullet> Second, the Justice Department appears to have ignored its 
        own rules for handling clemency matters and modified its 
        original recommendation against clemency; and
  <bullet> Third, the Justice Department itself has concluded that the 
        release of these individuals may well increase the risk of 
        domestic terrorism.
          a. the president's flawed justification for clemency
    The President's stated rationales for the clemency have been, 
first, that the prisoners were not directly charged with crimes that 
resulted in bodily injury; second, that they had received unduly harsh 
sentences that were more severe than those set forth by today's 
Sentencing Guidelines: and third, that they have renounced violence. 
The evidence tells a different story.
    Our review has uncovered documents which clearly demonstrate the 
violent nature of the charges against the individuals who received 
clemency. Paragraph three of the December 1980 indictment out of 
Chicago, Illinois reads as follows:

        It was further part of the said conspiracy that the 
        conspirators would seek to achieve their goals and thereby 
        oppose by force the authority of the United States by means of 
        force, terror and violence, including the construction and 
        planting of explosive and incendiary devices at banks, stores, 
        office buildings and government buildings, including the 
        following locations and dates:

    The list of bombings then goes on for more than 2 pages.\1\ The 
defendants were charged with completing these specific bombings as 
overt acts in their seditious conspiracy--just like the World Trade 
Center bombers and those who conspired with them. The Department knew 
that these bombings resulted in immense property damage and at least 
one fatality.\2\ There can be no dispute; these were violent crimes 
committed by violent people. It is no mere coincidence that the FALN's 
decade-long bombing campaign ceased immediately after these FALN 
members were locked behind bars.
---------------------------------------------------------------------------
    \1\ DoJ #002149-152.
    \2\ DoJ #10140144-45.
---------------------------------------------------------------------------
    The second unconvincing justification given for the clemency 
decision--cited by both the President and the Department of Justice--is 
the assertion that the prison sentences served by the FALN terrorists 
exceeded the sentences that the same people would receive if convicted 
of the same crimes today. This is false. Under today's sentencing 
guidelines, the FALN prisoners would receive sentences equal to, if not 
greater than, the sentences they received for their crimes. The United 
States Sentencing Commission has provided us with an analysis of the 
relevant Guideline provisions.\3\ The Commission concludes that the 
defendants convicted of seditious conspiracy would be in a guideline 
range of at least 360 months to life.\4\ This is the equivalent of a 
much longer pre-Guidelines sentence because parole has been eliminated 
under the Guidelines. Under the Guidelines, a 30-year sentence means 30 
years. None of the terrorists here served 30 years.
---------------------------------------------------------------------------
    \3\ Letter from Tom McGrath to Chairman Orrin G. Hatch, dated 
October 19, 1999, at 1.
    \4\ Id.
---------------------------------------------------------------------------
    Finally, the President also stated that a key factor was the fact 
that these individuals had renounced violence. Their own statements, 
and notes produced from meetings with their representatives, suggest 
otherwise. In a transcribed prison telephone conversation on September 
7, 1999--three weeks after the offer of clemency--Adolfo Matos stated 
that ``I have nothing to be ashamed of, or feel that I have to ask for 
forgiveness. I don't have to ask for forgiveness because my conscience 
is at peace with itself.'' \5\ He also stated that his ``desire has 
gotten stronger, to the point where I want to continue. Continue to 
fight and get involved with my people.'' \6\ The FALN, and the clemency 
recipients, far from renouncing their beliefs favoring violent attacks 
against the United States, have re-affirmed their pledge to achieve 
their political goals by any means.
---------------------------------------------------------------------------
    \5\ DoJ #10120001.
    \6\ Id.
---------------------------------------------------------------------------
       b. violations of department of justice clemency guidelines
    Given the Department's recognition of the threat these individuals 
pose to our national security, the Committee set out to examine the 
process undertaken by the Department of Justice to consider the merits 
of this particular clemency request and examine whether the Department 
followed its own rules or bowed to pressure and softened its 
recommendation regarding clemency.
    Our investigation has uncovered evidence that longstanding policies 
and rules for the consideration of clemency were apparently ignored. 
The United States Attorneys' Manual states that:

        Generally, commutation of sentence is an extraordinary remedy 
        that is rarely granted. Appropriate grounds for considering 
        commutation have traditionally included disparity or undue 
        severity of sentence, critical illness or old age, and 
        meritorious service rendered to the government by the 
        petitioner, e.g., cooperation with investigative or prosecutive 
        efforts that has not been adequately rewarded by other official 
        action. A combination of these and/or other equitable factors 
        may also provide a basis for recommending commutation in the 
        context of a particular case.\7\
---------------------------------------------------------------------------
    \7\ U.S.A.M. Sec. 1-2.113.

    For starters, I am not aware of any information that suggests there 
was a medical reason for any of the clemency offers, so that factor 
does not apply. Second, as will be demonstrated, the sentences received 
by these defendants are consistent with the sentences they would have 
received under the Sentencing Guidelines. Moreover, they are consistent 
with the sentences of other people who have been convicted of seditious 
conspiracy. Finally, nothing produced by the Department to date gives 
any suggestion that any of the 16 offered clemency ever cooperated with 
law enforcement regarding open cases or the apprehension of fugitives.
    The Department's rules also require that an individual seeking 
clemency submit a petition to the Pardon Attorney.\8\ Here, however, 
the Department began entertaining the possibility of clemency for the 
FALN prisoners even though no personal petitions for clemency had been 
filed. Indeed, none of the prisoners ever submitted a clemency petition 
prior to being offered clemency by the President. And as the Department 
recognized, the absence of a petition was not a mere oversight: the 
FALN prisoners refused to file such a petition because they do not 
recognize the authority of the United States. Yet, despite the absence 
of those petitions, the Department went forward with the clemency 
process. The Department may assert that this was not unusual or 
unprecedented, but as they stated in talking points they sent to the 
White House, it was ``very unusual.'' \9\
---------------------------------------------------------------------------
    \8\ 28 C.F.R. Sec. 1.1.
    \9\ DoJ #1040102-05.
---------------------------------------------------------------------------
    Another unusual departure from the standard case is the Justice 
Department's submission of two reports to the President--one that 
recommended against granting clemency, and a subsequent report that 
apparently withdrew that recommendation and reportedly took no position 
for or against clemency. Justice Department rules require that in every 
clemency case the Department ``shall report in writing [its] 
recommendation to the President, stating whether in [its] judgment the 
President should grant or deny the petition.'' \10\ The rules do not 
contemplate the reopening of a completed review--and certainly do not 
contemplate a report that does not contain an up or down recommendation 
on clemency.
---------------------------------------------------------------------------
    \10\ 28 C.F.R. Sec. 1.6; see also United States Attorneys' Manual 
(``U.S.A.M'') Sec. 1-2.110.
---------------------------------------------------------------------------
    The evidence shows that the Justice Department initially fulfilled 
its obligation--and complied with its internal regulations--when, some 
three years ago, the Department submitted to the White House a report 
recommending against clemency for the prisoners. As part of its 
production to the Committee the Department produced a letter that 
Pardon Attorney Margaret Love sent White House Counsel Charles Ruff 
referencing a report sent December 16, 1996 ``recommending denial of 
clemency for 17 Puerto Rican prisoners.'' \11\ The Department also 
produced documents indicating that the two U.S. Attorneys' offices 
involved in prosecuting the prisoners strongly supported the 
recommendation against clemency.\12\
---------------------------------------------------------------------------
    \11\ DoJ #1041964.
    \12\ DoJ #10140137-41.
---------------------------------------------------------------------------
    The privilege log and other documents the Department produced to 
the Committee indicate that the Department submitted another report in 
the summer of 1999.\13\ Public reports in the New York Times indicate 
that this report, rather than offering the required recommendation in 
favor of or against clemency, ``made no specific recommendation.'' \14\ 
Instead, ``the report contained what law enforcement officials said was 
a more carefully worded analysis.'' \15\ According to the Times, the 
report set out various options for the President without making a 
recommendation.
---------------------------------------------------------------------------
    \13\ DoJ #1041926.
    \14\ David Johnston, Clinton Went Against Advice on Clemency, 7he 
President Agreed to Free 16 Puerto Rican Nationalists Even Though Top 
Law Enforcers Were Against It, New York Times, August 27, 1999 at A1.
    \15\ Id.
---------------------------------------------------------------------------
    What happened between the first report in December 1996 and the 
second one in the summer of 1999 that justified a reexamination and 
apparent change or softening of the Department's recommendation?
    Neither the acts for which the prisoners were convicted, nor the 
sentences imposed, changed between the December 1996 report and the new 
report issued by the Department last summer, so neither explains why 
the Department would issue a second report.
    It disturbs me greatly to report that, although nothing new 
developed in the cases of the FALN members during that time, a vigorous 
lobbying and public relations campaign by various political and 
religious groups seems to have persuaded someone to change their mind. 
While victims were shut out of the process, those groups supporting 
clemency were granted access to some of the highest-level officials in 
both the White House and the Department on at least 9 occasions. Notes 
of some of those meetings suggest the Department provided advice to the 
supporters on how to create a record to justify clemency.\16\
---------------------------------------------------------------------------
    \16\ DoJ #1041847-53.
---------------------------------------------------------------------------
    More troubling than the one-sided public relations campaign by the 
friends of the FALN is the clear evidence that the Department knew 
better. The Justice Department knew that the U.S. Attorneys who were 
consulted all recommended against clemency. The Department knew that 
there were open investigations involving the FALN and Los Macheteros, 
and that none of the people being considered for clemency had provided 
any cooperation toward solving those cases. The Department knew that 
there were dangerous fugitives still at large who were associated with 
the clemency petitioners. William Morales, one of the leaders of the 
FALN is reportedly hiding out in Cuba. Victor Manuel Gerena, was a co-
defendant with Juan Segara Palmer and the others charged with the Wells 
Fargo robbery in Connecticut. Gerena is still listed as one of the 
FBI's 10 Most Wanted. Yet, inexplicably, clemency--or a change in the 
Department's recommendation--was apparently never conditioned on Segara 
Palmer or the others providing truthful information about Gerena's 
whereabouts. I find that profoundly disturbing.
    While the friends of the FALN were lobbying for clemency with the 
Justice Department and the White House, the victims of the FALN were 
kept in the dark. The Department allowed the many victims of the FALN 
bombs to learn of their attackers' release just like the rest of us 
did: by seeing it on the evening news. Even worse, Joseph Conner, whose 
father the FALN killed in the Fraunces Tavern bombing, was told by the 
Justice Department that: ``the Federal Bureau of Investigation remains 
committed in its investigative efforts to apprehend William Morales. It 
is our hope that by aggressively pursuing and prosecuting terrorists, 
we will deter others who might contemplate committing such crimes.'' 
\17\
---------------------------------------------------------------------------
    \17\ Letter dated January 6, 1998 to Mr. Joseph F. Conner, from 
Ronnie L. Edelman, Department of Justice, Principal Deputy Chief of the 
Terrorism and Violent Crimes Section.
---------------------------------------------------------------------------
    How can we tolerate the Justice Department's decision to deliver 
this message to FALN victims when, at the same time, members and 
leaders of the FALN and Los Macheteros are being considered for 
clemency without being required to provide any cooperation with respect 
to open investigations and fugitives like Morales?
          c. the effect of the clemency on terrorist activity
    Finally, we must ask, what message does the clemency send to 
terrorists about how seriously we take our ``policy of vigorously 
investigating and prosecuting those acts of terrorism when we release 
those whom we prosecute?
    The impact this will have on terrorism is disturbing. As the draft 
letter from Director Freeh to Chairman Henry Hyde indicates, the FBI 
advised the Justice Department that ``the release of these individuals 
would psychologically and operationally enhance'' the ongoing violent 
and criminal activities of Puerto Rican terrorist groups. The FBI also 
pointed out that any such pardon of the ``currently incarcerated 
terrorists would likely return committed, experienced, sophisticated 
and hardened terrorists to the clandestine movement.'' \18\
---------------------------------------------------------------------------
    \18\ Draft letter from FBI Director Louis Freeh to Representative 
Henry J. Hyde.
---------------------------------------------------------------------------
    Finally, as recently as September 1999, the Attorney General 
herself identified the FALN and Los Macheteros as terrorist 
organizations posing an ongoing threat to our nation. In the Attorney 
General's Five-Year Interagency Counterterrorism and Technology Crime 
Plan, the Justice Department concludes that ``Factors which increase 
the present threat from these groups [the FALN and Los Macheteros] 
include renewed activity by a small minority advocating Puerto Rican 
statehood, the 100-year anniversary of the U.S. presence in Puerto 
Rico, and the impending release from prison of members of these groups 
jailed for prior violence.'' \19\ The Clinton Administration agrees--
the President's offer of clemency increased the current terrorist 
threat to the American people.
---------------------------------------------------------------------------
    \19\ Five-Year Interagency Counterterrorism and Technology Crime 
Plan, September 1999, at 11 (emphasis added).
---------------------------------------------------------------------------
    In closing, the New York Times noted in a editorial last month, 
``President Clinton has not adequately explained how he concluded that 
the release posed no danger to the public.'' [N.Y. Times, Sept. 23, 
1999] My hope is that our witnesses can provide us with an answer to 
this and other important questions.
    In the end, my goal is to ensure that the Department of Justice is 
not party to a travesty of this sort in the future. I hope today's 
witnesses will pledge their cooperation in developing reforms to 
accomplish this objective.

    The Chairman. We will wait for the ranking member to come, 
and while we are waiting, we will now turn to these important 
issues before the committee today. I would like to thank all 
panelists for coming here today and would introduce them to the 
committee.
    Our first witness is the Deputy Attorney General, the 
Honorable Eric Holder. As part of his duties as Deputy Attorney 
General, he supervises the work of the Office of Pardon 
Attorney.
    Our second witness is the Pardon Attorney, Mr. Roger Adams. 
Welcome, Mr. Adams. Mr. Adams heads the Office of Pardon 
Attorney which processes and investigates applications for 
clemency.
    So we will turn to you first, Mr. Holder, and then we will 
have some questions for you.

PANEL CONSISTING OF HON. ERIC HOLDER, DEPUTY ATTORNEY GENERAL, 
 U.S. DEPARTMENT OF JUSTICE, WASHINGTON, DC; AND ROGER ADAMS, 
  PARDON ATTORNEY, U.S. DEPARTMENT OF JUSTICE, WASHINGTON, DC

                 STATEMENT OF HON. ERIC HOLDER

    Mr. Holder. Thank you, Mr. Chairman.
    Mr. Chairman, Senator Sessions, I welcome the opportunity 
to appear before you today. With me, as was indicated, is Roger 
Adams, who is the Pardon Attorney. We will do our best to 
address the questions that you have relating to the conditional 
offers of clemency that the President recently granted to 16 
Puerto Rican nationalists.
    I wish to begin my remarks, however, by extending my 
heartfelt sympathy to those victims and their families whose 
lives were tragically affected by the criminal conduct of the 
FALN. It is difficult to fully comprehend the extent of the 
pain and suffering these victims were forced to endure. I have 
spent my career as a prosecutor and as a judge. And as U.S. 
attorney, I met frequently with victims of violence, and as 
Deputy Attorney General, I have done my best to ensure that 
crime victims are treated properly and respectfully throughout 
the criminal justice system. And one of the most important 
points that I have learned from my 23-year career is that every 
tragic story of victimization is unique and unforgettable. And 
so I want the victims of FALN violence to know that our 
thoughts and prayers remain with them now and in the future.
    As the committee is aware, the President has asserted 
executive privilege in regard to his grant of conditional 
clemency to the nationalists. We at the Justice Department have 
reviewed this assertion of privilege, and we have concluded 
that there is a firm legal basis and a historical precedent for 
such an act. As a consequence, we are not able to discuss with 
you advice and other deliberative communications to the 
President regarding his clemency decision, and we are not able 
to provide you with copies of deliberative documents and 
written communications generated within and between the 
Department of Justice and the White House in connection with 
the preparation of that advice. Moreover, because the 
underlying facts of the FALN case are inextricably interwoven 
into the analysis of the clemency request, I generally will not 
be able to comment on the facts of this matter. I want you to 
know that we at the Justice Department are being and will 
continue to be as responsive to your requests and inquiries as 
is possible, consistent with the constitutional constraints 
that have been placed upon us.
    Within 24 hours of this committee passing its resolution 
regarding the conditional clemency, I sent a memorandum to all 
47 Department components and divisions and to all 93 U.S. 
attorneys throughout this country directing them to immediately 
engage in a thorough review of their files for responsive 
records. As a result of that massive search, we have delivered 
to you more than 22,000 pages of documents pertaining to this 
matter. The documents include records from the U.S. Parole 
Commission, the Bureau of Prisons, the Office of the Pardon 
Attorney, the Criminal Division, the Civil Division, and the 
Justice Management Division. Further, we are in the process of 
duplicating approximately 1,200 hours of tape-recorded 
telephone conversations obtained from the Bureau of Prisons. 
Our search for documents is continuing, and we will produce 
additional responsive material as it is located and processed.
    Additionally, the Department has provided to the committee 
a privilege log identifying those documents which are subject 
to the President's assertion of executive privilege. From the 
log you can see that in 1996, in accordance with Department of 
Justice regulations, the Department submitted a written report 
and a recommendation to the White House regarding whether the 
President should grant or deny the petition for clemency, and 
that there were subsequent communications between the 
Department and the White House on the subject of clemency for 
the Puerto Rican nationalists as recently as 2 months ago. 
However, because of the President's assertion of privilege, I 
am not at liberty to disclose the contents or the substance of 
the report, recommendations, or communications. Nevertheless, 
consistent with these constitutional constraints, we at the 
Justice Department will continue to make every effort to 
provide this committee with as many responsive documents and as 
much relevant information as we can.
    That being said, I believe that it is incumbent upon all of 
us to ensure that congressional inquiries do not have a 
chilling effect upon the pardon process. If key participants in 
the formulation of the Department's pardon advice to the 
President were to know that their views could be subject to the 
intense public scrutiny of a congressional investigation, there 
is a very significant risk that these people would hesitate to 
share their candid, objective, and perhaps unpopular opinions 
in certain cases.
    Now, this is just not a theoretical concern. In the past, 
individuals have asked for strict assurances that their views 
would remain confidential before they offered their thoughts on 
pardon requests by politically powerful figures. I would only 
ask that we all be mindful of this concern as we begin this 
hearing today.
    I would now like to have, with the chairman's permission, 
the Pardon Attorney, Roger Adams, describe for you the 
Department's procedures with respect to the handling of 
clemency petitions.
    [The prepared statement of Mr. Holder follows:]

       Prepared Statement of Deputy Attorney General Eric Holder

    Mr. Chairman and distinguished Members of the Judiciary Committee, 
I welcome the opportunity to appear before you today. With me is Roger 
Adams, the Pardon Attorney. We will do our best to address the 
questions you have relating to the conditional offers of clemency that 
the President recently granted to sixteen Puerto Rican nationalists.
    I wish to begin by extending my heartfelt sympathy to those victims 
and their families whose lives were tragically affected by the criminal 
conduct of the FALN. It is difficult to fully comprehend the extent of 
the pain and suffering these victims were forced to endure. I have 
spent my career as a prosecutor and a judge. As United States Attorney, 
I met frequently with victims of violence and, as Deputy Attorney 
General, I have done my best to ensure that crime victims are treated 
properly and respectfully throughout the criminal justice system. And 
one of the most important points I have learned from my 23-year career 
is that every tragic story of victimization is unique and 
unforgettable. And so, I want the victims of FALN violence to know that 
our thoughts and prayers remain with them now and in the future.
    I would like to briefly address the Department's procedures for 
reviewing and making recommendations to the President on clemency 
petitions. Mr. Adams will discuss these issues in more detail in his 
testimony.
    In general terms, the Office of the Pardon Attorney reviews in the 
first instance petitions for clemency filed by federal prisoners. If it 
appears that the petitioner is eligible to apply for clemency and the 
petition contains sufficient information, the Pardon Attorney begins an 
investigation into the facts and circumstances of the petitioner's 
case. Official records such as the presentence report that was prepared 
for the sentencing judge, reports from the Bureau of Prisons on the 
petitioner's behavior while incarcerated are checked for relevant 
information. On occasion, the Pardon Attorney also contacts the 
component of the Department of Justice which prosecuted the case, for 
example the Criminal Division or a particular U.S. Attorney's Office.
    After completing his investigation, the Pardon Attorney prepares a 
report and recommendation for the White House. These reports are sent 
to the Office of the Deputy Attorney General for review. After that 
review, the report and recommendation are transmitted to the White 
House over my signature as Deputy Attorney General. It is the exclusive 
prerogative of the President to decide what actions he will then take 
regarding the petition for clemency.
    You have also asked me to address what steps the Department took in 
order to obtain the records that the Committee sought pursuant to the 
resolution which was passed on September 23. On September 24, I sent a 
memorandum to the heads of all 47 Department components and divisions 
and all 93 United States Attorneys. That memorandum directed the 
component heads and U.S. Attorneys to immediately undertake a prompt 
and thorough review of their files for responsive records. In addition 
to my memorandum, every U.S. Attorney and each component head received 
the text of the Resolution for reference. Each Department component, 
division, and United States Attorney's office designated an attorney 
responsible for searching for responsive documents. The recipients were 
directed to identify, obtain, review, and, as appropriate, produce 
documents that you requested, and they did so.
    We have produced over 22,000 pages of responsive documents for you. 
The documents include records from the U.S. Parole Commission, the 
Bureau of Prisons, the Office of the Pardon Attorney (OPA), the 
Criminal Division, the Civil Division, and the Justice Management 
Division, among other components. We have provided over seven hundred 
audio tapes of recorded telephone conversations obtained from the 
Bureau of Prisons. Our efforts are continuing and we will produce 
additional responsive materials as they are located and processed.
    Additionally, the Department has provided to the Committee a 
``privilege log'' identifying those documents which are subject to the 
President's assertion of executive privilege. From the log you can see 
that in 1996, in accordance with Department regulations, the Department 
submitted a written report and recommendation to the White House 
regarding whether the President should grant or deny the petition for 
clemency, and that there were subsequent communications between the 
Department and the White House on the subject of clemency for the 
Puerto Rican nationalists as recently as two months ago. However, 
because of the President's assertion of privilege, I am not at liberty 
to disclose the contents or substance of the report, recommendations, 
or communications. Nevertheless, consistent with these constitutional 
constraints, we at the Department of Justice have made, and will 
continue to make, every effort to provide this Committee with as many 
responsive documents and as much relevant information as we can.
    I would like to address in more detail the issue of executive 
privilege. As you know, the President has asserted executive privilege 
with respect to documents and testimony that reflect advice sought by 
and provided to the White House with respect to the offers of clemency 
and the deliberations within the Department in connection with the 
preparation of that advice. The Department of Justice is obligated to 
respect and follow that assertion of the privilege.
    We believe that there is a solid legal basis for the President's 
assertion of executive privilege here. Executive privilege is a 
necessary corollary of the executive function vested in the President 
by Article II of the Constitution. This privilege, which protects, 
among other things, the confidentiality of presidential communications 
and the deliberative processes of the executive branch, has been 
asserted by numerous Presidents from the earliest days of our Nation, 
and has been explicitly recognized by the Supreme Court. The privilege 
is properly asserted where, as here, the President's need to maintain 
the confidential nature of presidential communications and executive 
branch deliberations outweighs Congress's need for the information 
contained in privileged documents.
    The Committee's request for the documents generated during the 
deliberations relating to the President's recent grant of clemency 
presents a particularly compelling legal basis for the assertion of 
executive privilege. Under the Constitution, the granting of clemency 
pursuant to the pardon power is unquestionably an exclusive province of 
the executive branch. Thus, while the Committee has undoubted authority 
to oversee this Department's discharge of its statutory duties, the 
Department was not discharging any statutory duty or exercising any 
statutory authority when it conducted an evaluation of the petition for 
clemency made on behalf of the Puerto Rican nationalist prisoners. 
Rather, the Department was providing advice and assistance to the 
President in the discharge of his exclusive constitutional prerogative. 
The Department has long declined to share with Congress information 
concerning the advice and assistance it provides to the President on 
pardon matters.
    The documents in the Department's files that are the subject of the 
President's assertion of privilege fall squarely within the well-
recognized scope of executive privilege. First, the documents include 
the Department's advice to the President and his staff on these 
clemency petitions. Advice provided to the President unquestionably 
falls within the scope of executive privilege. In its 1974 decision in 
United States v. Nixon, the Supreme Court recognized the necessity for 
protection of the public interest in candid, objective, and even blunt 
or harsh opinions in Presidential decision making. A President and 
those who assist him must be free to explore alternatives in the 
process of shaping policies and making decisions and to do so in a way 
many would be unwilling to express except privately. These are the 
considerations justifying a presumptive privilege for Presidential 
communications. The privilege is fundamental to the operation of 
Government and inextricably rooted in the separation of powers under 
the Constitution. (418 U.S. at 708).
    Executive privilege is not limited to advice and other 
communications made to the President. Rather, it is well-established 
that the privilege also applies to intra-agency deliberations, such as 
the deliberative communications within the Department of Justice in 
connection with the preparation of advice to the White House on this 
clemency matter. The Supreme Court also recognized in United States v. 
Nixon that executive privilege covers ``communications between high 
Government officials and those who advise and assist them in the 
performance of their manifold duties.'' 418 U.S. at 705. The Court has 
stated that ``the importance of this confidentiality is too plain to 
require further discussion.'' Id. The Department has provided the 
Committee with a copy of a letter we sent to a Member of the Committee 
in 1991. That letter surveyed the precedents supporting the 
longstanding executive branch position that executive privilege 
``extends not only to communications to and from the President, but 
[also] to deliberative communications between the President's 
subordinates and those who, in turn, advise them.'' Letter to Senator 
Howard M. Metzenbaum, from W. Lee Rawls, Assistant Attorney General, 
Office of Legislative Affairs, at 1 (July 1, 1991). Indeed, more 
assertions of executive privilege have concerned deliberations between 
and within agencies than have concerned actual presidential 
communications.
    Disclosure of the documents that are subject to the President's 
assertion of privilege would have precisely the chilling effect that 
the privilege is designed to prevent. There is a significant risk that 
the Office of the Pardon Attorney will not be able to obtain ``candid, 
objective, and even blunt or harsh opinions'' (United States v. Nixon, 
418 U.S. at 708) from other components within the Department or freely 
provide such opinions and views to senior Department officials if the 
key participants in the formulation of the Department's advice know 
that their views will be subject to the intense public scrutiny of a 
congressional investigation. Similarly, senior Department officials 
will not be able to convey such opinions to the Counsel for the 
President, nor will they be ``free to explore alternatives,'' id., if 
their communications with the White House and with their staffs are not 
protected from disclosure. Such a chilling effect would be particularly 
troublesome here, where Department officials are formulating advice to 
assist the President in the discharge of an exclusive presidential 
prerogative, and Congress therefore has no authority to regulate the 
nature of the advice that the President seeks or receives.
    Thank you again for the opportunity to appear before you on this 
important matter. The Department of Justice wants to continue to work 
with the Committee to appropriately address any issues relating to this 
matter.

    The Chairman. Thank you.
    Mr. Adams, we will take your statement.

                    STATEMENT OF ROGER ADAMS

    Mr. Adams. Good morning, Mr. Chairman and members of the 
committee. As Mr. Holder has indicated and as you have 
indicated, Mr. Chairman, my name is Roger Adams, and I am the 
Pardon Attorney at the Department of Justice.
    Initially, Mr. Chairman, let me add my voice to those who 
have expressed sympathy for the victims of FALN bombings. For 
most of my time in the Department, I was in the Criminal 
Division, and a good part of that was in a section involved 
with the enforcement of firearms and explosives laws. And I 
know what bombs and what illegal firearms can do, and I know 
that the victims of FALN bombings and the survivors of those 
victims are suffering to this very day, and they have my 
sympathy.
    Mr. Chairman, the office that I head has the unique and 
singular mission of assisting the President in exercising his 
powers in executive clemency matters. My small staff and I do 
this largely through written memoranda signed by the Deputy 
Attorney General and sent to the White House.
    I understand one of the things in which the committee is 
interested is how a request for a commutation of sentence is 
processed by my office. As I did for the committee staff a few 
weeks ago, I will go through the process we follow.
    First, a Federal inmate files a petition for commutation of 
his sentence with the Office of the Pardon Attorney. He is 
eligible to apply as long as he had actually reported to prison 
and begun serving his sentence and is not challenging his 
conviction or sentence through appeal or collateral attack. The 
petition form requires the inmate or his attorney--if he is 
represented by counsel--to state such information as the 
institution in which he is being held, the offenses of which he 
has been convicted, and the circumstances leading to his 
conviction. The petitioner is free to append to the application 
or to submit at a later date any additional documentation he 
believes will support his request.
    When my office receives a petition, we review it to ensure 
the applicant is eligible to apply, and we begin our 
investigation. The first step is to contact the warden at the 
Federal prison where the inmate is being held and request 
copies of the judgment of conviction, the pre-sentence report, 
and his most recent prison progress report. The judgment of 
conviction gives us the official record of the offense or 
offenses of which the person was convicted. The pre-sentence 
report, prepared by the U.S. Probation Office prior to 
sentencing, gives a good and contemporaneous account of the 
crime and a description of the rest of the defendant's criminal 
history. The progress report, prepared periodically by the 
Bureau of Prisons, details such things as the prisoner's 
adjustment to incarceration, his progress on paying fines or 
restitution, and disciplinary history while in prison.
    At this stage of our investigation, we also check legal 
databases for reported court opinions concerning the 
petitioner's conviction and other crimes for which he has been 
convicted. In the large majority of cases, this information is 
sufficient to enable my office to prepare a brief report--
usually around 500 words--to the White House. These reports are 
sent to the Deputy Attorney General's Office, reviewed by his 
staff, and transmitted under the Deputy Attorney General's 
signature to the Office of the White House Counsel. The vast 
majority of commutation petitions are denied.
    In a minority of cases, when my office's initial review of 
the information raises questions of material fact or suggests 
that the application for commutation may have some merit or if 
the case presents significant issues or is likely to attract 
wide attention, my office does some additional work. We contact 
the U.S. Attorney's Office whose office prosecuted the case. 
When we go to the U.S. attorney, we request comments and 
recommendations on the commutation request, and we may ask for 
additional factual information concerning the case. We also 
send along to the U.S. attorney a copy of the provision in the 
U.S. Attorney's Manual concerning the role of the U.S. attorney 
in clemency matters. One of the things the U.S. attorney can 
provide, and which is expressly mentioned in the manual, is 
information concerning victim impact of the petitioner's crime.
    In cases in which we solicit the views of the U.S. 
attorney, we also contact the sentencing judge, either directly 
or through the U.S. attorney, for his or her comments and 
recommendations on the clemency request, if the judge is 
willing to share them. While we are doing this, my office also 
receives and maintains for consideration in the petitioner's 
file correspondence sent by the petitioner and third parties, 
including, in many cases, Members of Congress, either to the 
Department or the White House regarding the commutation 
application. If representatives of the prisoner, either his 
attorney or a family member, seek a meeting and are willing to 
travel to meet in my office, we will meet with their 
representatives and listen to whatever additional information 
they care to make on the prisoner's behalf.
    After we have gathered the information I have described, my 
office then drafts a report and recommendation as to the merits 
of the commutation request. The report is actually a memorandum 
for the Deputy Attorney General's signature. The report is sent 
to the Deputy Attorney General's Office where it is typically 
reviewed by a member of his staff and is signed by the Deputy. 
Of course, the Deputy Attorney General is free to make changes 
in the report, but once it meets with his approval, he signs it 
and it is transmitted to the White House Counsel's Office.
    Thereafter, when he deems it appropriate, the President 
acts on the commutation petition and either grants it or denies 
it, as he sees fit. Once the President acts on the petition, my 
office is notified, and we notify the petitioner through the 
warden of his institution or through his attorney, if he was 
represented by counsel. If the President has decided to grant 
clemency, we also prepare a warrant of commutation. Once the 
warrant is signed by the President, we would transmit it or a 
copy to the Bureau of Prisons to accomplish the actual release 
or to allow the Bureau of Prisons to re-compute the prisoner's 
release date in cases where the commutation is something other 
than time served. After any Presidential decision, either to 
grant or deny commutation, my office notifies the U.S. 
attorney, and the sentencing judge, if he has been asked to 
comment, of the nature of the President's decision.
    I know, Mr. Chairman, my time has about elapsed, but let me 
say that in my prepared statement I have included, to the 
extent I can do so, consistent with the President's assertion 
of privilege, a discussion of some matters concerning the 
recent grant of clemency in the Puerto Rican cases that the 
media has indicated are of concern to the committee.
    That concludes my statement, Mr. Chairman. I would be 
pleased to answer any questions.
    [The prepared statement of Mr. Adams follows:]

                   Prepared Statement of Roger Adams

    Good morning Mr. Chairman and Members of the Committee. My name is 
Roger Adams and I am the Pardon Attorney at the Department of Justice. 
The Office that I head has the mission of assisting the President in 
exercising his powers in executive clemency matters. My small staff and 
I do this largely through written memoranda signed by the Deputy 
Attorney General and sent to the White House.
    I understand one of the things in which the Committee is interested 
is how a request for a commutation of sentence is processed by my 
office. I will briefly outline the procedures and, to the extent I can, 
will describe what we did with respect to the cases of the 16 Puerto 
Rican persons to whom the President offered clemency on August 11, 
1999. As you know, however, much of that information is covered by the 
President's assertion of privilege. Consequently, I cannot discuss it.
    A few weeks ago, I met with a number of Committee staff to go over 
the procedure the Department follows in handling a commutation case--
the type of case in which the President recently granted clemency. Let 
me now describe the way that process works:
    First, a federal inmate files a petition for commutation of his 
sentence with the Office of the Pardon Attorney. He is eligible to 
apply as long as he has actually reported to prison and begun serving 
his sentence, and is not challenging his conviction or sentence through 
appeal or collateral attack. The petition form requires the inmate or 
his attorney--if he is represented by counsel--to state such 
information as the institution in which he is being held, the offenses 
of which he has been convicted, and the circumstances leading to his 
conviction. The petitioner is free to append to the application, or to 
submit at a later date, any additional documentation he believes will 
support his request.
    When my office receives a petition, we review it to ensure the 
applicant is eligible to apply and begin an investigation. The first 
step is to contact the warden at the federal prison where the inmate is 
being held and request copies of the judgment of conviction, the 
presentence report, and his most recent prison progress report. The 
judgment of conviction gives us the official record of the offense or 
offenses of which the person was convicted. The presentence report, 
prepared by the U.S. Probation Office prior to sentencing, gives a 
good, contemporaneous account of the crime, and a description of the 
rest of the defendant's criminal history. The progress report, prepared 
periodically by the Bureau of Prisons (BOP), details such things as the 
prisoner's adjustment to incarceration, his progress on paying fines or 
restitution, and disciplinary history while in prison. At this stage of 
our investigation, we also check legal databases for reported court 
opinions concerning the petitioner's conviction and other crimes for 
which he has been convicted. In the large majority of cases, this 
information is sufficient to enable my office to prepare a brief 
report--500 to 700 words, usually--to the White House. These reports 
are sent to the Deputy Attorney General's Office, reviewed by his staff 
and transmitted under the Deputy Attorney General's signature to the 
Office of the White House Counsel. The vast majority of petitions are 
denied.
    In a minority of cases, when my office's initial review of the 
information raises questions of material fact, or suggests that the 
application for commutation may have some merit, or if the case 
presents significant issues or is likely to attract wide attention, my 
office contacts the United States Attorney whose office prosecuted the 
case. We would also contact the prosecuting division of the Justice 
Department--usually the Criminal Division or Civil Rights Division--if 
one of these divisions was significantly involved in the prosecution. 
When we go to the United States Attorney or another component of the 
Department, we request comments and recommendations on the commutation 
request, and we may ask for additional factual information concerning 
the case. When we contact the United States Attorney, we send along a 
copy of the provision in the U.S. Attorney's Manual concerning the role 
of the U.S. Attorney in clemency matters. One of the things the United 
States Attorney can provide, and which is expressly mentioned in the 
Manual, is information concerning victim impact of the prisoner's 
crime, in appropriate cases.
    In cases in which we solicit the views of the United States 
Attorney, we also contact the sentencing judge, either directly or 
through the United States Attorney, for his or her comments and 
recommendations on the clemency request, if the judge is willing to 
share them. While we are doing this, my office receives and maintains 
for consideration in the petitioner's file correspondence sent by the 
petitioner and third parties--including Members of Congress--either to 
the Department or the White House regarding the commutation 
application. If representatives of the prisoner, either his attorney or 
a family member, seek a meeting and are willing to travel to meet in my 
office, we will meet with them and listen to whatever additional 
information they care to provide on the prisoner's behalf.
    After we have gathered the information I have described, my office 
drafts a report and recommendation as to the merits of the commutation 
request. The report is actually a memorandum for the Deputy Attorney 
General's signature. The report is sent to the Deputy Attorney 
General's Office where it is typically reviewed by a member of his 
staff and is signed by the Deputy. Of course, the Deputy Attorney 
General is free to make changes in the report, but once it meets with 
his approval, he signs it and it is transmitted to the White House 
Counsel's Office.
    Thereafter, when he deems it appropriate, the President acts on the 
commutation petition and either grants it or denies it, as he sees fit. 
Once the President acts on the petition, my office is notified, and we 
notify the petitioner or his attorney, if he was represented by 
counsel. We also prepare a warrant of commutation if necessary. Once 
the warrant is signed, we would transmit it, or a copy, to the Bureau 
of Prisons to accomplish the actual release, or to allow BOP to re-
compute the prisoner's release date in cases where the commutation is 
to something other than time served. After any Presidential decision, 
either to grant or deny commutation, my office notifies the United 
States Attorney, and the sentencing judge, if he has been asked to 
comment, of the nature of the President's decision.
    Let me now turn briefly to some matters concerning the Puerto Rican 
cases that I can discuss. One matter that the media has mentioned as of 
interest to you, Mr. Chairman, is how the petition for these persons 
was filed. The prisoners did not sign and submit individual petitions. 
Rather, by letter to the Pardon Attorney dated November 9, 1993, the 
attorneys for these persons wrote to make application on their behalf. 
The 13 page letter and its numerous supporting documents have been 
given to the Committee. They are identified by Bates Stamp Numbers 
000259-000421. This material contained the crucial information required 
on the standard application for commutation of sentence, such as a 
description of the offenses, the prisons in which the applicants were 
incarcerated, and the asserted reasons for clemency. My predecessor as 
Pardon Attorney decided to accept these documents as the petition. Let 
me underscore, Mr. Chairman, that my predecessor did this with the full 
knowledge of, and support of, the Deputy Attorney General's Office. I 
was then in the Deputy Attorney General's Office and one of my areas of 
responsibility was the Office of the Pardon Attorney. So, the Pardon 
Attorney discussed this with me, and I, in turn, discussed it with then 
Deputy Attorney General Phil Heymann.
    While this procedure differs from the usual procedure in 
commutation cases, to accept a request from the legal representatives 
of these persons was neither unreasonable, nor unprecedented. There 
have been other occasions when the Department accepted applications 
signed by an attorney for the prisoner rather than the applicant 
himself. In this case, the Office of the Pardon Attorney knew that the 
issue of commutations of the sentences of these Puerto Rican prisoners 
was one that would likely be raised with the President. At some point, 
the White House would likely want input and advice from the Department 
of Justice. The best way for the Department to become prepared to 
present a thorough report and provide sound advice was to open cases 
for these persons and begin the comprehensive investigative process I 
have described.
    Just as the Department expected, the White House did indeed want a 
report, and in the Fall of 1996, asked for it. Accordingly, on December 
16, 1996, the Department submitted its written report and 
recommendation. I know there has been considerable discussion in the 
media about whether the Department made a recommendation in these 
cases. The answer is we did, in December 1996. Although the President's 
assertion of executive privilege prevents me from saying what that 
recommendation was, or discussing what was in the report, there was a 
recommendation, as provided for in Section 1.6(b) of the Department's 
Clemency Rules.
    Permit me, Mr. Chairman, to talk about the clemency rules, and a 
concern of some, at least as reported in the media, that the Department 
violated the rules by not making a recommendation in these cases. The 
fact of the matter, of course, is that the Department did make a 
recommendation. But even if we had not made a recommendation in 1996 
and, instead, the President acted in a case in which the Department had 
not made a recommendation, that would not have violated the rule, and 
it would not have invalidated the President's action. The power to 
grant clemency, as you know, is vested solely in the President. 
Historically, Presidents have called upon the Justice Department to 
assist them with the exercise of the clemency power. The Clemency 
Rules, which the President approves, set forth a description of how the 
Justice Department is to perform its tasks on the President's behalf 
The Clemency Rules exist to facilitate his consideration of clemency 
cases and, by their very terms, are advisory only. If the President, 
believed that some different procedure would better facilitate his 
consideration of a particular case or group of cases, he could 
certainly ask the Department to follow a different rule or procedure 
for those cases, and we in the Department would have a responsibility 
to do so. As a matter of fact, twice in fairly recent history, 
Presidents have acted in clemency cases with no input at all from the 
Department of Justice (or at least not from the Office of the Pardon 
Attorney)--no recommendation, no report, and even no knowledge. I refer 
to President Ford's pardon of former President Nixon in 1974 for crimes 
that he may have committed but for which he had not even been indicted, 
and to President Bush's pardons in December 1992 of the so-called 
``Iran Contra'' figures for crimes for which they had been indicted, 
but not tried.
    Finally, Mr. Chairman, I'd like to address another issue that the 
media has indicated is of concern to you: the opinions of the FBI and 
the Bureau of Prisons. The President's assertion of executive privilege 
precludes me from explaining what information the Department provided 
the White House. The President has indicated, however, in a recent 
letter that he was aware of the FBI's views. With respect to the Bureau 
of Prisons, that part of the Department does not take positions on 
clemency matters, at least in the vast majority of cases. BOP considers 
itself the ``keeper of the keys'' of the federal prison system and its 
most senior officials have made it clear that they do not want to be in 
the position of recommending which of the inmates they are supposed to 
be keeping in custody are to be released early. That is not to say that 
in an appropriate case I would not ask BOP for an opinion, but it would 
typically be in a case where clemency might be considered on the 
grounds that the inmate had done something extraordinary while in 
prison--for example saving the life of a BOP employee during a riot. 
But in the vast majority of cases, there is no need for BOP's input, 
beyond its furnishing of the inmate's prison progress reports which 
detail such matters as disciplinary incidents and escape attempts, all 
of which are invariably reflected in any report my office prepares for 
the Deputy Attorney General to send to the White House. So, while there 
have indeed been statements in the media indicating that BOP opposed 
these grants of clemency, and that may well be the personal view of 
various BOP employees, in accordance with its preference for not making 
recommendations in commutation cases, BOP's leadership never informed 
my office of its views.
    I hope the foregoing has given the Committee some understanding of 
the work of the Office of the Pardon Attorney, and to the extent 
possible, what my Office did in the Puerto Rican cases. That concludes 
my statement, Mr. Chairman, and, so far as I may do so consistent with 
the President's assertion of executive privilege, I would be pleased to 
try to answer questions.

    The Chairman. Thank you. We will put both your full 
statements in the record.
    Let me turn to the ranking member for any statement he 
would care to make at this point.

  STATEMENT OF HON. PATRICK J. LEAHY, A U.S. SENATOR FROM THE 
                        STATE OF VERMONT

    Senator Leahy. Thank you very much, Mr. Chairman, and, 
General Holder and Mr. Adams, thank you for your statements.
    As the committee knows, I did not agree with the 
President's recent clemency decision, but I do recognize that 
it is his decision to make, as it is always the decision of any 
President to grant clemency. When I was State's attorney for 
Chittenden County in Vermont, I didn't always agree with the 
Governor of Vermont when he or she used the clemency power. But 
I understood that it was theirs to exercise as they saw fit, 
even if it was on cases I had prosecuted.
    There were numerous exercises of this constitutional power 
by the Republican and Democratic Presidents with whom I have 
served in the past 25 years. President Carter used his power 
more than 560 times, President Reagan more than 400 times, 
President Bush more than 75 times. And they have not always 
been instances with which I have agreed with any of those 
Presidents.
    Now, this is the committee's second hearing on the 
President's decision to offer clemency to 16 defendants who had 
served time or were serving time for crimes they committed 
regarding Puerto Rican independence, and I am sure that we will 
hear some rhetoric, as we have already, about how the grants of 
clemency to these defendants suggest the administration is soft 
on crime and has coddled terrorists.
    Well, one can disagree, as I do, with the exercise of 
clemency, but still reject that kind of hyperbole. The 
President has granted a significantly lower percentage of 
clemency requests than any of his predecessors. The 
calculations I have is that President Clinton has granted 2.7 
percent of the requests he has acted upon; President Bush 
granted 4.2 percent; President Reagan granted 12.6 percent; 
President Carter, 21.6 percent; President Ford, 31.2 percent; 
and President Nixon, 26.2 percent.
    Earlier this week the FBI released its 1998 crime 
statistics report, some very good news. Serious violent and 
property crimes have dropped for the seventh year in a row. I 
have not seen that certainly in my adult life when anything 
comparable has happened. It shows the lowest national crime 
rate since 1985. The violent crime rate alone is 21 percent 
lower than the 1994 rate, 15 percent lower than the 1989 rate. 
I mention this because the administration can take credit for 
doing a lot of things to bring down our violent crime rate. The 
kind of trends that had been going up in our communities and 
plagued our States and our communities for decades have been 
reversed.
    We are having our second hearing. A number of hearings have 
been held on this, and that is legitimate. But I would also 
hope that we would go on and get some of our other work done 
before we go out this year.
    We saw the original S.J. Res. 33, the Lott-Coverdell 
resolution, condemning the clemency decision. The original one 
was flawed with the language, and I have cautioned a lot of 
people before, especially if it is the Senate or the Congress, 
when we start bandying about declarations that accuse the U.S. 
Government of making deplorable concessions to terrorists or 
undermining national security or emboldening domestic and 
international terrorists, to be careful what they say. Extreme 
sports might be fine in the recreational field, but their 
political equivalent has no responsible place in the halls of 
government. If you strap on a political bungee cord to play 
reckless games like this, accusing the President of undermining 
national security or emboldening terrorists, I think it carries 
a very significant risk and we may end up getting what we wish 
for, and none of us would want that. It is irresponsible. It is 
wrong. And I am glad that cooler minds prevailed and the over-
reaching and inflammatory rhetoric was removed and that we had 
a resolution that could pass unanimously.
    I would like to see us working, if we are going to be doing 
things in the House and the Senate, for example--I mean, the 
House passed their resolution, we passed ours, and then we kind 
of ignored them after that, didn't try to work out the 
difference in language. If we are going to work out differences 
in language, let's work out the Hatch-Leahy juvenile justice 
bill that passed the Senate in May almost 3 to 1, and the House 
also passed a juvenile justice bill. We ought to be working out 
the differences between those.
    We held one meeting of the conference. I believe that was 
in August, the first part of August--August 5, in fact. We 
wanted to finish this up before children went to school. Well, 
it has been more than 2 months that they have been in school, 6 
months since the Columbine High School tragedy. We ought to get 
on to that. We ought to get on to some of these long-delayed 
nominations.
    Now, I will note an area in which I am troubled. I am 
troubled by the fact that victims of the criminal activity 
engaged in by the FALN and by the 16 prisoners offered clemency 
apparently were not consulted during the pendency of the 
clemency petition. And I think that is wrong. I think victims 
should be consulted.
    When I was privileged to serve as a prosecutor, I had the 
good fortune to work alongside a number of extremely dedicated 
State and local police officers, and these are public servants 
that literally put their lives on the line every day to protect 
the rest of us. Their responsibilities require split-second 
judgment and dedication and timing, a lot of guts.
    Now, members of law enforcement and their families also 
suffered as victims of these bombings attributed to the FALN, 
to make the matters even more difficult. I think victims should 
be consulted in such things. They should at least be heard.
    I wrote to the Attorney General last month. I asked her 
whether the views of any victims of FALN violence were 
considered with respect to the clemency offers and whether 
there are procedures and policies in place to ensure that the 
rights of crime victims are respected in the clemency process. 
And Department officials assured me that the impact of a crime 
on a victim is important in considering a petition for 
executive clemency, but they acknowledged, ``The Department's 
clemency regulations do not presently require victim 
notification before a clemency recommendation is made.''
    Well, we all have to appreciate that even if the 
Department's clemency regulations were perfected to require 
victim notification, this President and any other President 
would remain free to grant clemency outside the regular 
process, as President Ford did when he pardoned President Nixon 
by proclamation and President Bush did when he pardoned six 
persons in the Iran-Contra matter by proclamation. But I still 
feel victims ought to be allowed to be heard during the 
process. We should examine the legal requirements in current 
law about notifying victims of crimes of changes in the status 
of offenders due to clemency petitions. The Victims' Rights and 
Restitution Act of 1990, 42 U.S.C. 10607(b)(5) and (8), 
requires a responsible official to provide the victim with the 
earliest possible notice of any other form of release from 
custody of the offender and general information regarding the 
corrections process, including information about work release, 
furlough, probation, and eligibility for each. Executive 
clemency is not noticed in that statute as triggering a duty to 
notify a victim.
    Mr. Chairman, I would like to work with you and with the 
Department of Justice on this. I think we ought to find some 
way that we may be able to alert victims of the pendency of 
clemency petitions.
    Again, I understand any President, just as a Governor in a 
State, has a right to grant clemency. I may well disagree with 
that exercise, as I do here. But I cannot help but think in 
most of these clemency matters that if victims were heard, too, 
it would help. And whoever the President is, just as with 
Governors, whoever the Governor might be, they would have a 
better idea of what is involved. I don't think there should 
be--just as I don't think there should be sentencing hearings 
without hearing from the victims, I don't think there should be 
clemency hearings without hearing from them.
    I will put my whole statement in the record, Mr. Chairman.
    [The prepared statement of Senator Leahy follows:]

             Prepared Statement of Senator Patrick J. Leahy

    I did not agree with the President's recent clemency decision, but 
I recognize that it is his decision to make. When I was State's 
Attorney for Chittenden County, I did not always agree when the 
Governor of Vermont used his clemency power, but I understood that it 
was his to exercise as he saw fit. There were numerous exercises of 
this constitutional power by the Republican and Democratic presidents 
with whom I have served over the last 25 years: President Carter used 
this power more than 560 times, President Reagan more than 400 times 
and President Bush more than 75 times--and they have not always been 
instances with which I necessarily agreed.
    This is the Committee's second hearing on the President's decision 
to offer clemency to 16 defendants who had served or were serving time 
for crimes they committed purportedly for the cause of Puerto Rican 
independence. I am sure we will hear repeated today strong rhetoric 
about how the grants of clemency to these defendants suggests that this 
administration is soft on crime and has coddled terrorists. One can 
disagree with the President's clemency decision and still reject such 
hyperbole.
    This president has granted a significantly lower percentage of 
clemency requests than any of his predecessors. In fact, by my 
calculations, President Clinton has granted only 2.7 percent of the 
requests he has acted upon, while President Bush granted 4.2 percent, 
President Reagan granted 12.6 percent, President Carter granted 21.6 
percent, President Ford granted 31.2 percent, and President Nixon 
granted 26.2 percent.
    Moreover, earlier this week, the FBI released its 1998 crime 
statistics report and it is full of good news. Serious violent and 
property crimes have dropped for the seventh year in a row, showing the 
lowest national violent crime rate since 1985. The violent crime rate 
alone is 21 percent lower than the 1994 rate and 15 percent lower than 
the 1989 rate. These cold, hard facts speak for themselves: This 
Administration is doing many things right to bring our violent crime 
rate down. Upward trends in violent crime that have plagued our 
communities and our citizens for decades have been reversed.
    This Committee is holding its second hearing on this matter, 
following hearings on September 14, 1999, by a subcommittee of the 
Foreign Relations Committee and on September 21, 1999, by a 
subcommittee of the Appropriations Committee. Similarly, the House 
Committee on Government Reform has held a hearing on this matter. All 
are free to comment on the President's clemency decisions--and to 
disagree with those decisions, as I do--but the Congress also needs to 
focus on getting its own work done.
    While the Republican leadership is hard-pressed to find the time to 
deal with a lengthening list of critical legislative issues, the 
Congress has spent precious time and energy on the clemency decision, 
even though we have no power to change, modify or overrule that 
decision. The House of Representatives and the Senate devoted much time 
in September to separate resolutions condemning the President's 
clemency decision.
    The original version of S.J. Res. 33, the Lott-Coverdell resolution 
condemning the clemency decision, was blemished by extreme and 
dangerous political rhetoric that was ultimately eliminated from the 
final substitute, which was then adopted virtually unanimously by the 
Senate. I have cautioned before that we ought to be careful when 
anyone, let alone the Senate and Congress of the United States, starts 
bandying about declarations that accuse the United States Government of 
making ``deplorable concessions to terrorists,'' of ``undermining 
national security'' or of ``emboldening domestic and international 
terrorists.'' Extreme sports may have a place in the world of 
recreation, but their political equivalent has no responsible place in 
the halls of government. Strapping on political bungee cords to play 
reckless games like this, accusing the President of ``undermining our 
national security'' or ``emboldening terrorists,'' carries significant 
risks and was irresponsible and wrong. I am glad that cooler minds 
prevailed in the Senate and over-reaching, inflammatory rhetoric was 
eliminated from the text of the resolution the Senate passed on 
September 14.
    The House passed a different resolution, but regular legislative 
practice has been ignored since no effort has been made by the 
leadership to take any steps to resolve the differences in the House 
and Senate resolutions. Once the political points are scored, this 
Congress apparently leaves the substantive expression of congressional 
disapproval as unfinished business--the shells of spent political 
bullets.
    The American people can judge whether the time and energy being 
devoted by the Congress to criticizing the President's decision in 
hearings and in debates on resolutions is the best use of the our 
legislative resources. I challenge the Senate to make time for votes on 
the important legislative matters and many qualified nominees whom the 
Republican majority has stalled for the last several years. Because the 
Senate failed to complete work on all the appropriations bills that 
must be passed before October 1, our government is currently operating 
under a temporary continuing resolution. The Republican Congress cannot 
find time to finish work on campaign finance reform or a real patients' 
bill of rights or a raise to the minimum wage or Medicare reforms.
    Moreover, we should be working hard on resolving differences 
between the Hatch-Leahy juvenile justice bill that passed the Senate in 
May, and the House-passed juvenile justice bill. We have held only one 
meeting of the conference, on August 5, and we did not get our work 
done even though children have now been in school for more than two 
months and six months have passed since the tragedy at Columbine High 
School.
    Long-delayed nominees continue to languish on the Senate calendar, 
including Judge Richard Paez--whose nomination to serve on the Ninth 
Circuit Court of Appeals has been pending for more than three-and-one-
half years--and the nominations of Marsha Berzon to be a judge on the 
Ninth Circuit, Bill Lann Lee to head the Civil Rights Division, and 
scores of other nominees pending before the Senate. These are weighty 
legislative responsibilities on which we should be focusing our 
attention.
    On a final note, I remain troubled by the fact that victims of the 
criminal activity engaged in by the FALN and by the 16 prisoners 
offered clemency apparently were not consulted during the pendency of 
the clemency petitions. When I was privileged to serve as Chittenden 
County's prosecutor, I had the good fortune to work alongside a number 
of dedicated State and local officers. These public servants literally 
put their lives on the line each day to protect all of us. Their 
responsibilities require split-second judgment, dedication, timing, and 
guts. That members of law enforcement and their families also suffered 
as victims of bombings attributed to the FALN makes these matters even 
more difficult.
    I wrote to the Attorney General last month and asked her whether 
the views of any victims of FALN violence were considered with respect 
to the clemency offers, and whether there are procedures and policies 
in place to ensure that the rights of crime victims are respected in 
the clemency process. Department officials assured me that the impact 
of a crime on a victim is important in considering a petition for 
executive clemency, but they acknowledged that the ``Department's 
clemency regulations do not presently require victim notification 
before a clemency recommendation is made.''
    We all must appreciate that even if the Department's clemency 
regulations were perfected to require victim notification, this 
president and any other president would remain free to grant clemency 
outside the regular process, as President Ford did when he pardoned 
President Nixon by proclamation and President Bush did when he pardoned 
six persons in the Iran-Contra matter by proclamation.
    We should examine the legal requirements in current law on 
notifying victims of crime of changes in the status of offenders due to 
clemency petitions. The Victims' Rights and Restitution Act of 1990, 42 
U.S.C. Sec. 10607(b)(5) & (8), requires a ``responsible official'' to 
provide the victim with ``the earliest possible notice of * * * any 
other form of release from custody of the offender'' and ``general 
information regarding the corrections process, including information 
about work release, furlough, probation and eligibility for each.'' 
Executive clemency decisions are not specified in the statute as 
triggering a duty to notify a victim.
    I would like to work with the Chairman and the Department of 
Justice on constructive steps we may be able to take to alert victims 
of the pendency of clemency petitions. Achieving this would ensure that 
this hearing is not just a political exercise but a substantive one as 
well.

    The Chairman. Thank you, Senator Leahy.
    In your opening statements, you apparently extend sympathy 
to the victims and their families, yet neither you nor anybody 
else, to my knowledge, involved in the clemency review process 
saw fit to seek the input of those people, the victims 
themselves, in determining whether or not clemency was 
justified.
    Would you agree with the victims, then, that it was a 
mistake not to involve the victims and their families in the 
clemency review process?
    Mr. Holder. Well, I think that generally we do a good job 
in getting victim input, notifying victims when pardons and 
clemency decisions are being made. I think we could have done a 
better job here. I think we could do a better job generally.
    The Chairman. You didn't do anything here. You didn't do 
anything here, according to the records I have.
    Mr. Holder. Well, we----
    The Chairman. You didn't even talk to the victims.
    Mr. Holder. What we generally do is we seek to interact 
with the victims through the U.S. attorneys.
    The Chairman. But I am not talking about generally. I am 
talking about what you did in this case. You didn't even talk 
to them. You didn't even go to the victims. You didn't ask them 
for their advice. You didn't give them any input at all. They 
are up in arms about this, and I don't blame them. And I don't 
think my Democrat colleague blames them, either.
    Mr. Adams. Mr. Chairman, could I offer an observation?
    The Chairman. Sure.
    Mr. Adams. There was discussion between the Office of the 
Pardon Attorney and the U.S. Attorney's Office in Chicago about 
contacting victims. I think, too, when we are----
    The Chairman. What took place in that discussion?
    Mr. Adams. I am not at liberty to discuss----
    The Chairman. You can't tell us whether or not you--you 
asked the U.S. attorney whether you could talk to victims or 
you didn't ask him?
    Mr. Adams. The U.S. attorney contacted the Office of the 
Pardon Attorney and asked--and discussed about talking with 
victims.
    The Chairman. They asked you to talk to victims, right?
    Mr. Adams. He indicated that he would like to talk to 
victims. That is right.
    The Chairman. Well, what did you say?
    Mr. Adams. I said it was fine, he could go ahead and talk 
to them.
    The Chairman. Did he?
    Mr. Adams. That is covered by the President's assertion of 
privilege.
    The Chairman. Did he ask you to talk to victims, the U.S. 
attorney? Did anybody ask you to talk to victims? Did anybody 
in your office talk to victims?
    Mr. Adams. My office is a very small office, Senator.
    The Chairman. Fine.
    Mr. Adams. We rely on U.S. attorneys to provide us the 
views of victims.
    The Chairman. And you told the U.S. attorney to go ahead 
and talk to victims?
    Mr. Adams. Yes.
    The Chairman. And that very same U.S. attorney said that he 
recommended against clemency after doing so, I guess. Is that 
right? Right or wrong?
    Mr. Adams. The President has acknowledged that the U.S. 
attorneys opposed clemency, yes.
    The Chairman. The President had knowledge that the U.S. 
attorney opposed clemency.
    Mr. Adams. He has acknowledged that they opposed----
    The Chairman. So if anybody talked to victims, it was that 
U.S. attorney, and he recommended against clemency, right?
    Mr. Adams. The President has acknowledged that he did, yes.
    The Chairman. Well, another generally recognized criterion 
for granting clemency is to reward the prisoner for cooperation 
with law enforcement agencies by giving information related to 
other investigations. Now, there are several investigations 
that could possibly benefit from information known to a number 
of these FALN prisoners, not the least of which is the Fraunces 
Tavern bombing in New York City which killed four people and 
maimed several others, a number of police people at that.
    Another example is the whereabouts of several fugitives, 
including one current member of the FBI's 10 Most Wanted List.
    Now, Mr. Holder or Mr. Adams, or both, did anyone from the 
Department of Justice seek any information from the FALN 
prisoners concerning these or any other ongoing investigations 
before these releases? If so, tell us about it. If not, why 
didn't they?
    Mr. Holder. Well, as you indicate, Mr. Chairman, there are 
a variety of reasons for which clemency, commutation of 
sentences should be considered or can be considered by the 
President. This is an exclusive power of the President.
    The Chairman. No, I acknowledge all that. There are a 
variety of reasons. My question goes beyond that. That is, did 
you try to obtain information before you granted clemency 
concerning these fugitives and these other matters that will 
help us to put some of these problems to bed with the FALN?
    Mr. Holder. To my knowledge, those kinds of requests were 
not made to these prisoners.
    The Chairman. In other words, nobody even talked to these 
fellows or these FALN prisoners about fugitives like Gerena and 
others who are still at large? Nobody asked them if they had 
any information, nobody asked them to cooperate, nobody asked 
them to help enlighten us in these areas?
    Mr. Holder. As I indicated, I don't think that happened. 
But as I also indicated, the President's power to commute 
sentences can take into account a variety of things.
    The Chairman. He doesn't have to consider that. The 
question--the problem that I am having is that he should have 
considered it, and law enforcement people, one of the first 
things, it seems to me, law enforcement people ought to be 
interested in, and certainly the Department of Justice, ought 
to be trying to get to the bottom of fugitives who were part of 
this seditious conspiracy that these people were convicted of. 
And you are saying nobody even asked a question about that.
    Mr. Holder. Well, I mean, I think, you know, being 
realistic here, these are people who----
    The Chairman. I am being realistic, Mr. Holder.
    Mr. Holder. Well, I am----
    The Chairman. You are a former prosecutor. I mean, don't 
you want to get to the bottom of these things?
    Mr. Holder. Sure.
    The Chairman. Well, then why weren't the questions asked?
    Mr. Holder. Because it seems to me you are talking about a 
group of people who did not recognize in the first instance the 
right of the American Government to even----
    The Chairman. What has that got to do with it? The point 
is----
    Mr. Holder. I am saying, Mr. Chairman----
    The Chairman [continuing]. If they are going to be given 
clemency, why don't we ask them to help us to get other people 
who are fugitives? At least they should be asked. I doubt that 
they were going to cooperate. But then, again, that might have 
some bearing on whether or not clemency should have been 
extended.
    Mr. Holder. As I said, the power of the President is 
absolute in these areas and can take into consideration a 
variety of things. The President has indicated that on the 
basis of what he terms ``equity and fairness,'' he thought that 
the extension of the commutation here was appropriate, 
understanding that there were people who would disagree with 
his decision.
    The Chairman. Well, this FALN member, Gerena, is on the 
FBI's 10 Most Wanted fugitive list--the 10 Most Wanted List, 
let alone fugitive. Doesn't it seem logical to you that before 
you give clemency to people like this who have been convicted 
of seditious conspiracy and of all these other matters 
involving terrorism, that the least law enforcement people 
should do is ask them to cooperate in finding one of the 10 
most wanted people on the FBI's list?
    Mr. Holder. Well, again, it is for the President to 
decide----
    The Chairman. No, it isn't. It is for the Justice 
Department to make this determination whether they ask these 
people these things.
    Mr. Holder. Well, no, that is not--I respectfully disagree. 
It is for the President to decide exactly what he is or is not 
going to consider in making that determination.
    The Chairman. You are saying the President just didn't ask 
you to do that, you didn't think of doing it, or you decided 
not to do it, even though you had every right to do that, to 
ask for cooperation by these FALN members in finding Gerena, to 
just give one illustration, who is on the FBI's 10 Most Wanted 
List.
    Mr. Holder. I mean, there are a variety of things that can 
be done in any pardon decision, in any commutation decision. 
Again, I come back to the fact, however, that it is up to the 
President to decide those things that are relevant in his 
decisionmaking process.
    The Chairman. But, Mr. Holder, wouldn't it have helped the 
President for you to say that you can condition clemency--we 
recommend you condition clemency on cooperation by these people 
in helping us to find one of the 10 Most Wanted criminals in 
the United States on the FBI's list, and others as well? But I 
just center on Gerena because that is so noticeable. Isn't that 
the Justice Department's job to help the President to make 
these decisions?
    Mr. Holder. That is generally not the way the process 
works. I mean, we don't suggest to the President things that he 
ought to consider in making the pardon or commutation 
decisions.
    The Chairman. Well, let me ask it a different way. Don't 
you think it would have been important for you and members of 
the Justice Department, whoever they may have been, whether Mr. 
Adams or whoever was in the Pardon Office, to have said to the 
President, before you grant clemency, let's at least try to get 
some of these criminals located, let's at least try to get to 
the bottom of some of this criminal activity, let's at least 
ask some questions of these people, let's condition clemency on 
whether or not they cooperate with us or whether or not we 
believe they are telling the truth?
    Don't you think that would have been a wise thing to do?
    Mr. Holder. I don't know. I mean, the President exercised 
his power here and made these pardons conditional on the 
renunciation of violence. He put into the conditional aspects 
of the commutations those things that he considered 
appropriate. And it is not my position, it seems to me, to 
disagree with that.
    The Chairman. Well, as Senator Leahy said, while we cannot 
change the decision, hopefully we can help reform the process. 
You know, I would like to give the Department a greater voice, 
especially to victims, give victims a greater voice in this 
process than we have seen in this particular instance and do 
more to get clemency applicants--and none of these people 
applied for clemency. That is right, isn't it? They didn't 
apply for clemency.
    Mr. Holder. Well, clemency petitions were filed on their 
behalf by their attorney.
    The Chairman. OK. But don't you think we should get the 
Justice Department to do more to get the applicants for 
clemency to cooperate and provide information on open cases 
like fugitives? Don't you think that would be just a good 
process for the law enforcement people in this country? If 
Gerena is a dangerous criminal and he is listed as one of the 
10 most wanted criminals in the United States by the FBI, don't 
you think it is incumbent upon law enforcement people, before 
they grant clemency, to get to the bottom of whatever they can 
with those to whom they are going to give this tremendous 
honor?
    Mr. Holder. The Constitution defines exactly what the 
President has got to do in terms of the exercise of that 
authority. And it is pretty unlimited. There are a variety of 
things, I think, that we could talk about as to what a 
President should hypothetically do. The Constitution, however, 
is pretty clear that the President's authority in this regard 
is, as I said, pretty unrestricted. And any President can take 
into consideration a whole variety of factors in making those 
kinds of decisions.
    The Chairman. I don't want to beat this to death, Mr. 
Holder, but you seem to be blaming the President for making 
this decision.
    Mr. Holder. No, I am not blaming the President at all. Not 
at all. No, I am not doing that. Please do not take my remarks 
that way.
    The Chairman. Well, I am blaming him. But I am also blaming 
you for not doing the minimum that any law--not necessarily 
you, but the Justice Department for not doing the very minimum 
that seems to me law enforcement would demand, and that is, ask 
questions of these people before you let them out of jail. 
These people are considered by their conviction terrorists. And 
there are people at large whom they might have helped to locate 
for us so that we could knock one more off the 10 Most Wanted 
List of the FBI.
    When I met the Attorney General a few weeks ago, she told 
me that the Department made a recommendation to the White House 
concerning clemency in December 1996. You are aware of that.
    Mr. Holder. Yes.
    The Chairman. More recently, the Department produced to the 
committee a letter from the then Pardon Attorney Margaret Love 
which indicates that her recommendation, the recommendation of 
the Pardon Attorney at that time, was to deny clemency. That is 
right, isn't it?
    Mr. Holder. The letter--I am not exactly sure how the 
letter was produced. Letters should not have been produced. It 
seems to me that the information contained in that letter is 
clearly within the bounds of executive privilege.
    The Chairman. Seriously?
    Mr. Holder. Excuse me?
    The Chairman. Seriously? You really believe that?
    Mr. Holder. Oh, absolutely.
    The Chairman. Well, we have a copy of the letter, and you 
are aware that she recommended against clemency.
    Mr. Holder. I really would not comment on what 
recommendations were made by the Pardon Attorney. As I said, I 
think that falls well within the bounds of executive privilege.
    The Chairman. Well, let me take a second here. I don't mean 
to beat this to death.
    [Pause.]
    Senator Sessions. Do you have it there? Mr. Chairman, I 
have it if you don't.
    The Chairman. Why don't you read it?
    Senator Sessions. July 25, 1997, from Margaret Love, Pardon 
Attorney, to Mr. Ruff. She said, ``On December 16, 1996, a 
report recommending denial of clemency for 17 Puerto Rican 
prisoners was forwarded to you.''
    The Chairman. That is what the letter says. It is stamped 
July 25, 1997, by the Justice Department, but it was dated--
well, it isn't dated. It just said, ``Dear Mr. Ruff: On 
December 16, 1996, a report recommending denial of clemency for 
17 Puerto Rican prisoners was forwarded to you.'' It even goes 
further. It says, ``Since that time, the Department of Justice 
received a letter from former President Jimmy Carter supporting 
commutation of sentence for these prisoners. As you know, 
President Carter granted commutation of sentence to a number of 
Puerto Rican Nationalists during his term of office. We thought 
you might wish to consider his letter in connection with your 
deliberations on this matter, and are therefore enclosing a 
copy of it.''
    In other words, they even gave the letter of President 
Carter, former President Carter, but did not change the 
opinion. You are aware of that letter?
    Mr. Holder. Well, as I said, with regard to--we have 
indicated that, in fact, a recommendation was made in December 
1996. We have never said and I don't think it is appropriate 
for us to indicate what--even though this letter does now 
exist, to say what the recommendation was from the Pardon 
Attorney.
    The Chairman. I didn't realize there was a vote on. Perhaps 
I wouldn't have taken so long. Let me turn to you, Senator 
Leahy. I have some more questions, but I will ask them later.
    Senator Leahy. Mr. Chairman, one, I agree with Mr. Holder 
that this would be a matter of executive privilege, and let me 
say this: I have made some recommendations of making sure that 
victims can be heard in clemency procedures. I have an enormous 
amount of respect for the office and how it is handled on 
clemency matters. Mr. Adams is a distinguished professional who 
served here in various administrations and is certainly of a 
non-political background and works as a professional, and I 
think any administration, Republican or Democrat, should be 
happy to have him. And, Mr. Holder, you know of my high regard 
for you.
    Even if we----
    The Chairman. Could I interrupt you for one second? I am 
going to go vote. Senator Leahy will finish, and if he wants 
more time, we will give him more. Then Senator Grassley has 
already voted, so we will turn to him next, and he will 
continue.
    Senator Leahy. I think no matter what you say, though, on 
all these procedures, the fact is a President doesn't have to 
pay any attention to them. Is that correct?
    Mr. Holder. That is correct, Senator. As I said, the 
Constitution defines what the power of the President is.
    Senator Leahy. And I say this because we have had--on this 
committee alone, we have presently or in the past six different 
members who have run for the Presidency, two currently running 
for the Presidency, four others who did run for the Presidency, 
of those who are serving right now. Since I have been here, 
this seems to be--you know, they talk about babe magnets. I 
guess this is Presidential magnets. I have had about 10 
different people I have served with on this committee that have 
run for the Presidency at one time or another. I will take a 
Sherman-esque position right now. I will never be one of those.
    But the fact is, whoever is President--and I would say we 
should know this on this committee, especially. Whoever is 
President can ignore any recommendation and grant clemency. 
Certainly President Ford didn't have a clemency board on 
President Nixon's pardon. President Bush didn't on the Iran-
Contra people. And, again, while I may disagree with the 
President's pardon, as I do in the FALN, no matter what 
procedures we put in, the bottom line is a President can ignore 
them. Is that correct?
    Mr. Holder. That is correct.
    Senator Leahy. And I have a number of questions. If I do 
not come back, I will submit them for the record. I am told we 
have about 12 seconds left on this vote. I would like to 
maintain a record of voting, so I am going to go. But as I have 
said before, I would hope whatever disagreements people may 
have with the President's decision, let's not take it out on 
either one of the two of you. You are both professionals who 
serve this Nation very well. I just wanted that on the record.
    Thank you.
    Senator Grassley. [Presiding.] Thank you. I have voted, so 
I will stay and ask some questions. I suppose either one could 
answer, but I would direct, first of all, to Mr. Holder.
    The President offered conditional clemency to the Puerto 
Rican terrorists. If the terrorists are later found to be in 
violation of any of these conditions, is it your view that 
clemency can be revoked? And if not, is there any mechanism for 
enforcing compliance with the conditions?
    Mr. Holder. I think that there are--the executive branch 
does maintain or does have the power if the conditions were not 
met to essentially yank them off the street and throw them back 
in jail.
    Senator Grassley. So then the normal process of arresting 
people who violate a policy would be the mechanism for doing 
that?
    Mr. Holder. Yes, I mean, I meant--you know, I didn't mean 
to be flip there. Obviously there have to be procedural things 
that one would have to go through. They would be afforded due 
process.
    Senator Grassley. Due process, yes.
    Mr. Adams. Could I interject something, Senator Grassley?
    Senator Grassley. Yes, you may do that. Go ahead.
    Mr. Adams. The conditions that they have to follow or that 
they fulfill a condition, if they don't fulfill the conditions, 
any of the conditions of mandatory release or if they commit 
another crime, then the first thing that would happen would be 
their mandatory release--there would be a hearing for the 
purpose of revoking their mandatory release by the Parole 
Commission. That would provide a mechanism for their arrest and 
their incarceration.
    Senator Grassley. OK.
    Mr. Adams. What would happen then, assuming that the Parole 
Commission at a hearing found that there was reason to believe 
that they had committed another crime or had violated a 
condition of mandatory release, and that the violation was so 
serious that they should be reincarcerated, they would be 
reincarcerated for the remainder of their sentence as commuted 
by the President. But the commutation warrant specifically 
provides that if they violate any of the conditions, the 
conditions of mandatory release or if they commit another 
crime, that they can be reincarcerated for the entire length of 
their original sentences, which ranged in most cases from 35 to 
90 years.
    So the mechanism to do that is--that has rarely been done, 
and the mechanism to do that is imperfect, but there is the 
ability in place for the President--this President or a future 
President--to say I find that individual whose sentence was 
commuted has violated the conditions of the commutation and he 
is incarcerated for the entire length of the sentence as 
originally imposed.
    Senator Grassley. Mr. Holder, have any of the conditions 
set by the President been changed or modified? Are there any 
plans to modify or delete any conditions?
    Mr. Holder. No, Senator, not to my knowledge. The 
conditions have all been set out. They have been explained to 
the prisoners before they were released, and they would remain 
in effect.
    Senator Grassley. At a prior hearing, I asked whether the 
victims thought it would be a good idea to require the 
President to consult with victims prior to granting clemency. 
Would you, Mr. Holder, support doing this? The President, of 
course, could still grant clemency to anyone, even terrorists, 
but he would be required to consult with the victims first.
    Mr. Holder. I think that we do a pretty good job in 
consulting with victims, but I think that we can do a better 
job. And I think we ought to think about ways in which we can 
put mechanisms in place so that the Justice Department--and I 
say the Justice Department as opposed to the Office of the 
Pardon Attorney--makes contact with victims and makes that 
perhaps a part of our recommendation.
    I wouldn't want to put it all on the Office of the Pardon 
Attorney. They have a rather small staff. And given the volume 
of cases that they work with, I would want to exactly think 
about what mechanism we might use to do a better job of getting 
in touch with victims.
    Senator Grassley. I think this would be appropriate for 
you, Mr. Adams, as a follow-up on this, and it is also a point 
that Senator Hatch made earlier regarding the role of victims 
in the pardon process generally and in this case particularly. 
Both of you have indicated that victims are generally involved 
and that victims were somewhat involved in this case. But we 
got some information provided to us by you, Mr. Adams. You 
indicate that victims were not involved in this case, and 
generally speaking, it would cause a big change in the way 
things are evidently handled.
    We have a communication from you August 23, 1999, to Mr. 
Jamie Orenstein that says along this line that, ``Any 
requirement, either a constitutional amendment that actually 
makes it to enactment or revision of our regulations that 
requires us to consult, even perfunctorily, with victims, will 
cause a big change in the way we operate. My preference would 
be to wait for a while and see how likely Congress is to 
actually pass a resolution or whatever is required to begin the 
process to amend the Constitution before we race forward and 
offer to adopt.'' So that signals to me maybe you have some 
question about the consulting of victims.
    Mr. Adams. I think what it signifies to me, Senator 
Grassley, is the sort of parochial concern of my office, as the 
Deputy Attorney General just alluded to. We have a pretty small 
staff. I have six attorneys, counting myself. What I was 
referring to in that memo to Mr. Orenstein, who is a member of 
Mr. Holder's staff--they were considering the victims' rights 
amendment and the position the Department should take on that. 
I was merely expressing the view that if the procedures were 
changed to require my office to reach out to victims in any 
large number of cases that that would certainly--it would, as I 
think you just said, and I don't have the memo in front of me. 
I think you said that I said it would cause a change in the way 
we operate. It would certainly cause a change in the way my 
office operates. Now----
    Senator Grassley. You both are saying you would need a lot 
more staff.
    Mr. Adams. If the burden were to be put on the Office of 
the Pardon Attorney, yes, sir, we certainly would.
    I think as Mr. Holder indicated, though, there may well be 
ways to do that without putting the burden on the Office of the 
Pardon Attorney.
    Senator Grassley. I thank you for answering my questions, 
and I think, Senator Thurmond, Senator Hatch is over for a vote 
now, and if you are ready to ask questions, I think it would be 
appropriate to do that. Otherwise, we are going to have to have 
a momentary lull here.
    Senator Thurmond. I have a statement first I would like to 
make.
    Senator Grassley. And I am going to have to excuse myself 
to go to the Finance Committee, so you are in charge now.
    Senator Thurmond. Make sure you come back. [Laughter.]
    Senator Grassley. Mr. Hatch will be back in just a few 
minutes.

STATEMENT OF HON. STROM THURMOND, A U.S. SENATOR FROM THE STATE 
                       OF SOUTH CAROLINA

    Senator Thurmond. I am pleased that we are holding this 
hearing today regarding the President's decision to commute the 
prison terms of members of the FALN, a militant group that has 
killed and maimed innocent civilians and police officers during 
its reign of terror.
    The individuals granted clemency were active participants 
in many serious crimes such as weapons and bomb offenses and 
armed robbery as part of their overall terrorist activities. 
They attempted to wage war on our Nation. They were convicted 
of seditious conspiracy, which involves attempting to destroy 
by force the Government of the United States. Crimes such as 
this go to the heart of our Nation.
    The purpose of this hearing is to permit us to get a better 
understanding of the clemency process and how it resulted in 
the release of these terrorists. Although the President has the 
absolute power to grant clemency, this committee has an 
important oversight role over the clemency process.
    These commutations did not have the support of law 
enforcement. It appears that these criminals were not required 
to assist law enforcement in ongoing investigations of the FALN 
or other criminal activity. Indeed, such investigations are one 
reason the committee has been denied some information.
    Contrary to what we have heard, it is clear that the 
sentences these terrorists received were not unduly severe, as 
can be seen from the Sentencing Guidelines. If these terrorists 
were sentenced today under the Guidelines, they probably would 
receive 30 years to life. Parole was an option for these 
defendants, making them eligible for release after serving one-
third of their sentences or less. However, parole is not 
available today under these Guidelines. Today, 30 years means 
30 years and life means life.
    These criminals should have remained in prison. Although 
they eventually signed documents renouncing violence, their 
statements in recent years give no indication of a change of 
heart. They have never shown remorse or regret for their 
conduct, even to this day.
    I am concerned that the release of the prisoners may only 
invigorate terrorism. Clearly, granting clemency here has sent 
the wrong message about America's commitment to fighting 
terrorism.
    I welcome our witnesses here today to discuss this most 
serious matter.
    I have a few questions here I would like to propound if 
there are no other statements to be made.
    Mr. Holder and Mr. Adams, I understand that while the 
clemency petitions for the 16 FALN defendants were being 
considered, Federal law enforcement maintained open 
investigations regarding the FALN. Are the individuals who seek 
clemency normally required to cooperate with Federal law 
enforcement as a condition of clemency being considered, or 
were the FALN members here required to cooperate?
    Mr. Holder. Well, as I was indicating earlier, the 
President's power is absolute in this area, and the President 
can do a variety of things or require a variety of things from 
anybody to whom he was thinking about giving a pardon or 
commuting a sentence. I would defer to Mr. Adams with regard to 
what the practice generally is.
    Mr. Adams. Senator, there is no general requirement that a 
person seeking a commutation of sentence pledge to cooperate 
with law enforcement. As to what we did to investigate these 
cases, as to what information we provided to the White House, 
that is all privileged, and I really can't discuss it with you.
    Senator Thurmond. Mr. Holder and Mr. Adams, Justice 
Department regulations indicate that the availability of other 
remedies such as parole is a factor in considering clemency. It 
appears that while some of the FALN members requested parole 
and were denied, others did not even apply. Why is the 
availability of parole an appropriate consideration for 
clemency? And was the availability of parole considered in the 
Department's recommendations in these cases?
    Mr. Adams. Senator Thurmond, the reason that the 
availability of parole is one factor that is considered is 
because going to the President and asking him to commute a 
sentence is extraordinary. It doesn't happen very often. It is 
certainly a factor that a President would want to consider, 
whether or not the person was eligible for parole.
    As for whether or not we considered that in making our 
report to the President, that, too, I would have to 
respectfully submit, is covered by the President's assertion of 
privilege and I can't discuss it with you.
    Senator Thurmond. Mr. Holder and Mr. Adams, as you know, 
the U.S. Attorney's Manual indicates that remorse is a factor 
that is considered in whether to grant clemency. It is my 
understanding that to this day the FALN members who were 
granted clemency have not expressed remorse or regret for their 
past criminal conduct.
    Why is remorse or regret an appropriate factor to consider, 
or did your evaluation of the FALN members consider this issue?
    Mr. Adams. I think, Senator, that the reason why remorse or 
regret is a factor is fairly obvious. It would be the type of 
thing that the President would like to know in deciding whether 
to exercise his very personal power of executive clemency.
    Again, Senator, I can't tell you what we said with respect 
to remorse or regret in any of the communications we made to 
the White House because that is also covered by the President's 
assertion of privilege.
    Senator Thurmond. Mr. Holder and Mr. Adams, I understand 
that a factor in considering clemency is undue disparity in 
sentencing. In this matter, it appears that under the 
Sentencing Guidelines, the 16 FALN members would have received 
30 years to life. For a defendant that was sentenced prior to 
the Guidelines, do you normally consider what they would have 
received under the Guidelines? And did you consider what the 
FALN members would have received if they had been convicted 
under the Guidelines?
    Mr. Holder. Well, maybe with regard to regular practice, I 
could let Mr. Adams handle that. We were handed, I guess, this 
letter at the beginning of the proceeding. It is a letter dated 
October 19, and I guess it is from somebody at the Sentencing 
Commission, I guess the interim staff director at the 
Sentencing Commission, and it indicates that a guideline range 
for these folks would range from 360 months to life.
    With all due respect to the person who prepared this, it 
seems to me that, you know, there are a whole variety of things 
that a judge would have to consider after a contested hearing 
in deciding exactly where the Guidelines fell with regard to 
these folks. It may be that this determination by Mr. McGrath 
is, in fact, right. But I would say that what is contained in 
here should not be treated as absolutely correct.
    There are a variety of things that, as I said, would have 
to be considered by a sentencing judge before a determination 
was made.
    Mr. Adams. Yes, let me just amplify on that a little bit, 
Senator Thurmond. With respect to the regular process, as you 
know, there are very few or comparatively few old-law prisoners 
still in the Federal prison system. Most of the commutation 
petitions that we get in my office are from prisoners serving 
new-law sentences.
    However, when we get a petition from prisoners serving an 
old-law sentence, the possible disparity between what the 
person would get under--what the person got under old law and 
what he might get under the Guidelines, that is something that 
we might well consider.
    Again, whether we considered it in this case, I have to 
respectfully state to you, Senator, is covered by the 
President's assertion of privilege, and I can't discuss it with 
you.
    Senator Thurmond. Mr. Holder, as you know, the United 
States has had a strong policy of intolerance regarding 
terrorism for many years. Are you concerned that granting 
clemency to the FALN terrorists in this matter sends the wrong 
message about America's commitment against terrorism?
    Mr. Holder. No, I am not, Senator. I think that the stand 
that this Government has consistently taken, under Republican 
and Democratic Presidents, is one that I think the world 
understands, that terrorists understand. I don't think that 
anything that has been done by this President in connection 
with this case has in any way weakened our resolve to fight 
terrorism, and beyond that, I think we have to keep in mind 
that although people might disagree about the decision, the 
people who were released did serve substantial amounts of time, 
between 16 and 19 years. Some might say they should have served 
longer, but the sentences were still substantial ones, and I 
think the message that we have sent to those who might consider 
harming our citizens, harming our facilities around the world, 
that that message is undiluted by the President's actions here.
    Senator Thurmond. Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Thurmond.
    Senator would you let me just finish up what I was doing 
before I turn to you?
    Senator Sessions. Please.
    The Chairman. Because I would like to be able to do that. I 
feel badly I hadn't turned to the ranking member before then.
    We understand from the published reports that in the summer 
of 1999 the Pardon Attorney sent a second report to the 
President that did not recommend either a grant or a denial of 
clemency, which, in essence--in other words, did not 
effectively reverse the 1996 recommendation by the then Pardon 
Attorney.
    Now, Mr. Holder and Mr. Adams, you both drafted the 1999 
report. Why was that second report prepared? Why did you 
prepare that? And then did the second report contain a 
recommendation of whether the President should or should not 
grant clemency?
    Mr. Holder. Mr. Chairman, with respect to those questions, 
it seems to me that the answers to those questions are 
prohibited by the assertion of privilege that the----
    The Chairman. How? Tell me. And then where in the law do 
you find that? Because, first of all, you don't--I can see 
where executive privilege can be raised with regard to Mr. 
Ruff, who was the personal counsel to the President, White 
House counsel, in giving his opinions. But you represent the 
people of this country. Now, why is that such a question that 
requires an assertion of privilege?
    Mr. Holder. Well, executive privilege has been seen to 
cover substantially more than just the communications between 
the counsel to the President and the President. Communications 
between the Justice Department and----
    The Chairman. I am not asking you to tell me everything you 
did. I am just asking you for a yes or no answer about whether 
or not there was recommendation made at that time. Was there?
    Mr. Holder. As I said, I respectfully do not feel I can 
answer that question given the President's assertion.
    The Chairman. So you are not willing to say that you made a 
recommendation of clemency or you didn't make a recommendation 
for clemency, or you just punted?
    Mr. Holder. No, I am not punting. What we have said is 
that, consistent with our regulations in December of 1996, we 
made a recommendation, and that there were subsequent 
communications with the White House after that recommendation. 
But given the assertion of executive privilege, we do not feel 
that we are at liberty to discuss the specifics of those 
communications.
    The Chairman. So we can presume then that there was no 
recommendation for clemency?
    Mr. Holder. No, I don't think you can presume that. As I 
say, I just cannot answer that question. And you would be 
presuming something on the basis of a non-answer.
    The Chairman. Presume then that there was a recommendation 
not to grant clemency?
    Mr. Holder. Well, again, Mr. Chairman, I don't think you 
should presume anything from my answer other than what I have 
said, which is that executive privilege----
    The Chairman. Isn't it true that under Justice Department 
guidelines the Pardon Attorney is supposed to give a 
recommendation one way or the other in these matters, that that 
is a part of the guidelines of the Justice Department? Right?
    Mr. Holder. That is correct, and we complied with that 
regulation in December 1996.
    The Chairman. Now, in your opening remarks, you answered 
the question yes--or no for the 1996 report. Why not for the 
1999 report? You admitted in your opening remarks--didn't he?--
yes, that there was a recommendation. That is all I am asking 
you. Was there a recommendation or was there not a 
recommendation in 1999?
    Mr. Holder. Well, as I said, Mr. Chairman, we have talked 
about this question, we have considered it, and we do not think 
that given the assertion----
    The Chairman. You don't think the American people are 
entitled to know whether or not the Pardon Attorney, who is set 
up within the Department to make a recommendation to the 
President, obligated by departmental rules to make a 
recommendation, you don't think the American people deserve to 
know whether or not he made that recommendation, and if so, 
what?
    Mr. Holder. Well, the American people----
    The Chairman. You think that is covered by executive 
privilege?
    Mr. Holder. The American people should rest assured that, 
in fact, pursuant to our regulations, a recommendation was made 
to the President in December 1996 and that there were 
subsequent communications thereafter.
    The Chairman. But you are unwilling to tell us whether a 
recommendation one way or the other was made?
    Mr. Holder. I have to respect the assertion of executive 
privilege, and I don't think, as I said, that I can go beyond 
that which I have said.
    The Chairman. Well, I want you to know I don't respect it. 
I don't think there is a reason for an assertion of executive 
privilege under those circumstances.
    Mr. Adams, the Department produced some notes and talking 
points where you appear to be counseling a Member of Congress 
and an advocate for clemency in this very matter on how to 
respond or how to improve the chances for a favorable decision. 
Now, is it the practice of the Department of Justice to provide 
advice to petitioners and their advocates on how to improve the 
chances for a favorable decision? And if not, why did you do it 
in this particular case?
    Mr. Adams. It is definitely not the practice of the Office 
of the Pardon Attorney to provide advice to petitioners on how 
to proceed. I would have to see the document to which you are 
referring, Mr. Chairman.
    The Chairman. I am talking about these talking points that 
you had written down. And here is what it said--this is a 
document you provided for us, at least the Department provided 
for us. Are you aware of this document?
    Mr. Adams. I think so. If I could see it, it would help me.
    The Chairman. Well, I would be glad to--could you give him 
a copy of this?
    Let me read it to you while we are waiting and then try and 
get a copy to you, or else I will send you this one down. It 
says--these were talking points for a call to Congressman 
Gutierrez, I believe. ``Yesterday the Deputy asked me to 
contact your office to see where we stood on getting such a 
statement.'' In fact, let me just--do you have a copy of that? 
Let me just read it from the top.
    ``Doug Scofield, Chief of Staff for Congressman Gutierrez * 
* * referred me to Enrique Fernandez.''
    ``Back on November 5, Deputy Attorney General Eric Holder 
met with Congressman Gutierrez, and also with Congressman 
Serrano and Congresswoman Velazquez about commutations for the 
17 persons serving federal time for various offenses that they 
and their supporters describe as having been undertaken for the 
cause of Puerto Rican independence. You might have been there--
not sure?''
    ``I am the Pardon Attorney at the Department, and I was at 
the meeting with Mr. Holder--and we are still working on a 
recommendation to send over to the White House.''
    Now, did you ever send that recommendation, a 
recommendation of any kind?
    Mr. Adams. I would have to agree with what the Deputy 
Attorney General said----
    The Chairman. So you are not even willing to say whether or 
not you sent a recommendation without even saying what it was? 
Yes or no.
    Mr. Adams. I have to----
    The Chairman. The American people are entitled to that.
    Mr. Adams. No, Senator, I am sorry. Mr. Chairman, I am 
sorry. I have to respect the President's assertion of 
privilege, and I am not allowed to discuss it.
    The Chairman. Why can't this White House just be open and 
just tell the truth? I mean, my gosh, this isn't something that 
is that tough. Let me just read the rest of it.
    ``At the November meeting, the Deputy Attorney General 
asked about the fact that these persons had not applied for a 
commutation themselves indicated lack of repentance.''
    Let me read that again. ``At the November meeting, the 
Deputy Attorney General asked about the fact that these persons 
had not applied for a commutation themselves indicated lack of 
repentance. I think that Congressman Gutierrez in responding to 
this said that we would be provided with something in writing 
addressing the issue of repentance and how these persons have 
changed while in prison. Actually the Congressman may have 
mentioned a second time that we would be provided something in 
writing.''
    And then this bottom paragraph, and make sure I read it 
correctly. ``Yesterday the Deputy asked me to contact your 
office''--I presume that is Congressman Gutierrez's office, 
right?
    Mr. Adams. Yes.
    The Chairman. OK. ``Yesterday the Deputy asked me to 
contact your office to see where we stood on getting such a 
statement. We are ready to finish up our report and 
recommendation fairly soon, and would like to have the 
statement on repentance to include, if it's likely to be 
forthcoming anytime soon.''
    Did you do that? Did you----
    Mr. Adams. I did write that.
    The Chairman. Those were your talking points?
    Mr. Adams. They were notes to myself for a telephone 
conversation that I was going to have with a member of 
Congressman Gutierrez's staff as a follow-up to a meeting that 
I had attended with Congressman Gutierrez along with Deputy 
Attorney General Holder.
    The Chairman. Well, let me just sum up here. We have a 
letter from Margaret Colgate Love, Pardon Attorney, which has a 
stamp on it, July 25, 1997. ``Dear Mr. Ruff: On December 16, 
1996, a report recommending denial of clemency for 17 Puerto 
Rican prisoners was forwarded to you.'' And then the rest of 
it. We will put that in the record.
    So we have a recommendation against clemency by the then 
Pardon Attorney. Now, we also know that, ``The U.S. Attorney 
for the Northern District of Illinois recommended strongly 
against the commutation of sentence. Also, one of the 
sentencing judges of the Northern District of Illinois was 
quoted in the print media as opposing clemency.'' This was from 
the documents--these are from documents that you provided or 
the Justice Department has provided for us.
    Then another document regarding the pardon--and I will put 
these all in the record in this order. Pardon of Puerto Rican 
Nationalists. This is the Deputy Attorney General call to 
Stephen Robinson, U.S. Attorney for the District of 
Connecticut. In background, it says, ``The U.S. attorney 
strongly opposed clemency in these cases. The sentencing judge 
also expressed the view that the sentences should stand.''
    Then in another document, ``Pardon of Puerto Rican 
Nationalists: DAG Call to FBI Director Louis Freeh. Background: 
The FBI was the investigating agency in these cases, and 
continues to pursue a number of fugitives. Specifically, there 
is an ongoing fugitive investigation concerning Victor Gerena, 
a suspect in the Wells Fargo robbery in Connecticut and a 
subject on the FBI's 10 Most Wanted List.''
    ``The U.S. Attorney in the Southern District of New York is 
still pursuing FALN member William Morales, currently a 
fugitive, for his role in the 1975 Fraunces Tavern bombing that 
killed four people.''
    ``Director Freeh testified before Congress in 1998 that the 
FALN was one of the sources of domestic terrorism in the United 
States.'' That is another one.
    Then another one with the same heading. Let me just read 
one paragraph from that, and I will put these all in the 
record. ``The FALN bombing at the Fraunces Tavern in New York 
in 1975, in which four people were killed and 50 injured, is 
still under investigation. According to a May 1998 newspaper 
article in a New Jersey newspaper and a June 1998 article in 
the Houston Chronicle, the Justice Department continues to 
pursue William Morales, a fugitive reportedly living in Cuba, 
for the bombing.''
    I will put the indictment list of violations into the 
record at this point, too, which show that these people were 
involved in terrorism, according to this indictment.
    Then I will put in an August 10, 1999, stamped matter 
regarding a briefing of the U.S. attorneys on commutation of 
the sentences of Puerto Rican nationalists, including a 
document on page 2 from the Northern District of Illinois where 
``The U.S. Attorney's Office recommended strongly against 
commutation of sentence''; and from the District of Connecticut 
where, ``The U.S. Attorney's Office strongly opposed clemency 
in these cases.'' And then another one from the Southern 
District of New York, and then one with the Federal Bureau of 
Investigation.
    I would like to put into the record the United States 
Sentencing Commission information for us that makes it clear 
that this argument that these sentences were disproportionate 
is not a valid argument.
    Then we will put into the record the over-hear of the 
conversation in Spanish of Inmate Adolfo Matos, which makes it 
clear, at least in my mind, that he didn't feel any particular 
remorse over what had happened.
    And then I would like to put in the Five-Year Interagency 
Counterterrorism and Technology Crime Plan, Unclassified 
Edition, prepared by the Attorney General, which says this, 
among other things, but let me just read this one paragraph: 
``The end of the Cold War and subsequent fall of the Soviet 
Union have drastically reduced the political underpinnings of 
left-wing organizations. Puerto Rican terrorist groups, such as 
the Fuertas Armadas de Liberacion Nacional Puertorriquena 
(FALNP) and the''--I am going to have to get my glasses, I 
can't read--``Ejercito Popular Boricua Macheteros (EPB-
Macheteros), are an exception and represent an ongoing threat. 
They have previously used violence in an attempt to achieve 
independence for Puerto Rico. In an 11-year span, Puerto Rican 
terrorists were responsible for more than 100 bombings and 
arsons, in both Puerto Rico and on the U.S. mainland. Factors 
which increase the present threat from these groups include 
renewed activity by a small minority advocating Puerto Rican 
statehood, the 100-year anniversary of the U.S. presence in 
Puerto Rico, and the impending release from prison of members 
of these groups jailed for prior violence.''
    [The letter and documents referred to are located in the 
appendix:]
    Now, that was prepared September 1999, indicating that 
these people are still dangerous and still threats and still 
capable of terrorism.
    I have to say that I am very concerned about the failure to 
answer some of these questions here today, and I am very 
concerned about what has happened here.
    Senator Thurmond. Senator, there is a vote on.
    The Chairman. I understand, Senator Thurmond. I will try 
and make it. How much time is left on that vote? OK.
    Let me just say this: Mr. Holder and Mr. Adams, I am very 
disappointed in the way this administration and you on behalf 
of the administration have chosen to keep the truth from the 
American people on this issue. And I am especially disheartened 
because I have been more than fair with the Department and with 
both of you. As you know, the committee did not rush ahead with 
subpoenas the moment that clemency was granted; rather, I did 
my best to work with you. But the Department's response was to 
deny the committee access to witnesses and documents.
    Even after an overwhelming bipartisan vote for a subpoena, 
I still went out of my way to work with you by agreeing to 
withhold the subpoena based on your assurances that you would 
produce documents and that you would come here and answer any 
questions or our questions.
    Now, your response to our document requests have been late, 
incomplete, and inadequate, and now you are refusing to respond 
to perfectly fair questions that the American people have a 
right to know or that they have a right to ask of their public 
servants.
    I can't tell you how disappointed this makes me to see this 
kind of tactic from our Justice Department. I can see executive 
privilege raised for Mr. Ruff and others who are directly 
involved with the President in the White House and are serving 
the White House themselves. Part of the problem, I realize, is 
the President's decision to invoke executive privilege to 
prevent the public from knowing the facts, and I guess you have 
to abide by that since he has directed you to abide by that. 
Although you yourselves have said that you believe that you can 
back that up with law, I don't think you can.
    I just ask: Why can't we get straight answers from the 
administration? The President has the power to do this. The 
question is: Should he have done it? Should you have acted 
differently? You have guidelines that say that you have to give 
a recommendation in these matters. We are pretty darn sure--and 
I don't know anybody who would rebut this--that a 
recommendation really wasn't given by you, Mr. Adams, even 
though the guidelines say you must give a recommendation.
    I think the President needs to consider whether the public 
has a right to know why he chose to set these terrorists free. 
I think that is the least that could be done. And to me, if it 
is a mistake, it is a mistake. Certainly he has gotten away 
with a few of those in his day.
    But the point is that we are talking about law enforcement 
here. We are talking about a failure to even ask basic 
questions about outstanding fugitives that the FBI lists on 
their 10 Most Wanted List, and letting these people go without 
even making the effort to do it.
    Now, I am really concerned about it. I just don't feel good 
about what is happening here today. I don't feel good about 
what happened then. I acknowledge the President's right to do 
this. But I am questioning the Justice Department and the way 
they have handled it, you have handled this. And I am 
questioning whether or not there shouldn't be a tremendous 
tightening up down there so that this never happens again.
    That doesn't mean the President couldn't ignore your 
advice. He could do that under the law and under the 
Constitution. And I would uphold his right to do that. But the 
fact of the matter is that there should have been a process 
followed here, and add it all up, the most heinous thing about 
all this is the victims weren't even consulted, as this 
seemingly sloppy, slip-shod, ridiculous, I think inadvisable 
process took place.
    Now, Senator Sessions is going to come back and ask some 
questions, so I am going to have a short recess while I go 
vote, and when he comes back, he will be given the time to ask 
any questions he wants.
    So, with that, we will recess until he gets back.
    [Recess from 10:44 to 10:53 a.m.]
    Senator Sessions [presiding]. I think Senator Hatch asked 
that I chair the meeting and that we go on forward. I think Mr. 
Holder will be here shortly. And I thought perhaps--there is 
Mr. Holder. Good to see you--that I would ask a couple of 
questions to Mr. Adams before we started.
    Mr. Adams, was there a formal petition for clemency filed 
by each and signed by each and every one of the people who were 
given clemency?
    Mr. Adams. No, Senator Sessions.
    Senator Sessions. Is that unusual?
    Mr. Adams. That is unusual, yes.
    Senator Sessions. That is very unusual. I would say it is 
pretty astounding to me that we have clemency given I guess 
through political contacts and not even a petition filed by the 
individuals requesting it.
    Mr. Adams. There was a petition filed by their attorneys, 
Senator Sessions.
    Senator Sessions. Was it signed by the individuals?
    Mr. Adams. No. And that, as I said, it is unusual, but it 
is not unprecedented.
    Mr. Holder. I would also take a little exception, Senator, 
with all due respect, to the notion this was done through I 
think you said political contacts.
    Senator Sessions. Well, we know that Congressmen and others 
were involved in contacting the White House, don't we?
    Mr. Holder. But I talk to Congressmen and Senators all of 
the time about a variety of things. I don't think there is 
anything untoward about those contacts.
    Senator Sessions. Well, I am saying they were contacting 
the Department of Justice and the White House, but the 
petitioners themselves, the people who were asking to be given 
clemency, didn't even sign a petition asking for it.
    Mr. Holder. Right. And as Mr. Adams indicated, that is 
unusual, but it is not unprecedented.
    Senator Sessions. I think it is also interesting to note, 
and I think this ought to be stressed because it blows out of 
the water, it seems to me, and I will ask you to respond to it, 
doesn't it blow out of the water the stated spin of the White 
House that this, they had served already an unusually long 
time?
    Senator Hatch asked from the Sentencing Commission, the 
Commission that sets proper sentences in America, to analyze 
what kind of sentence these offenders would have received had 
they been sentenced subsequent to the establishment, now over a 
decade, of sentencing guidelines. And they concluded that they 
would serve 30 years to life. That is without parole.
    So, Mr. Holder, I know you questioned that that might not 
be exactly totally accurate. But those sentencing guidelines 
are pretty specific, aren't they?
    Mr. Holder. Yeah, they are pretty specific. But, I mean, as 
you know, Senator, from your days as a U.S. attorney, I mean, 
there is a whole process that you have to go through before a 
judge ultimately decides in what range a particular person will 
end up. And we have some pretty contested hearings in that 
regard.
    Senator Sessions. Well, you do. But in my opinion, and 
based on this report, I think there is no doubt that under 
present law, these defendants would have received substantially 
longer sentences than they have served before they were 
released. And I think 30 years to life, and that is without 
parole, indicates that this spin that these people have served 
too long a period of time is bogus, fraudulent and a sham. That 
is just my 2 cents' worth. I know you disagree with it.
    Let me mention this to you. You noted, Mr. Holder, that 
nothing done by this pardon would weaken our effort against 
terrorists. Are you familiar with Attorney General Janet Reno? 
She is your boss, I assume.
    Mr. Holder. I see her pretty frequently.
    Senator Sessions. Are you familiar with the 5-year 
Interagency Counterterrorism and Technology Plan produced 
September, last month, of 1999? Are you familiar with that 
report?
    Mr. Holder. Yep. It was run out of my office.
    Senator Sessions. Are you aware that it finds in there, 
talking about the increased threat of terrorism, and this is 
quoting from her report, your boss, ``Factors which increase 
the present threat from these groups include renewed activity 
by a small minority advocating Puerto Rican statehood--the 
implementing statehood, the 100-year anniversary of the U.S. 
presence in Puerto Rico and the impending release from prison 
of members of these groups jailed for prior violence''?
    Now, let me ask you, can we conclude anything other than 
that the Attorney General herself in her report last month has 
concluded that releasing these people has increased the 
likelihood of violence by Puerto Rican terrorists?
    Mr. Holder. Well, I think given the terms under which these 
folks were released, which is where they had to indicate that 
they renounced violence, makes the report language that you 
cited it seems inapplicable. We are talking about people who as 
a condition of release have pledged not to engage in violence. 
And if they engage in violence or even if they interact with 
people who they should not, they can be put back in jail.
    Senator Sessions. Mr. Holder, I would disagree. I do not 
see a clear, consistent, sustained, unequivocal renunciation of 
violence by these individuals. That is one of the things that 
makes this such a shocking clemency act.
    But I would just say to you that the Attorney General has 
made her statement after they were released, after they made 
this ``renunciation of violence,'' as you said, and she still 
said it is going to increase the likelihood of terrorist 
activity. Would you disagree with that?
    Mr. Holder. I would not necessarily disagree with it, but I 
don't think we are talking--we are talking about apples and 
oranges here. I think the fact that, and it is clearly stated. 
I don't think it is not clear. I think it is very clear that, 
as a condition of release, they had to agree not to engage in 
violent activities, and there are mechanisms, as I guess Mr. 
Adams described before, to make sure that if they don't live up 
to those agreements, those pronouncements, that they can be 
placed back in jail.
    Senator Sessions. Well, anyone in prison, if you ask them 
not to commit a crime if you let them go, will you promise not 
to commit another crime, will say yes; wouldn't you agree, Mr. 
Holder?
    Mr. Holder. Well, two people to whom clemency, I guess, or 
commutations were offered in this case did not decide to do 
that. So I think you are generally right. But with regard to 
these folks, at least two of the people who had the ability, if 
they said the right things, to get out decided not to.
    And I have to indicate also that in the time that they have 
been out, these prisoners have been making a lot of contact 
with people who are supervising them and asking them questions 
about whether or not they can meet with certain people. So it 
seems to me that at least for now they are taking seriously the 
agreements that they made.
    Senator Sessions. Let me be frank with you. I am disturbed 
about a lot of things about this, but I will tell you the thing 
that most deeply troubles me, Mr. Adams, and both of you are 
involved in this critically, and that is that the President has 
had over 3,000 requests for clemency since he has been in 
office. Prior to these grants, only three had been granted.
    Now, I have been a professional in the Department of 
Justice for 15 years prosecuting a lot of people. I have no 
doubt that probably 99 percent of those 3,000 were more 
deserving of a clemency than these 16 terrorists.
    And let me ask you this, Mr. Adams: Does it make you 
uncomfortable, when you have to look into a petition for 
clemency from some mother and family of a young man who did 
something wrong and now has got 15 years for a drug offense, 
and you say no to them, and the President goes along and grants 
a pardon for these people? Does that bother you?
    Mr. Adams. All I can say to you, Senator Sessions, is we 
try to--and I try to evaluate each case on its merits.
    Senator Sessions. Well, don't you try to be consistent? 
Don't you believe that you have a duty as a member of the 
Department of Justice to try to, every person that comes before 
you, whether they have got political influence or congressional 
friends or money or power, but a poor person has the same 
chance when he comes before you as persons with influence?
    Mr. Adams. I do try to be fair and consistent, yes.
    Senator Sessions. And does not this trouble you that this 
decision was made, apparently at least over the opposition of 
your predecessor, as pardon attorney?
    Mr. Adams. All I can say to you, Senator Sessions, is that 
the duty of my office is to investigate each case that comes in 
and write a report on each case that comes in. The deciding 
authority----
    Senator Sessions. Well, I think it is more than that, Mr. 
Adams.
    Mr. Adams [continuing]. As you know, Senator, is the 
President.
    Senator Sessions. I think it is more than just writing a 
report. And I will tell you what I said on the floor, when this 
happened, of the Senate, and right to your face and Mr. 
Holder's face, what you should have done, what Mr. Holder 
should have done and the Attorney General should have done is 
said, ``No, Mr. President. This is not just. We cannot continue 
to deny pardons day after day for more deserving persons, far 
more deserving persons some of them, and at the same time you 
grant this. And if you do it, we are out of here. You cannot do 
it, and we cannot serve in this administration or serve as your 
pardon attorney.''
    Did you ever think about that?
    Mr. Adams. Are you asking would I think of resigning over 
this?
    Senator Sessions. Yes.
    Mr. Adams. I think that the only way I would consider 
resigning, Senator Sessions, would be if I could conclude that 
I had done an inadequate job in this case or some other case or 
my office had done an inadequate job in this case or some other 
case. I cannot make that conclusion. I believe that I, 
personally, and my staff did a more than adequate job in this 
case, and we do that in other cases, too.
    Senator Sessions. Well, I would say technically that is 
correct. I wish and believe on occasions that the leaders in 
the Department of Justice just have to tell Presidents, ``No, 
we just cannot do this. You don't understand what we are doing 
every day, Mr. President. This is too bizarre. This is too 
unjustified.''
    And I will just finish up with this comment: Mr. Holder, 
you have insisted that the President's power in this regard is 
absolute. But I would suggest that there is a power in the 
Congress for oversight, would you not agree?
    Mr. Holder. Not with regard to the President's power to 
grant pardons, no. I would not agree with that.
    Senator Sessions. Well, are you familiar with Professor 
Akhil Amar and his article in the New Republic, no right-wing 
journal that? Are you familiar with that article?
    Mr. Holder. No right-wing journal, and I am familiar with 
Professor----
    Senator Sessions. This is what Professor Akhil Amar, says, 
``Congress has a strong claim of oversight, `since it is both 
democratically accountable and specifically tasked to watch 
over the Executive Branch.''' And I am quoting. ``The argument 
that Congress has no proper role in investigating suspicious 
pardons or grants of clemency is constitutionally cockeyed. 
True, the Constitution vests with the President alone the 
pardon power. But the same is true of the powers to veto laws, 
to appoint Cabinet officers, to command the armed services, to 
negotiate treaties and to do a great many other things. These 
powers are not immune from congressional oversight. Why should 
the pardon power be any different?''
    He goes on to say, ``Congress surely has a legitimate role 
in assessing whether the Justice Department's general system 
for processing pardon requests needs revamping.''
    Do you disagree with that?
    Mr. Holder. In that regard, yeah, I think there is a 
legitimate basis for this hearing, and that is to ask us 
questions about the way in which the Justice Department 
performed. But if you ask the more general question about 
whether there can be oversight of the President, and for 
instance calling in the White House counsel to ask about the 
way in which that person interacted with the President, I don't 
think that that would be----
    Senator Sessions. What if there were a corrupt basis for 
this President's decision? Who is going to inquire about that?
    Mr. Holder. People in law enforcement.
    Senator Sessions. Well, has anyone inquired about that? 
Have you investigated whether or not the President had a 
corrupt motive in this?
    Mr. Holder. We don't have any basis to start that kind of 
an investigation. I have not seen any allegations in that 
regard.
    Senator Sessions. Well, I would just say--I know my time is 
up--that there is no, it wasn't done because these individuals 
gave cooperation; it wasn't done because they served too much 
time; it wasn't done because the victims recommended it; it 
wasn't done because the prosecutors had recommended it, they 
all opposed it, as did the FBI and the Bureau of Prisons; it 
wasn't done for a whole lot of other legitimate law enforcement 
reasons; it wasn't done because they had too long a sentence, 
if you considered it, so I do not know what the motive is. I 
think we have a right to inquire about it.
    I think the President jeopardizes the integrity of the 
Department of Justice when he leaves a record this bizarre on 
the table and refuses to provide a fundamental basis for his 
acts. And I feel strongly about it. This is one of the most 
disturbing hearings that I have seen since I have been in this 
Congress, the most disturbing.
    And I think the reasons for this action are just totally 
without merit, and it is just not justified, and it undermines 
the rule of law and the respect for justice. And how can young, 
innocent people who--not innocent people--who really made 
errors of judgment, be denied repeatedly clemencies and have 
these granted? It just does not make sense to me.
    Mr. Holder. Well, obviously, Senator, with all due 
respect----
    Senator Sessions. And please respond. I have taken 
advantage of my time.
    Mr. Holder. That is fine. I would disagree with substantial 
parts of what you said there.
    And I can understand how people could disagree with what 
the President has done here. I mean, he has indicated in his 
letter I guess of September 21 to Congressman Waxman that he 
understands that this decision might be unpopular.
    What concerns me, though, is that we ascribe some kind of 
improper motive to what the President has done here. Disagree 
with him and disagree with him vehemently. In the absence of 
some kind of specific proof, some kind of real indication that 
something improper, inappropriate has occurred here, I think we 
should be very careful about ascribing those kinds of motives 
to the President's actions. It is something that I think we do, 
to be very honest with you, we do too often here in Washington 
nowadays. And why can't we simply say that he was wrong, say it 
in the strongest terms that you want, but not say necessarily 
that somebody was corrupt or acting inappropriately.
    The Justice Department, I believe, has acted here in an 
appropriate fashion. With regard to I guess what Chairman Hatch 
was saying earlier, we have tried to do the best we can in 
turning over substantial amounts of documents. People in the 
Justice Department have worked huge numbers of hours in trying 
to respond to what I think are legitimate requests of this 
committee.
    The decisions made by the people in the Pardon Attorney's 
Office I think are, in fact, honorable ones. They followed the 
regulations, as they have been--as they are given to us, as 
they have been set out.
    Again, disagree with the decision, disagree with the way in 
which perhaps we have conducted ourselves, but I think we 
should be very cautious in trying to ascribe inappropriate 
motives to the actions that were taken by the President or 
people in the Justice Department.
    Senator Sessions. Well, I just didn't ascribe it. I 
suggested at least people to believe that that is possible when 
we don't have any other reasonable basis for it, that I can 
see, and you are refusing to tell the complete story. But I 
would yield.

  STATEMENT OF HON. JON KYL, A U.S. SENATOR FROM THE STATE OF 
                            ARIZONA

    Senator Kyl [presiding]. Thank you. Chairman Hatch asked me 
to take the meeting at this point.
    I think, just to conclude this point and then I want to 
move to another point, that suggests to me the Department of 
Justice has not done a good job in this case. But when it 
appears that all or most of the recommendations from 
professionals were not to do this, and the President has not 
seen fit to explain publicly certain things that he has claimed 
privilege for, then it raises the questions, not only in 
Senator Sessions' mind, but in my mind as well.
    And I think that if the President is going to take an 
action like this that he knows is going to be unpopular, where 
his motives would be questioned, that he may need to consider 
that he needs to lay everything out on the table and be able to 
respond to the fact that the professional recommendations were 
against the action that he took.
    I would like to move over to the issue of the victims. I 
understand the chairman asked one brief question on this, but 
my understanding is that neither DOJ, generally, nor your 
office, Mr. Adams, notified the victims of the various crimes 
that were involved in the actions for which the conspiracies 
were prosecuted prior to the action that the President took in 
this case; is that correct?
    Mr. Adams. There was a discussion, Senator Kyl, between my 
office and the U.S. Attorney's Office in Chicago about their 
contacting victims. The U.S. Attorney's Office were told they 
were free to contact victims if they wanted to.
    Senator Kyl. Is it correct that there was no contact?
    Mr. Adams. I can't say that.
    Senator Kyl. Well, let me quote, I have a lot of records, 
personal notes that were taken, ``Did not contact any victims, 
didn't show any copy to any victims, don't think USAO contacted 
victims, e-mails.''
    Who is Chris Watney?
    Mr. Adams. She is an employee of the Public Affairs Office 
of the Department.
    Senator Kyl. And Myron Marlin?
    Mr. Adams. He is the director of that office.
    Senator Kyl. Are you aware of an August 25 e-mail from 
Watney to Marlin which, among other things, says, ``Also, Roger 
Adams wanted me to point out to you that Reno once said that 
victims are consulted in our pardon review process. This is not 
always true, and it isn't true in this case. He wanted to make 
sure Reno stayed away from questions about victims.''
    Are you familiar with that e-mail or do you contest that 
you made that point to Myron Marlin?
    Mr. Adams. I don't contest that I made that point, no.
    Senator Kyl. All right. Who is Jamie Orenstein?
    Mr. Adams. Jamie Oren----
    Mr. Holder. An attorney in the Deputy Attorney General's 
Office.
    Senator Kyl. Do you recall, Mr. Adams, a memo sent on 
August 23 to Jamie Orenstein, in which, among other things, you 
said--you are talking about the small percentage of pardons 
involving victims of crime, particularly violent crimes, you 
said, ``Any requirement, either in a constitutional amendment 
that actually makes it to enactment or revision of our 
regulations that requires us to consult, even perfunctorily, 
with victims, will cause a big change in the way we operate.''
    I am skipping down now. You conclude by saying, ``Media 
hostile to the commutations will inevitably raise the fact that 
the Department did not consult with victims in the FALN 
cases.''
    Are you familiar with that memo?
    Mr. Adams. Yes, I am.
    Senator Kyl. Do you contest that you wrote that?
    Mr. Adams. No, I don't.
    Senator Kyl. So ``the fact that the Department did not 
consult with the victims in the FALN cases.''
    Mr. Adams. I am still--I have sent that memo. I am still 
not 100 percent sure what the U.S. Attorney's Office in 
Chicago----
    Senator Kyl. Do you have any information to suggest that 
anybody ever did, in the U.S. Attorney's Office, ever did 
contact the victims?
    Mr. Adams. It was a discussion between----
    Senator Kyl. Do you have any evidence to suggest that 
anyone ever did?
    Mr. Adams. Other than that discussion, no.
    Senator Kyl. OK. And that discussion simply involved one 
situation in which somebody said, ``You are free to do so.'' 
But you also point out that it was a fact that the Department 
did not consult with the victims.
    The U.S. Attorney's Office in Chicago is part of the 
Department, isn't it?
    Mr. Adams. Yes.
    Senator Kyl. Thank you.
    Mr. Holder. Senator, we have conceded that--or I have 
conceded--that the Department I think, generally, as I said 
before, does a pretty good job in contacting victims, but we 
can do a better job and that we need to I think work on ways in 
which we make sure that we contact victims as part of this 
process.
    Senator Kyl. This is a pretty big case not to contact the 
victims, though, isn't it? I mean, this is a--pretty big 
mistakes were made.
    Mr. Holder. I'm sorry, pretty big?
    Senator Kyl. You say sometimes mistakes are made. You know, 
we do a pretty good job, but we don't always do our job. This 
is a very big case for there not to be contact with victims, 
especially considering all of the contacts with various groups 
that supported the petition for clemency, is it not?
    Mr. Holder. Yes. I wish that I would be in a position to 
tell you that we had contacted A, B, C and D. I am not in a 
position to say that. I cannot say, I don't know exactly what 
kinds of contacts were made by the various offices with the 
victims. But I think in this particular case, and generally, we 
could have done a better job.
    Senator Kyl. Yes. All of the evidence I have is that there 
was no contact. And if somebody will come forth and say that 
there was, let me know. But all of the victims say they weren't 
contacted. So I don't think we should leave pregnant out there 
the notion that maybe somebody was contacted. All of the 
suggestion is that there was no contact.
    Now, the failure of contact was not because the Department 
made an explicit decision that, under the law, it should not do 
so or didn't have to do so, was it?
    Mr. Adams. No.
    Mr. Holder. No.
    Senator Kyl. In other words, it would have been better had 
it been done in this case is the position that you are taking.
    Mr. Holder. Yeah. I mean, I think, yeah, I think clearly it 
would be better. It would certainly make this hearing a lot 
more pleasant if we had had an ability to say that victims had 
been contacted.
    Senator Kyl. Right.
    Mr. Holder [continuing]. Or victims had been contacted or 
if victims had been contacted.
    Senator Kyl. Let me just ask you, I am sure you have 
thought about this, do you believe that under the current 
statutory framework, a couple of statutes involved, that 
somebody, either at the Department or the Office of the 
President, had an obligation to contact victims?
    Mr. Holder. As I understand it, I think that is an issue 
actually being considered by our Office of Legal Counsel. I am 
not at all certain that under the statutes that exist right now 
that there is that obligation. I do think, however, that we 
ought to look at the regulations that exist and maybe tinker 
with them so that that does become something that is, if not 
statutorily required, but at least something that is required 
of us in the process.
    Senator Kyl. Would you argue that because the clemency 
power is specifically a presidential constitutional power that 
the President is above the law, that he would not have an 
obligation, notwithstanding Department policy or binding 
statutes on other DOJ personnel?
    Mr. Holder. I am not sure I would characterize it as the 
President being above the law. But I think a President, any 
President, quite frankly, is, I think, free to make pardon-
commutation decisions on whatever he or she wants to make them 
on.
    Senator Kyl. Right. What I am saying is, and let me 
rephrase the question, and then I will turn to Senator Specter. 
Off the top of your head, would it be your legal judgment that 
Congress could impose a requirement of notification in a 
clemency case, where we understand the power is actually 
exercised by, of deciding to do it or not, is exercised by the 
President, but there are statutory procedures under which the 
Department is involved in the process, including the clemency--
--
    Mr. Holder. Again, this would be off the top of my head, 
but I do not think that Congress would have an ability to do 
that, with regard to how the President exercises his authority 
in the pardon-commutation process.
    Senator Kyl. So for there to be a requirement of notice in 
a case like this then, it would require a constitutional 
amendment?
    Mr. Holder. Well, if you want to circumscribe how the 
President acts, I think that might be right. On the other hand, 
there are regulations that we have in place that specify how 
the Justice Department should do its job and how we should 
interact with the President.
    Senator Kyl. This will be my last point. Since Department 
regulations didn't work in this case, and the Congress might 
want to take this a little bit more seriously than the 
Department of Justice did, if we adopted legislation that 
specifically requires notice in a case like this by the 
Department of Justice, clearer than it already is, although it 
is pretty clear, you would concede then that, in a case of 
presidential pardon or clemency, the Department of Justice 
could be required by Congress to provide that kind of notice to 
victims.
    Mr. Holder. The Justice Department could be required to 
provide the President notice.
    Senator Kyl. No, victims notice.
    Mr. Holder. Victims notice. I am not sure about that, off 
the top of my head, Senator.
    Senator Kyl. All right. Well, then, would you please inform 
the committee with your legal opinion.
    Mr. Holder. That is fine.
    Senator Kyl. We are trying to do this one way or the other, 
by statute or by constitutional requirement, and whatever it 
takes, we want to get it done because obviously departmental 
procedure didn't work in this case.
    Mr. Holder. That is fine. We will get back to the folks who 
are I think discussing this question in the Department now and 
get something back to you.
    The Chairman. Thank you, Senator.
    Senator Specter.

STATEMENT OF HON. ARLEN SPECTER, A U.S. SENATOR FROM THE STATE 
                        OF PENNSYLVANIA

    Senator Specter. Thank you, Mr. Chairman.
    Mr. Holder and Mr. Adams, I am concerned about a number of 
factors, but especially about the overall oversight function of 
the Congress and the Senate on executive action, and I 
understand that there are constitutional issues here which have 
some bearing. But I note the Attorney General's report in 
September 1999, where she focuses on this issue at page 11 and 
says, ``Puerto Rican terrorist groups such as the FALN and EPB 
are an exception and present an ongoing threat.'' That is in 
the discussion of terrorism.
    I note further that the regulations relating to the 
pardoning power of the President, 1.5 on disclosure, and I 
believe this would apply to memoranda prepared by the pardon 
attorney, talks about petitions, memoranda, communications, et 
cetera, ``may be made available for inspection, in whole or in 
part, when in the judgment of the Attorney General, their 
disclosure is required by law or the ends of justice.''
    Now, that suggests to me that where you have the pardon 
attorney functioning in an office created by statute, funded by 
the Congress, that you have a little different situation here 
with the regulations, leaving it to the Attorney General.
    In your prepared statement, Mr. Holder, you make this 
statement, ``The privilege is properly asserted. Whereas, here, 
the President's need to maintain the confidential nature of 
presidential communications at Executive Branch deliberations 
outweighs Congress's needs for the information contained in 
executive privilege.''
    I think that what purports to be a statement of law is 
weighted a little heavily in favor of the President, which I am 
not surprised he would make. I think the Congress has broader 
authority on the issue of executive privilege. But taking the 
language which you are articulate here, you have a balancing 
test; confidential nature of presidential communications and 
Executive Branch deliberations outweighs Congress's need for 
the information contained in privileged documents.
    Now, where Congress seeks to exercise oversight over the 
pardoning authority, and we have a statement by the Attorney 
General after the commutation about these terrorist groups 
representing ``an ongoing threat,'' it seems to me that the 
kind of inquiries which are being made here, especially by 
Senator Sessions, is pretty direct, but a little more direct 
this morning than I have seen him in a while, and you have a 
resolution by the Congress, where I think it was 97 to 3, an 
overwhelming number to show, including almost all of the 
members of the President's own party, and I don't read this as 
a matter for partisanship at all, that there has been a very 
emphatic statement by the Congress of our need to know what 
went on here.
    There may be some area for legislative change or maybe 
there would be an area for constitutional amendment. But 
sticking with the legislative oversight, and I raise this issue 
not only for this matter, but for ongoing assertions of 
privilege and refusal to turn over documents, where this 
committee tries to exercise oversight, wouldn't the President 
be better advised, and this gets into advice to the President, 
but perhaps I ought to put it in terms of the Attorney 
General's authority on the disclosure here.
    Wouldn't the Attorney General be better advised to leave a 
little more leeway for the Congress to see what happened here 
and to hear from Mr. Adams what his recommendation was?
    Mr. Holder. Well, I think that we have done a fairly 
extraordinary job here in providing to this committee 
substantial numbers of documents, tapes. We are obviously here 
making ourselves available and answering questions to the best 
of our ability.
    Senator Specter. Well, you are available, but you are not 
answering the question as to what was the recommendation.
    Mr. Holder. Well, we are answering any question that we 
think we can, and the only ones that we are not answering are 
those that we think are--we cannot answer because of the 
assertion of executive privilege. Beyond that, we have made 
ourselves open to the questions and, as I said, provided 
documents in that regard as well, and tapes as well.
    Senator Specter. Mr. Holder, how does the President exert 
executive privilege? Is it something that he must do 
personally?
    Mr. Holder. Well, the Justice Department will express an 
opinion as to whether or not an assertion of executive 
privilege is appropriate in a particular instance, and then the 
President actually asserts executive privilege.
    Senator Specter. Well, how has he asserted executive 
privilege here?
    Mr. Holder. I will be honest with you. Mechanically, I am 
not sure exactly what happened here.
    Senator Specter. Well, I think it is an important point 
that the President ought to focus specifically on the 
parameters of the issues, which would be in part defined by the 
overwhelming vote, more than 90 members of the Senate 
concurring, and the precise nature of the regulations with the 
Attorney General on their face--the regulations' face, having 
authority to make the disclosure.
    What I would ask you to do is to return to the President 
with the strong sense you have had here today and acquaint him 
with your balancing test--I am sure he knows about the 
resolution which was passed overwhelmingly--and make a 
determination if he might not think that we have some 
legitimate need, as you articulate it in your balancing test, 
Congress' need for information contained in privileged 
documents. And I would like to focus with particularity on 
exactly how he asserts it, that it is a personal assertion from 
him.
    Mr. Holder. We will certainly convey those feelings to the 
President, although I think, as you indicate, based on the vote 
of Congress and in anticipation of the hearing here, I think 
the President is probably pretty well aware of the feelings of 
the members of this body.
    Senator Specter. Well, I would also like you to specify to 
him the Attorney General's finding. He may not know of all of 
that, but that is a pretty tough finding, categorizing FALN as, 
``representing an ongoing threat,'' especially after the 
President has made the declaration of clemency. I think there 
is a fair need to pursue this in some specification.
    Thank you very much.
    Mr. Holder. Well, I just would say that we should not read 
the Attorney General's statement in the Five-Year Plan as 
indicating that the release of these prisoners, given the 
conditions upon which they were released--that that statement 
refers to those people, given those conditions. That is not the 
way I read the Attorney General's statement in the September 
1999 document.
    The Chairman. Then what does it mean?
    Senator Specter. Well, why not, Mr. Holder?
    The Chairman. What does it mean?
    Senator Specter. This is a statement which she has made 
after the grant of clemency. This is a statement which deals 
specifically with the FALN, ``representing an ongoing threat.'' 
It seems to me that where you have people who are part of the 
FALN and you are talking about deterrence and whether they are 
going to engage in terrorist activities in the future, there is 
an unquestionable impact upon members of the FALN in thinking, 
in effect, they can get away with it if executive clemency has 
been granted, and where she identifies this specific group--
characterizes them as an ongoing threat. It seems to me it is 
very relevant and very probative on the issues we are 
discussing here.
    Mr. Holder. I mean, I would certainly say it is relevant, 
but I don't think that this statement can be read in quite the 
way that you have indicated. As I said, this is a September 
1999 document. That is true, but I do think that given the fact 
that we are talking about the release of people here on the 
conditions that have been specified that that in some way 
modifies that which we see on the page here.
    Senator Specter. Well, Mr. Holder, I think that there is a 
fair amount of latitude for varying opinions on executive 
privilege and a balancing. Staff has very adroitly produced a 
chart here which puts the language before everyone to see, 
including C-SPAN, and you have the Attorney General commenting 
about, ``represent an ongoing threat,'' this specific group.
    It seems to me there is little room for argument that 
granting clemency to members of that group has an impact in the 
context of an Attorney General's report which talks about 
terrorism as an effort to obtain political gain. You have this 
issue of Puerto Rico still before the public, a matter which is 
still pending, and you have an ongoing threat by this terrorist 
group and you have specific members being commuted. That has to 
have an impact on the threat from that group.
    What is wrong with that reasoning, Mr. Holder?
    Mr. Holder. Well, I do not think that the language, 
``impending release from prison of members of these groups 
jailed for prior violence,'' quite frankly refers to the people 
whom we are talking about here today, given the way in which 
they were released.
    Now, this is a document that has a date of September 1999 
on it. I don't know exactly when that language was prepared and 
I don't know exactly----
    Senator Specter. Who cares when it was prepared? If it is 
issued in September 1999, it is issued after the fact. And I 
didn't take the time to read the other language: ``They have 
previously used violence in an attempt to achieve independence 
from Puerto Rico, arsons in both Puerto Rico and on the U.S. 
mainland. The factors which increase the present threat from 
these groups include renewed activity by a small minority 
advocating Puerto Rican statehood, the 100-year anniversary of 
U.S. presence in Puerto Rico, and the impending release from 
prison of members of these groups jailed for prior violence.''
    Let me make one addendum. I voted in favor of statehood for 
Puerto Rico. I don't think this really implicates the broader 
issues involved, and people who want statehood for Puerto Rico 
should not be branded with this terrorism. But there you have 
an elaborated statement by the Attorney General about the 
threat by the FALN, and here you have the President having 
granted clemency and the Attorney General releases a report 
after the clemency is granted.
    I think that the Attorney General has to be bound, and the 
administration does, by a September 1999 date, unless we are to 
conclude that these reports are written and not read and 
issued.
    The Chairman. Well, let me interrupt here. I think that 
last line does kind of make it pretty clear that you can't just 
blow this off, in your own report just a month ago.
    Senator Specter. A pretty impressive last line, ``impending 
release from prison of members of these groups jailed for prior 
violence.''
    The Chairman. Yes, I don't see how you get around that.
    Senator Sessions. ``Factors which increase the present 
threat include the release from prison of these members.'' That 
is the Attorney General's own finding.
    Senator Specter. Mr. Holder, that is pretty close to a 
confession. It is more than an admission.
    Mr. Holder. I have not confessed or admitted anything. I do 
not read it that way. You know, we can disagree on that, but--
--
    Senator Specter. Let me ask you if you had read it.
    Mr. Holder. What?
    Senator Specter. You said you didn't read it that way, but 
had you read it before today? Had you read it before the report 
came out?
    Mr. Holder. I have got it right here, underlined in my 
book. Page 11, I think, right?
    Senator Specter. Well, there is some corroborating 
evidence.
    Thank you very much, Mr. Chairman.
    The Chairman. Thank you, Senator Specter.
    Without objection, I will put two letters from Senator 
Leahy in the record right after his remarks, if I can.
    [The letters referred to follow:]

                               United State Senate,
                                Committee on the Judiciary,
                                Washington, DC, September 21, 1999.
The Hon. Janet Reno,
Attorney General,
Department of Justice,
10th Street & Constitution Ave., NW,
Washington, DC.
    Dear Janet: I was troubled to learn through both press reports and 
testimony at a recent committee hearing that victims of some of the 
bombings perpetrated by the FALN were not consulted or even contacted 
with regard to the clemency offers made to some members of that 
organization. Indeed, one victim reported that he learned of the 
clemency offers through a relative who had heard media reports.
    I would appreciate being advised as to whether the views of any 
victims of FALN violence were considered with respect to the clemency 
offers. I would also like to know whether there are procedures and 
policies in place to ensure that the rights of crime victims are 
respected in the clemency process.
    Thank you for your assistance.
            Sincerely,
                                             Patrick Leahy,
                                             United States Senator.
                                 ______
                                 

                        U.S. Department of Justice,
                             Office of Legislative Affairs,
                                Washinglon, DC, September 29, 1999.
The Hon. Patrick Leahy,
United States Senate,
Washington, DC.
    Dear Senator Leahy: I am writing in response to your letter 
concerning consideration of victims during the clemency process. The 
Department appreciates the opportunity to provide you with some general 
information concerning existing policies and procedures for ensuring 
that the interests of crime victims are respected in the clemency 
process.
    The impact of a crime on a victim(s) is important not only 
throughout the trial and sentencing, but also in considering a petition 
for executive clemency. In connection with the evaluation of clemency 
petitions that appear to have some merit or that raise complex factual 
or legal issues, the Pardon Attorney routinely requests information, 
comments, and recommendations from United States Attorneys, including, 
where appropriate, information on the victim impact of a petitioner's 
crime. In describing the role of the United States Attorney in clemency 
matters, the United States Attorneys Manual expressly advises that 
``[t]he United States Attorney can contribute significantly to the 
clemency process by providing factual information and perspectives 
about the offense of conviction that may not be reflected in the 
presentence or background investigation reports or other sources, e.g., 
* * * the victim impact of the petitioner's crime.'' U.S.A.M. Sec. 1-
2.111. Furthermore, a significant factor that is taken into account in 
determining whether to recommend clemency is the extent to which the 
petitioner has made restitution to the victim(s) of his or her conduct. 
U.S.A.M. Sec. Sec. 1-2.112, 1-2.113. When requesting comments on a 
clemency petition, the Pardon Attorney routinely directs the United 
States Attorney to these provisions for guidance in preparing a 
recommendation.
    Finally, the Department's clemency regulations do not presently 
require victim notification before a clemency recommendation is made. 
We will, however, explore this concept with the White House. We believe 
that presidentially approved guidelines or regulations are the most 
appropriate way to address this issue.
    I hope this letter responds to your concerns. We look forward to 
working with you on this and other issues involving the Department.
            Sincerely,
                                           Jon P. Jennings,
                                 Acting Assistant Attorney General.

    The Chairman. Let me turn to Senator Ashcroft at this time.
    Senator Ashcroft. Thank you, Mr. Chairman.
    Mr. Holder, are you aware that the Justice Department has 
now taken the position that it opposes any aspect of a victims 
rights constitutional amendment that would require notice to 
victims before clemency would be granted?
    Mr. Holder. That we have taken a position against that?
    Senator Ashcroft. Is it your view that you don't take such 
a position against it?
    Mr. Holder. I was going to say that is not--I am not aware 
that we have taken that position. I believe that we are in the 
process of interacting with members of Congress on that and 
discussing that internally. I am not aware that we have taken 
that position.
    Senator Ashcroft. Well, the Justice Department has 
contacted a number of Senate staff, including mine, and I think 
Senator Kyl's and others, and I think Senator Feinstein's, to 
that effect.
    Is it the position of the Justice Department that you want 
to be on record as saying that victims of violent crime have no 
role or say in whether criminals who victimize them should be 
sent back out on the street? Do you want a situation where 
there is no requirement for consultation or information?
    Mr. Holder. Clearly not. We have, I think, been in the 
forefront of getting victims more actively involved in the 
process. It has been a failing of our criminal justice system, 
I think, over the years that we have not listened to victims.
    Senator Ashcroft. So is it your view that the policy of the 
Department is to consult with victims?
    Mr. Holder. Yes, that is certainly the policy of the 
Justice Department. As I have said, with regard to the pardon 
process, I think there are ways in which we can do our job 
better than we have done in the past.
    Senator Ashcroft. But if that is the policy, I wonder about 
this memo to Jamie Orenstein from Roger Adams which says that 
any requirement, either in a constitutional amendment that 
actually makes it to enactment or a revision of our regulations 
that requires us to consult even perfunctorily with victims, 
will cause a big change in the way we operate.
    If it is your policy to consult with victims, why would it 
be a big change----
    Mr. Holder. Well, I think the memo----
    Senator Ashcroft [continuing]. If you were just to even 
have to consult with them on a perfunctory basis, let alone in 
a substantive way?
    Mr. Adams. Senator Ashcroft, what I was attempting to 
convey in that memo was any requirement that we had to consult 
with any large number of victims in pardon and/or commutation 
cases would require a big change in the way my office operates. 
I have a very small office; I only have six attorneys, counting 
myself. I simply was saying we don't have the staff to do this 
ourselves. The way the Department----
    Senator Ashcroft. How many commutations and pardons, prior 
to these FALN pardons, did your six attorneys participate in 
since January 1993?
    Mr. Adams. How many were granted?
    Senator Ashcroft. Yes.
    Mr. Adams. Before this, there were three commutations and 
108 pardons.
    Senator Ashcroft. So you would have had 111 situations for 
six attorneys to give notice on over the course of 6\1/2\ 
years?
    Mr. Adams. We have had several hundred cases, Senator 
Ashcroft. We get several hundred petitions a year.
    Senator Ashcroft. My view is--let me just say this--that I 
am not saying before you considered anything at all that you 
would have to involve people in the consultation. What we are 
saying is before you grant a pardon, it seems to me that you 
could go through quite a bit before you decided it was a 
serious enough matter to consider.
    But for six people to handle 111 cases--I happen to have 
spent 8 years as attorney general of a State and we had 
attorneys that were writing 30 appellate briefs a year, and 6 
times 30 would be 180. You are talking about 111 cases over the 
course of 6 years for six people, and you are saying even a 
perfunctory contact--well, first of all, I find this to be a 
contradiction. If it is a policy of the Department to try and 
contact them, and now you say even a perfunctory contact would 
change your practice, and then you say, well, while we do want 
to do it, it would be burdensome for us to do it for six people 
to handle 111 cases of additional contact in 6 years, I find 
that very difficult to understand.
    Mr. Adams. Well, just to put this in some context, Senator 
Ashcroft, it is not 111 cases. Since 1993, my office has 
received almost 5,000 clemency petitions, counting both pardon 
and commutation petitions. What I was saying in that memo was 
it would be a big change for my office. There may well be a lot 
more effective ways for the Department to contact victims, such 
as through the U.S. attorneys' offices. There may be other 
ways. Whether we should do that more is an open question.
    When I was writing that memo to Mr. Orenstein, who is a 
member of Mr. Holder's staff, I was looking at it----
    Senator Ashcroft. Well, then maybe I just need to get this 
clear. I think Mr. Holder just said to me very clearly, and I 
want to affirm this, that the Department of Justice does not 
oppose clemency notice provisions in the victims rights 
amendment which it otherwise had expressed support for.
    Mr. Holder. We have not taken a--I think you asked have we 
taken a position in opposition and I had said we have not done 
that. We are in the process of talking about that.
    Senator Ashcroft. So you do not oppose it?
    Mr. Holder. We were in the process, I think, of deciding 
what our policy was going to be.
    Senator Ashcroft. Have you opposed it?
    Mr. Holder. Senator, I think I just answered the question. 
We are in the process----
    Senator Ashcroft. Well, maybe you could just answer it with 
a yes or no. Have you opposed it, and if you haven't opposed 
it, do you now oppose it?
    Mr. Holder. I would say that we have not opposed it. I 
would not say that we have endorsed it either. I would say we 
are in the process of----
    Senator Ashcroft. Maybe I could ask you just to answer the 
question.
    Mr. Holder. I am; I am answering the question that you are 
asking me in the best way that I can.
    Senator Ashcroft. OK.
    Mr. Holder. That is not maybe conducive to a yes or no 
answer. I am doing the best I can, Senator.
    Senator Ashcroft. Well, I think whether or not you have 
opposed it should be conducive to a yes or no answer. Have you 
opposed it?
    Mr. Holder. We have not opposed it.
    Senator Ashcroft. And do you now oppose it?
    Mr. Holder. We do not now oppose it.
    Senator Ashcroft. Thank you very much.
    Mr. Holder. We have not established a position.
    Senator Ashcroft. That was easy. I think that was painless. 
I mean, that is all I really wanted to ask you if that was the 
case.
    Is it your view that the President's pardoning power is 
subject to no review by the Congress, that it is an outright, 
arbitrary power?
    Mr. Adams. Could I respond to that, Senator?
    Senator Ashcroft. May I ask Mr. Holder a question, please?
    Mr. Holder. I would not say that it is without some degree 
of oversight in the sense that we are here today as you are 
asking members of the Justice Department about our roles in the 
process.
    Senator Ashcroft. I guess what I am really trying to find 
out is whether you believe that the President has no limit on 
his power to grant pardons.
    Mr. Holder. I am not sure that I find in the Constitution, 
subject obviously, of course, to the notion that one cannot do 
things illegally in the sense that, you know, take bribes or 
something along those lines----
    Senator Ashcroft. Is it your view, then, if the President 
were to receive a bribe for issuing a pardon, that would be 
wrong and that is outside his constitutional authority?
    Mr. Holder. That would be wrong and illegal, yes.
    Senator Ashcroft. So that if the Congress wanted to 
discover that, the Congress would have to ask the President to 
answer for motives about his pardon because one of the motives 
might be improper?
    Mr. Holder. It might just be that Congress does not have 
that power. It might simply be that a U.S. attorney or somebody 
would have to investigate that case.
    Senator Ashcroft. And on what would you base your idea that 
there are supervisors to the President in his responsibility 
there that wouldn't be congressional? I thought we spent a good 
deal of the last couple of years saying that the only thing 
that could ever supervise the conduct of a President was the 
Congress.
    Mr. Holder. I mean, if a President engaged in illegal 
activities, the President is like any other citizen.
    Senator Ashcroft. He is, so he should be prosecuted and 
impeachment doesn't have anything to do with it, like any other 
citizen, Mr. Holder?
    Mr. Holder. No, no. There are certain things that obviously 
would have to happen first.
    Senator Ashcroft. I mean, we spent a lot of time last year 
with people from the Justice Department suggesting to us that 
prosecution of a President is sort of an impossibility, that 
the rightful thing is for congressional oversight to evaluate 
whether something illegal has taken place.
    Mr. Holder. And I am saying----
    Senator Ashcroft. I want to make a point here, and I think 
you have helped me make it. It is that there are real questions 
about whether a President has a totally arbitrary right to 
pardon. And in the context of the lack of a totally arbitrary 
right, the oversight agency for the President would be the 
Congress to evaluate whether anything improper, out of line, 
has taken place. For that reason, I think there is a valuable 
line of questioning for the oversight authority of the Congress 
to ask why, and that is really what this Congress has sought to 
do, is to ask why of this President. Frankly, that is a 
question that I wanted to resolve.
    I also wanted to get clearly from you that you do not 
oppose clemency provisions in the victims rights amendment, and 
frankly I am interested to know that you agree that Mr. Adams 
did not state the position of the Justice Department that it 
would be a big change for you to have to give notice.
    Mr. Holder. Well, I mean the ``we'' in that memo that you 
were talking about, I think, refers to the Office of the Pardon 
Attorney. It is a much more restricted statement there. It 
doesn't refer to the Justice Department generally.
    With regard to the question of the President doing 
something illegal, I think that a prosecutor would have the 
ability to investigate allegations involving the President. You 
could not charge a President until the President had been 
impeached or had left office.
    Senator Ashcroft. Maybe I should then ask this question. Is 
it your view that until a prosecutor had investigated the 
President, the Congress would not have authority to inquire of 
his motives?
    Mr. Holder. Through impeachment, clearly, I think the 
Congress would. I think that is clear, through the impeachment 
process.
    Senator Ashcroft. First, I want to make one thing very 
clear. I am not suggesting that here. I am talking about the 
theory of the Constitution. But when you talk about the 
President's ability to shield his communications and to exert 
privilege--and I really think Senator Specter made very 
interesting questions about whether the privilege can spring as 
a result of its existence from the Department and not have to 
be asserted by the President himself, is a kind of interesting 
thing.
    But I don't want to suggest that we are involved in a 
situation that is in any way related to impeachment. I just 
want to sort of set the boundaries that even in rights that a 
President pretty clearly has, very broad rights, there is a 
role for congressional oversight, and I think the kinds of 
things that we have discussed demonstrate that.
    The Chairman. Thank you.
    Senator Abraham, we will turn to you.
    Senator Abraham. Thank you, Mr. Chairman.
    I want to return back, Mr. Adams and Mr. Holder, to this 
issue of trying to elicit information and the views of victims, 
and try to get a sense of your position on this a little more 
clearly as we might contemplate ways we might proceed.
    It seems to me--and I suspect from your perspective after 
this hearing you feel the same way--that there is at least a 
fair amount of congressional sentiment that there ought to be 
some solicitation of views as part of your process. And I guess 
I am trying to be constructive, or I am at least going to try 
to be constructive here in thinking through ways that could 
happen.
    Now, my impression from your memo here that dealt with this 
issue, Mr. Adams, is that there is some concern in your office 
in terms of the manpower to cover some type of victim contact 
if every single case or petition that came to you required 
that. But it seems to me that from what I gather in your 
testimony, and so on, that there is a sort of a cut made by you 
folks before you go to the U.S. attorneys, that you make some 
determination initially based on issues of whether an issue of 
material fact is raised or any suggestion that the application 
may have some merit or if the case presents significant issues, 
et cetera, which precede any determination to start the process 
toward the U.S. attorney. Isn't that right?
    Mr. Adams. That is correct, Senator.
    Senator Abraham. Now, that reduces a fair number. As I 
understand it, more than half of the cases essentially don't 
get to that stage.
    Mr. Adams. A significant number are handled without going 
to the U.S. attorney because we realize that----
    Senator Abraham. The merits just don't----
    Mr. Adams [continuing]. The merits are not there. We 
realize U.S. attorneys are very busy; U.S. attorneys personally 
and U.S. attorneys' offices are very busy places. We try not to 
bother them with cases that are meritless.
    Senator Abraham. I am wondering, I guess, if we can then 
maybe hone this process in on only those instances where there 
is a victim involved and it goes to the stage where you have 
passed it on. I am wondering, do you feel that it would be 
feasible either to have your shop or the relevant U.S. attorney 
involved take an action at that point to solicit the views of 
the victims?
    Mr. Adams. It is still not feasible for my shop to do that 
because I have got six people sitting here in Washington. I 
don't really have the ability. It would indeed be feasible, 
given an unlimited amount of money and willingness on the part 
of U.S. attorneys to impose some sort of requirement through 
regulation.
    And, you know, let me point out, too, the regulations are 
approved by the President. The President would have to say that 
this is what he wants done. But, yes, in a perfect world, with 
unlimited funds and unlimited willingness on the part of U.S. 
attorneys, it would indeed be possible to have a regulation 
requiring----
    Senator Abraham. Well, obviously----
    Mr. Holder. Senator, I disagree respectfully with my 
colleague here because I am not sure we need quite a perfect 
world. I think we could craft a way, given even the resources 
that we have. It would have to involve more than the people in 
the Pardon Attorney's Office, but I think that we have ways in 
which we could, in an appropriate number of cases--and these 
are not the cases, I guess, that we would call summary denials. 
I think there are ways in which, if we put our minds to it, we 
could probably come up with ways to contact victims.
    Senator Abraham. Well, it seems to me we could, too, and I 
guess I would say I appreciate your interjection, Mr. Holder, 
because I was going to say to you, Mr. Adams, that everybody 
who comes before us can say in a perfect world we could do 
this, and so on. We always have to make some assessment of 
priorities, and so does the Department of Justice and so do the 
U.S. attorneys.
    But it seems to me inconceivable that the position of your 
office, an office which is charged with the responsibility 
ultimately of making these fairly significant recommendations 
as to the granting of pardons, would evoke those kinds of 
considerations to totally deny victims a role here and not 
sense that there might be a tremendous amount of public and 
congressional, and I would suspect within the Department 
support for having a balance to this. I mean, clearly, the 
process is set up right now toward the incarcerated criminal 
having a great deal of say. And the notion that we would say, 
well, the resources--it troubles me.
    I appreciate your comments, Mr. Holder, and I guess my next 
question is do you feel that some type of statutory requirement 
would be helpful to you, on which we would perhaps work 
together with you to frame it--would be helpful here to provide 
the kind of authorization that would get this moving. Is that 
something we should work on?
    Mr. Holder. I think we should, to the extent that we can 
work together on this. I guess the only concern I have is, 
again, dealing with a privilege that I think really does rest 
with the President. Exactly how we can work with this Congress 
in this regard is my only concern.
    Senator Abraham. Well, I understand, and I guess I would 
raise here, obviously not to be totally resolved today, it 
seems to me that at least--you know, I understand that the 
ultimate decision a President makes, as well as his decision as 
to what he takes into account, is obviously protected 
constitutionally in the privilege that we have talked about, as 
well as in the duties of the office.
    But it does seem to me that we can statutorily regulate the 
Department's role in the process as an exercise of our powers 
under the Constitution to make all laws which are necessary and 
proper for carrying into execution all powers vested by the 
Constitution. I mean, I think that we have that authority. And 
if the President says, well, I have decided I don't care about 
the victims and I am not going to look at this part of the 
report, I think that is his choice. I think if he decides to 
commute without looking at anything, it his choice. And we can 
get into separately the debate that Senator Ashcroft raised as 
to how Congress might have any kind of capacity to reexamine 
it.
    But the notion that we couldn't require statutorily the 
Department of Justice to prepare this information ultimately up 
to the President to decide whether he uses it--I am not sure 
that we are precluded from doing that. I mean, I don't see why 
we would be constitutionally.
    Mr. Holder. I share your concern about making sure that we 
make victims a part of the process. To be very honest with you, 
I am just not sure off the top of my head, without doing a 
little more research and talking with people at OLC at the 
Justice Department, whether or not Congress would indeed have 
that power. I just don't know.
    Senator Abraham. OK. Let me ask separately on the issue of 
victims being noticed and notified whether or not you feel that 
there is any constitutional bar to a statute that would at 
least provide or require notification of any early release 
before the release actually takes place but after the decision 
of the President.
    Mr. Adams. After the President----
    Senator Abraham. In other words, after the President----
    Mr. Adams. No pre-decisional requirement, but a requirement 
that after----
    Senator Abraham. In other words, let's shift gears here 
from the collection of information to the decision of the 
President. The President makes the decision to commute or 
pardon. Would you see any argument that would prevent us from 
statutorily or otherwise at least requiring notice to the 
victims at that point? I know there have been situations where 
people indicate they didn't know what happened even after it 
happened because not all of them necessarily receive the same 
attention as the case that brings us here today.
    Mr. Holder. Again, this is not something I have really 
considered.
    Senator Abraham. In other words, after-the-fact notice is 
what I am getting at here.
    Mr. Holder. I am less troubled by that, but again there may 
be people far brighter than me at the Justice Department in the 
Office of Legal Counsel who would say, well, Eric, you know, 
you should remember there is this case that says you can't do 
that. I don't know.
    Senator Abraham. Let me ask you, Mr. Adams, what is the 
Department's policy now? Do you have a policy of providing 
notice to victims after the President has made these decisions 
in the 111 or so cases that you mention?
    Mr. Adams. No, my office does not.
    Senator Abraham. Does the Department in any way, in any 
other of the offices?
    Mr. Adams. I would have to join with Mr. Holder and say I 
don't know. There may be a provision in commutation cases; 
there may be a provision under which the Bureau of Prisons is 
required to notify people before at least certain types of 
inmates are released, regardless of the way the release was 
ordered. But I just don't know off the top of my head.
    Senator Abraham. I will be very interested in that aspect 
of it, too. I wanted to focus on these two components because 
it seems to me you have got two situations here where some 
constructive improvements are possible. We may debate how that 
happens, whether it is in the executive context only or through 
a statutory action, although again I don't see how we are 
barred from statutorily putting in place a system of 
information collection which may or may not then be used by the 
President in making these decisions. But it does seem that is 
part of it, and a second part of it certainly would be the 
issue of assuring some type of after-the-fact notice.
    And so, Mr. Chairman, I thank you for convening the 
hearing. I want to work with you on these two issues that I 
have raised here today as we move forward. We may have some 
questions for our witnesses aimed at trying to get specifically 
to the bottom of these issues that have not been fully 
resolved, and I thank the witnesses.
    The Chairman. Thank you.
    Just to clarify this matter and to clear up some 
misunderstandings that some people may have, other than the 
White House Counsel's Office, did you chat with anybody else in 
the White House about this decision the President made?
    Mr. Adams. Mr. Chairman, I only talk with people in the 
White House Counsel's Office. Neither I nor anyone on my staff 
is authorized to talk with anyone other than people in the 
White House Counsel's Office.
    The Chairman. How about you, Mr. Holder? Anybody in the 
Justice Department?
    Mr. Holder. Not to my knowledge.
    The Chairman. In conclusion, let me just say that I am very 
disturbed by what we have heard about this FALN controversy. 
This issue has troubled me from the outset, and nothing I have 
heard here today has alleviated those concerns in the least.
    As I said in my opening remarks, I will be working to craft 
reforms which will assure that the Pardon Attorney's Office 
complies with its own regulations and weighs the views of 
victims in the process. In addition, I believe that the Senate 
Judiciary Committee must do more to assess the threat created 
by the President's decision.
    In the days ahead, I am going to work to produce a 
complete, expedited assessment of the threat created by the 
President's decision to the American public, as well as the 
judges, prosecutors and witnesses involved in the FALN 
prosecutions. So I am very concerned about it.
    Naturally, this has not been the most pleasant hearing for 
you, but it is something that I think is essential so that we 
don't have something like this happen again without full 
consideration and full observance of the rules and the 
procedures of the Justice Department, and, of course, that 
everybody realize that the public at large is very concerned 
about these issues, and especially in this particular FALN 
case.
    So with that, I appreciate having you both here and we will 
adjourn until further notice.
    [Whereupon, at 11:56 a.m., the committee was adjourned.]

    [GRAPHIC] [TIFF OMITTED] T8017.017
    
    [GRAPHIC] [TIFF OMITTED] T8017.018
    
    [GRAPHIC] [TIFF OMITTED] T8017.019
    
    [GRAPHIC] [TIFF OMITTED] T8017.020
    
    [GRAPHIC] [TIFF OMITTED] T8017.021
    
    [GRAPHIC] [TIFF OMITTED] T8017.022
    
    [GRAPHIC] [TIFF OMITTED] T8017.023
    
    [GRAPHIC] [TIFF OMITTED] T8017.024
    
    [GRAPHIC] [TIFF OMITTED] T8017.025
    
    [GRAPHIC] [TIFF OMITTED] T8017.026
    
    [GRAPHIC] [TIFF OMITTED] T8017.027
    
    [GRAPHIC] [TIFF OMITTED] T8017.028
    
    [GRAPHIC] [TIFF OMITTED] T8017.029
    
    [GRAPHIC] [TIFF OMITTED] T8017.030
    
    [GRAPHIC] [TIFF OMITTED] T8017.031
    
    [GRAPHIC] [TIFF OMITTED] T8017.032
    
    [GRAPHIC] [TIFF OMITTED] T8017.033
    
    [GRAPHIC] [TIFF OMITTED] T8017.034
    
    [GRAPHIC] [TIFF OMITTED] T8017.035
    
    [GRAPHIC] [TIFF OMITTED] T8017.036
    
    [GRAPHIC] [TIFF OMITTED] T8017.037
    
    [GRAPHIC] [TIFF OMITTED] T8017.038
    
    [GRAPHIC] [TIFF OMITTED] T8017.039
    
    [GRAPHIC] [TIFF OMITTED] T8017.040
    
    [GRAPHIC] [TIFF OMITTED] T8017.041
    
    [GRAPHIC] [TIFF OMITTED] T8017.042
    

</pre></body></html>
